No. _________
================================================================

In The

Supreme Court of the United States
---------------------------------i--------------------------------KEVIN LAMPKIN; STEPHEN MILLER, individually
and on behalf of all others similarly situated;
JOE BROWN; FRANK GITTESS; TERRY NELSON;
DIANNE SWIBER; ROBERT FERRELL,
Petitioners,
v.
UBS FINANCIAL SERVICES, INCORPORATED;
formerly known as UBS Painewebber, Incorporated;
UBS SECURITIES, L.L.C., formerly known
as UBS Warburg, L.L.C.,
Respondents.
---------------------------------i--------------------------------On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit
---------------------------------i--------------------------------APPENDIX
VOLUME ONE
---------------------------------i--------------------------------ANDY TINDEL
Counsel of Record
MT2 LAW GROUP
112 East Line Street,
 Ste. 304
Tyler, Texas 75702
(903) 596-0900
atindel@andytindel.com

BONNIE E. SPENCER
DAWN MEADE
DAVID AUGUSTUS
THE SPENCER LAW FIRM
4635 Southwest Freeway,
 Ste. 900
Houston, Texas 77027
(713) 961-7770

================================================================
COCKLE LEGAL BRIEFS (800) 225-6964
WWW.COCKLELEGALBRIEFS.COM

i
APPENDIX
Page
United States Court of Appeals for the Fifth Circuit, Opinion, May 24, 2019 ............................. App. 1
United States Court of Appeals for the Fifth Circuit, Judgment, May 24, 2019 ........................ App. 29
United States District Court for the Southern
District of Texas, Opinion and Order, February 28, 2017 .................................................... App. 31
United States District Court for the Southern
District of Texas, Final Judgment of Dismissal, February 28, 2017 .................................. App. 241
Relevant Statutes ............................................ App. 243
Docket, United States District Court for the
Southern District of Texas, 4:02-cv-00851 ...... App. 261
Plaintiffs’ Third Amended Class Action Complaint ............................................................ App. 336

App. 1
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-20608
-----------------------------------------------------------------------

KEVIN LAMPKIN; STEPHEN MILLER, individually
and on behalf of all others similarly situated; JOE
BROWN; FRANK GITTESS; TERRY NELSON; DIANNE [sic] SWIBER; ROBERT FERRELL,
Plaintiffs - Appellants
v.
UBS FINANCIAL SERVICES, INCORPORATED, formerly known as UBS Painewebber, Incorporated; UBS
SECURITIES, L.L.C., formerly known as UBS Warburg, L.L.C.,
Defendants - Appellees
-----------------------------------------------------------------------

Appeal from the United States District Court
for the Southern District of Texas
-----------------------------------------------------------------------

(Filed May 24, 2019)
Before HIGGINBOTHAM, SMITH, and GRAVES, Circuit Judges.
PATRICK E. HIGGINBOTHAM, Circuit Judge:
This is another appeal arising out of the collapse
of Enron. Plaintiffs are individual retail-brokerage
customers of Paine-Webber who purchased Enron

App. 2
securities and Enron employees who acquired employee stock options. Plaintiffs brought this action
against subsidiaries of UBS, alleging violations of the
securities laws for their role as a broker of Enron’s
employee stock option plan and for failure to disclose
material information about Enron’s financial manipulations to its retail investors. The case was initially
consolidated into the Enron MDL until the plaintiffs
elected to proceed on their own complaint. After a
lengthy stay and multiple amendments to their original pleading, the district court dismissed the complaint for failure to state a claim. We affirm.
I.
Plaintiffs-Appellants bring this putative class action alleging violations of the securities laws against
Defendants-Appellees UBS Financial Services, Inc.
(formerly UBS PaineWebber (“PaineWebber”)) and
UBS Securities LLC (formerly UBS Warburg LLC
(“Warburg”)). During the relevant time period, PaineWebber and Warburg were separate legal entities and
subsidiaries of UBS AG.
Plaintiffs fall into two groups: (1) individual retailbrokerage customers of PaineWebber who purchased
Enron securities in a PaineWebber brokerage account
between November 5, 2000 and December 2, 2001 and
(2) Enron employees who acquired Enron stock option
securities through their employment between October
19, 1998 and November 19, 2001, which they allege
that PaineWebber underwrote (§ 11 claims) and sold

App. 3
(§ 12 claims). PaineWebber provided retail brokerage
services to individuals and was acquired by UBS in
July 2000. Warburg provided investment-banking services to institutional clients.
Until its collapse in late 2001, Enron was the seventh largest corporation in the world. Enron began as
a traditional energy production and transmission company, concentrating in natural gas pipelines, but
quickly grew into an “industry leader in the purchase,
transportation, marketing, and sale of natural gas and
electricity” and related financial instruments. Enron’s
rapid expansion made it a large consumer of cash and
the company considered its credit ratings critical to its
success. According to the complaint, Enron began to
“seriously manipulate [its] financials” to conceal the
negative effects of its accounting practices on public financial statements. After a series of financial disclosures and restatements events spiraled: the company’s
CFO, Andrew Fastow, was placed on a leave of absence,
the Board of Directors formed a special committee to
investigate the financial disclosures, and eventually,
Enron filed for bankruptcy.
Plaintiffs allege that UBS1 and Enron maintained
a “mutually self-serving relationship that took
 Throughout the complaint, plaintiffs refer generally to
“UBS.” Plaintiffs state at the outset that “P[aine]W[ebber], Warburg, and UBS AG may be collectively referred to herein as
‘UBS.’ ” When describing allegations in the complaint, we use the
language of the complaint with respect to which defendant was
responsible for each alleged action. Defendants reject the notion
that they can be viewed as a “joint venture” for purposes of
1

App. 4
precedence over and conflicted with the interests of
UBS’s retail customers.” They claim that PaineWebber
provided millions of retail investors to whom Enron
securities could be funneled, transferring Enron’s risk
into the marketplace and, in return, Enron chose
PaineWebber as the administrator of its Enron Employee Stock Option Plans, giving UBS the “first bite
at capturing Enron employee wealth to generate retail
fees and income.” Enron granted stock option plans
to its employees in 1991, 1994, and 1999.2 Under the
terms of the plans, an Enron board committee3 had the
sole authority to designate participants in the stock
plan and determine the types of awards to be granted
to a participant, which were granted “for no cash consideration or for such minimal cash consideration as
may be required by law.” PaineWebber contracted to
provide brokerage services for those plans, agreeing to
serve as the “exclusive broker for stock option exercises
of all [Enron’s] publicly traded securities.” While
assessing liability under the securities laws, and that argument
is discussed infra, Section III.
2
 Defendants attached copies of the 1999 Enron Stock Plan,
and the “letter agreement” through which PaineWebber agreed to
provide broker financing to Enron for the execution of employee
stock options, to its motion to dismiss before the district court.
Those documents are properly considered here. Causey v. Sewell
Cadillac-Chevrolet, Inc., 394 F.3d 285, 288 (5th Cir. 2004) (“Documents that a defendant attaches to a motion to dismiss are considered part of the pleadings if they are referred to in the
plaintiff ’s complaint and are central to her claim.”).
3
 “Committee” is defined as “a committee of the Board of Directors of the Company designated by such Board to administer
the Plan and composed of not less than two outside directors.”

App. 5
Enron granted the options, PaineWebber was tasked
with facilitating the option exercises and providing
record-keeping services related to the exercise of options. On the basis of those allegations, plaintiffs claim
violations under Sections 11 and 12 of the Securities
Act
of 1933 (the “Securities Act”).4 Plaintiffs claim that
PaineWebber violated the Securities Act by acting as a
“seller” and “underwriter” of Enron securities within
the meaning of that statute, making PaineWebber liable for “materially false statements contained in the
Enron prospectuses and registration statements” for
Enron stock.
Plaintiffs also allege that UBS had knowledge of
Enron’s “financial chicanery” because of its “long
standing banking history with Enron.” Emphasizing
that UBS is a single, integrated business venture,
plaintiffs allege that UBS positioned itself between its
retail brokerage clients and Enron, its corporate client,
making it impossible for UBS to fulfill its legal obligations to both groups. They claim UBS had material
nonpublic information about Enron’s financial manipulations and a duty to disclose that information to its
retail-brokerage customers. Plaintiffs highlight several transactions UBS participated in that they allege
evidence UBS’s knowledge of material information: (1)
1999 and 2000 amendments of equity-forward contracts, (2) participation in Osprey and Yosemite IV financial structures, and (3) participation in the Enron
4

 15 U.S.C. §§ 77k, 77l.

App. 6
E-Next Generation Loan. According to plaintiffs, those
transactions were devices and schemes designed to inflate the appearance of Enron’s financial status.
Equity-forward contracts were financial instruments through which Enron was contractually obligated to purchase a specific number of Enron shares at
a specific price from UBS and UBS had to deliver to
Enron a specific number of shares at a specific price.
The complaint alleges that those instruments were, in
substance, undocumented and undisclosed loans to Enron to support Enron’s hedge transactions used to
manage its income. It documents two restructurings in
1999 and 2000 through which UBS increased the forward contract price, allowing Enron to extract the
value from the shares in the amount of the difference
between the initial forward contract price and the increased market value of the shares. Plaintiffs allege
that these restructurings provided Enron hedges for
assets that could not be hedged as well as seed money
for elicit accounting and that UBS had “institutional
knowledge of their fraudulent nature.”
With respect to its participation in the Osprey and
Yosemite IV transactions, plaintiffs allege that UBS
participated in a follow-on offering of notes issued in
connection with Enron’s Osprey structure and purchased Enron credit-linked notes offered as part of Enron’s Yosemite IV structure. Plaintiffs claim that UBS
relied on other firms’ diligence and failed to undertake
its own due diligence in contravention of “relevant industry standards and UBS’s own internal policies.” By
failing to conduct its own due diligence, plaintiffs claim

App. 7
UBS acted recklessly in failing to learn that “Enron
used the Osprey structure to generate income by parking overvalued, non-performing assets in the structure.” Similarly, plaintiffs allege UBS either knew, or
was reckless in not knowing, that Enron used the Yosemite IV transactions to obtain disguised loans.
Finally, plaintiffs allege that E-Next Generation is
“the best documented example of UBS participating in
a materially false public presentation of Enron’s financial appearance.” They claim that UBS created an offbalance sheet loan to allow Enron to finance “the construction of its US electric generating build out and
then, once the construction was complete, bring the
project onto Enron’s balance sheet” after it started generating revenues. Plaintiffs allege that the existence of
the loan and its structure to avoid public disclosure
were material facts to investors.
On the basis of those allegations, plaintiffs claim
violations of Section 10(b) of the Securities Exchange
Act of 1934 (the “Exchange Act”)5 and Rule 10b-5
thereunder.6 They claim UBS violated Section 10(b) of
the Exchange Act and Rule 10b-5 thereunder by failing
to disclose the conflicts under which it operated its brokerage business and the information and knowledge it
possessed during the class period concerning the manipulation of Enron’s public financial appearance.
Plaintiffs contend that defendants’ acts, practices, and
course of business combined to operate a fraud upon
5
6

 15 U.S.C. § 78j(b).
 17 C.F.R. § 240.10b-5.

App. 8
the plaintiffs, deceiving them “into believing the price
at which they purchased or held their Enron securities
was determined by the natural interplay of supply and
demand.”
This case was initially filed in March 2002 and has
a long procedural history. Plaintiffs filed a second
amended complaint in June 2002 and, in November of
that year, this case was coordinated with a multidistrict litigation under the lead case Newby v. Enron
Corp. In November 2003, the district court denied defendants’ motion to dismiss the second amended complaint and the case proceeded to discovery. In July
2006, the district court ordered all MDL plaintiffs who
wanted to proceed under their own complaints to give
notice of that intent, which plaintiffs did, opting to
“proceed under their own independent complaint, as finally amended.” The operative third amended complaint was filed the next month and defendants filed a
timely motion to dismiss. Shortly thereafter, this court
decertified the Newby class7 and the Supreme Court
granted certiorari on a case concerning the scope of liability under Section 10(b) of the Exchange Act.8 The
district court stayed this case pending resolution of
Stoneridge by the Supreme Court. Two years after the
Supreme Court’s decision came down, plaintiffs moved
to lift the stay and, a year later, the district court lifted
that stay. Plaintiffs moved to amend their complaint a
 Regents of Univ. of Cal. V. Credit Suisse First Bos., 482 F.3d
372, 377 (5th Cir. 2007).
8
 Stoneridge Inv. Partners, LLC v. Scientific-Atlanta, Inc.,
552 U.S. 148 (2008).
7

App. 9
fourth time and the district court denied plaintiffs’ motion as untimely. In February 2017, five and a half
years after the stay was lifted, the district court
granted defendants’ motion to dismiss and denied
plaintiffs’ subsequent motion for reconsideration. This
appeal followed.
II.
“This court reviews de novo a district court’s grant
or denial of a Rule 12(b)(6) motion to dismiss, ‘accepting all well-pleaded facts as true and viewing those
facts in the light most favorable to the plaintiff[.]’ ”9 “To
survive a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’ ”10 “A claim
has facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.”11 However, “the tenet that a court must
accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions” or “[t]hreadbare recitals of the elements of a cause of action,
supported by mere conclusory statements.”12 Where a
plaintiff alleges fraud, Fed. R. Civ. P. 9(b) “creates a
heightened
pleading
requirement
that
‘the
 True v. Robles, 571 F.3d 412, 417 (5th Cir. 2009) (quoting
Stokes v. Gann, 498 F.3d 483, 484 (5th Cir. 2007)).
10
 Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
11
 Id. (citing Twombly, 550 U.S. at 556).
12
 Id. (citing Twombly, 550 U.S. at 555).
9

App. 10
circumstances constituting fraud or mistake shall be
stated with particularity.’ ”13 To meet that heightened
pleading standard, “the who, what, when, and where
must be laid out before access to the discovery process
is granted.”14 Securities fraud claims under Section
10(b) are subject to Rule 9(b)’s heightened pleading
standards.15
This court reviews a district court’s decision denying a motion for leave to amend for abuse of discretion.16 Fed. R. Civ. P. 16(b) governs amendments to
pleadings after a scheduling order has been entered by
the district court17 and provides that a scheduling order “may be modified only for good cause and with the
judge’s consent.”18
III.
Plaintiffs bring claims against PaineWebber in its
capacity as “the exclusive broker and stock option
plan administrator for Enron,” contending that PaineWebber is liable for false statements in Enron’s
 United States ex rel. Rafizadeh v. Cont’l Common, Inc., 553
F.3d 869, 872 (5th Cir. 2008) (quoting Fed. R. Civ. P. 9(b)).
14
 Southland Secs. Corp. v. Inspire Ins. Sols., Inc., 365 F.3d
353 (5th Cir. 2004) (quoting ABC Arbitrage Plaintiffs Grp. v.
Tchuruk, 291 F.3d 336, 349 (5th Cir. 2002)).
15
 Id. at 3620
16
 Moore v. Manns, 732 F.3d 454, 456 (5th Cir. 2013) (citing
Wilson v. Bruks-Klockner, Inc., 602 F.3d 363, 368 (5th Cir. 2010).
17
 S&W Enters., LLC v. SouthTrust Bank of Ala., NA, 315
F.3d 533, 535 (5th Cir. 2003).
18
 Fed. R. Civ. P. 16(b)(4).
13

App. 11
prospectuses and registration statements. Under Section 11, an underwriter can be liable to a person who
acquires a security where the registration statement
“contained an untrue statement of a material fact or
omitted to state a material fact required to be stated
therein.”19 Under Section 12, any person who “offers or
sells a security,” with a prospectus or oral communication “which includes an untrue statement of a material
fact or omits to state a material fact necessary in order
to make such statements, in the light of the circumstances under which they were made, not misleading,”
is liable to the person “purchasing such security from
him.”20
The parties dispute whether the Enron employee
stock option plans amounted to a sale of securities
within the meaning of the statute. The district court
held that the stock option plans did not constitute a
sale as a matter of law because “there is no investment
of money in a common enterprise with profits to come
solely from the efforts of others, for which the plan participants expect a profit and . . . because Enron’s stock
option plans are noncontributory and compulsory for
its employees.” Plaintiffs contend that the district
court erred by conflating employee stock ownership
plans and employee stock option plans. While an employee benefit plan requires a court to determine
whether the beneficiary interest is a security, plaintiffs
assert that the stock options here are securities under
19
20

 15 U.S.C. § 77k(a)(5).
 15 U.S.C. § 77l(a)(2).

App. 12
the statutory definition, meaning the Daniel test to determine whether the interest is a security is inapplicable. Relying on the same distinction, plaintiffs
maintain that the SEC’s “no-sale doctrine” for employee benefit plans does not apply to employee stock
option plans. Plaintiffs contend that there was a “sale”
here because the grant of the Enron options was “for
value”—the provision of services through employment.
Sections 11 and 12 expressly limit liability to “purchasers or sellers of securities.”21 The Securities Act
defines a sale as “every contract of sale or disposition
of a security or interest in a security, for value.”22 In
Daniel, the Supreme Court determined that an employee’s “participation in a noncontributory, compulsory pension plan” is not the equivalent of purchasing
a security.23 To determine whether a transaction “constitutes an investment contract, ‘[t]he test is whether
the scheme involves an investment of money in a common enterprise with profits to come solely from the
efforts of others.’ ”24 The Court noted that for the employees participating in the pension plan, the “purported investment is a relatively insignificant part” of
the employee’s total compensation, and the decision
 Blue Chip Stamps v. Manor Drug Stores, 421 U.S. 723, 736
(1975) (“§ 11(a) of the 1933 Act confines the cause of action it
grants to ‘any person acquiring such security’ while the remedy
granted by § 12 of that Act is limited to the ‘person purchasing
such security.’ ”).
22
 15 U.S.C. § 77b(a)(3).
23
 Int’l Brotherhood of Teamsters v. Daniel, 439 U.S. 551, 558
(1979) (citing SEC v. W.J. Howey Co., 328 U.S. 293, 300 (1946)).
24
 Id.
21

App. 13
to accept and retain employment likely had only an attenuated relationship to the investment.25 For that
reason, participation in the noncontributory, compulsory pension plan was unlike other cases where the
Court recognized “the presence of a ‘security’ under the
Securities Acts”—in those cases the investor gave up a
specific consideration in return for a “separable financial interest with the characteristics of a security.”26
Shortly after Daniel, the SEC issued a release to
“resolve the uncertainty” surrounding Daniel’s application to “many types of employee benefit plans not
covered by the decision.”27 In that release, the SEC
clarified that “for the registration and antifraud provisions of the 1933 Act to be applicable, there must be an
offer or sale of a security.”28 The SEC went on to explain
that although “plans under which an employer awards
shares of its stock to covered employees at no direct
cost to the employees” do award securities, “there is no
‘sale’ in the 1933 Act sense to employees, since such
persons do not individually bargain to contribute cash
or other tangible or definable consideration to such
plans.”29 The following year, the SEC released a second
interpretive release to supplement the 1980 release
and “provide further guidance and assistance to employers and plan participants in complying with the
 Id. at 560.
 Id. at 559.
27
 SEC Release No. 33-6188, 45 F.R. 8960 (Feb. 1, 1980).
28
 Id. at 8962.
29
 Id. at 8968.
25
26

App. 14
Act.”30 The SEC clarified the definition of voluntary
and contributory plans, noting “it is the staff ’s view
that the determination of whether a plan is a voluntary contributory one rests solely on whether the participating employees can decide at some point whether
or not to contribute their own funds to the plan.”31 In
an interpretive release on Regulation D exemptions,
the SEC noted “[i]n a typical plan, the grant of the options will not be deemed a sale of a security for purposes of the Securities Act.”32 PaineWebber also points
to a number of “No Action Letters” sent by the SEC
that support the conclusion that the SEC does not consider a compulsory option grant a “sale” under the Securities Act.33

 SEC Release No. 33-6281, 1981 WL 36298 (Jan. 15, 1981).
 Id. at *2.
32
 SEC Release No. 33-6455, 48 F.R. 10045, 10054 (March 10,
1983). Plaintiffs take pains to minimize this statement, correctly
noting that it was made in the context of defining the scope of
Regulation D exemptions for an employee stock option plan for
key employees. Id. While they are correct about the context, the
statement did not explicitly limit its no-sale determination to that
narrower context. While not determinative on its own, the statement further supports PaineWebber’s position that the compulsory option grants were not a sale under the meaning of the
Securities Act.
33
 See e.g., Sarnoff Corp., SEC No-Action Letter, 2001 WL
811033, at *10 (July 16, 2001) (“As discussed earlier, Sarnoff
would give employees Interests or options to acquire Interests at
no cost, and would receive no cash, property, services, or surrender of a legal right in exchange for the Interests or options (including upon exercise of the options). Rather, Sarnoff employees
would be fully, fairly, and completely compensated for their employment activities on behalf of Sarnoff through Sarnoff ’s
30
31

App. 15
Consistent with the interpretations of the SEC,
courts have extended Daniel to compulsory and involuntary employee stock option plans.34 “A hallmark of a
‘voluntary’ plan is the ability of the employee to make
an ‘investment decision’ to acquire the stock options.”35
The central question of Daniel is “whether employees
made an investment decision that could be influenced
by fraud or manipulation.”36 Where employees’ participation is an “incident of employment,” there is no bargained-for exchange that requires an affirmative
investment decision37—under Daniel, the “exchange of
labor” is insufficient.38
Plaintiffs assert that the cases extending the nosale doctrine to employee stock option plans are a pernicious “disease” infecting the federal jurisprudence—
standard salary, bonuses, and similar compensation. Hence, the
Program would not involve the ‘sale,’ ‘offer for sale,’ or ‘solicitation
of an offer to buy’ securities and no registration therefore should
be required under the Securities Act.”).
34
 See e.g., In re Cendant Corp. Sec. Litig., 76 F. Supp. 2d 539,
544–45 (D.N.J. 1999) (“[C]ourts apply the SEC’s ‘no sale’ doctrine
when an employee’s plan is found to be compulsory and noncontributory. This reasoning has been extended to employee stock
option plans.”) (internal citation omitted).
35
 In re Cendant Corp. Sec. Litig., 81 F. Supp. 2d 550 (D.N.J.
2000) (internal citation omitted).
36
 In re Lehman Bros. Holdings Inc., 855 F.3d 459, 469 (2d
Cir. 2017).
37
 In re Cendant Corp., 76 F. Supp. 2d at 545 (quoting Childers v. Northwest Airlines, Inc., 688 F. Supp. 1357, 1363 (D. Minn.
1988)).
38
 Id. (quoting Bauman v. Bish, 571 F. Supp. 1054, 1064
(N.D.W. Va. 1983)).

App. 16
they maintain that the doctrine is limited to ERISA
employee benefit plans like the employee pension plan
at issue in Daniel and certain employee stock ownership plans. But as the district court correctly recognized, the grant of options to employees here was not a
sale. The employees did not bargain for the options and
they were granted for no cash consideration. Plaintiffs
attempt to distinguish option grants by pointing out
that the employees would be forced to make an affirmative investment decision after the grants were
made—at that point, employees would decide whether
to exercise the option or allow it to expire unexercised.
However, plaintiffs expressly disclaim reliance on the
exercise of the options. Indeed they repeatedly emphasize that “[t]he Options Plaintiffs’ claims in no way depend upon the exercise of a stock option to purchase
the underlying stock.” Their claim is based entirely on
the grant of the options—an action which required no
affirmative investment decision by the plaintiffs. Their
theory that option grants fall outside the purview of
the no-sale doctrine is contradictory: the affirmative
investment decision is made when the employees decide whether to exercise their options, but their claims
are explicitly based only on the grant of the options.
Finding no caselaw to support their position,
plaintiffs rely heavily on an SEC proceeding against
Google, Inc. and David Drummond, Google’s general
counsel.39 The SEC instituted cease-and-desist proceedings against Google and Drummond for failing to
 In the Matter of Google, Inc. and David C. Drummond,
SEC Admin. Proc. No. 3-11795, Rel. No. 8523 (Jan. 13, 2005).
39

App. 17
comply with Rule 701, which provides certain Securities Act exemptions to securities issuers who are not
subject to the Exchange Act’s reporting requirements.40 Rule 701 is designed to “allow[ ] privately-held
companies to compensate their employees with securities without incurring the obligations of public registration and reporting.”41 The SEC determined that
Google—a privately-held company to whom Rule 701
applied—and Drummond violated or caused the company to violate its reporting requirements by exceeding the $5 million threshold set out by Rule 701.42
Plaintiffs contend that the proceedings “confirm” that
granting stock options involves a sale within the meaning of the Securities Act. Plaintiffs overread those proceedings. While their interpretation is a plausible
extension of the Google decision, the SEC did not address the no-sale doctrine and made its decision in the
context of concluding which exemptions a private company could take advantage of.43 We are not persuaded
that the SEC’s decision in Google indicates a wholesale
rejection of the no-sale doctrine in the context of employee option grants. Finally, even if the Google decision did represent a change in the SEC’s stance—and
we conclude it does not—plaintiffs fail to show how

 Id. at *2; 17 C.F.R. § 230.701(b)(1).
 Id.
42
 Id.
43
 In addition to Rule 701, the SEC considered whether the
Google option grants qualified under Section 4(2), which exempts
certain private security offerings and Rule 506, which provides an
exemption for options issued to certain accredited investors. Id.
40
41

App. 18
that 2005 decision could be applied retroactively to
PaineWebber’s actions between 1998 and 2001.44
At base, plaintiffs [sic] Securities Act claims fail
because their participation in the Employee Stock Option Plan was compulsory and employees furnished no
value, or tangible and definable consideration in exchange for the option grants. The Court in Daniel rejected the idea that the exchange of labor was
sufficient consideration in the context of a compulsory,
non-contributory pension plan—the same logic applies
to the option plan at issue here.45 Plaintiffs made no
investment decision in the grant of the options, the Enron plans were compulsory and non-contributory. The
fact that plaintiffs would eventually make an affirmative investment decision—whether to exercise the option or let it expire—at some point in the future is of
no consequence. Plaintiffs’ claims are based explicitly
on the grant of the option, not the exercise of that option. Because plaintiffs have not overcome the most
fundamental hurdle to their Securities Act claims, we
need not consider UBS’s alternative arguments that
(1) PaineWebber was not an underwriter or seller; (2)
plaintiffs failed to allege that any false prospectus or
registration statement covered the Enron options; and
(3) that plaintiffs failed to plead damages. Plaintiffs’
Securities Act claims require a sale—plaintiffs have
failed to demonstrate that the grant of Enron options
 Bowen v. Georgetown Univ. Hosp., 488 U.S. 204, 208 (1988)
(“[A]dministrative rules will not be construed to have retroactive
effect unless their language requires this result.”).
45
 Daniel, 439 U.S. at 569.
44

App. 19
amounted to the sale of a security. For those reasons,
the district court correctly dismissed plaintiffs’ Section
11 and Section 12 claims.
IV.
In their second set of claims, the retail-brokerage
customer plaintiffs contend that UBS violated Section
10(b) of the Exchange Act and Rule 10b-5 thereunder
by failing to disclose information and knowledge regarding “the manipulation of Enron’s public financial
appearance” in the face of a duty to do so. To state a
claim for securities fraud under Section 10(b) of the
Exchange Act, a plaintiff must adequately allege “(1) a
material misrepresentation (or omission); (2) scienter,
i.e., a wrongful state of mind; (3) a connection with the
purchase or sale of a security; (4) reliance . . . ; (5) economic loss; and (6) loss causation, i.e., a causal connection between the material misrepresentation and the
loss.”46 Plaintiffs’ claims are based on UBS’s alleged silence in violation of a duty to disclose. The crux of
plaintiffs’ claim is that PaineWebber and Warburg
united in a joint venture named UBS, that that joint
venture owed a duty to its retail brokerage clients
stemming from the security industry’s self-regulatory
organization rules and UBS’s “special relationship”
with plaintiffs, and that UBS failed to disclose information that “Enron manipulated and materially misstated its financial results to the public.”
 Dura Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336, 341–
42 (2005) (internal citations omitted).
46

App. 20
The district court concluded that plaintiffs failed
to plead sufficient facts to support a plausible claim
that Warburg and PaineWebber functioned as a single
entity, did not establish that defendants acted with scienter, and did not establish that Warburg or UBS AG,
which were not parties to the contract between Enron
and PaineWebber, owed a duty to plaintiffs. Essentially, the district court determined that plaintiffs had
not shown that Warburg owed a duty to disclose information it possessed to clients of PaineWebber by virtue
of any “joint venture” between Warburg and PaineWebber and, in fact, that Warburg could not share information with PaineWebber because of “federally
required Chinese Walls” between PaineWebber and
Warburg, in its capacity as an investment bank.
After the parties submitted their briefing in this
case, another panel of this court issued an unpublished
decision in a related case, affirming the same district
court’s dismissal of similar Exchange Act claims
brought by PaineWebber customers who had bought
Enron bonds or other debt instruments.47 In their response to defendants’ 28(j) letter, plaintiffs attempt to
distinguish Giancarlo by stating that the panel
“simply found the [appellate] briefing submitted by
the Giancarlo plaintiffs’ [sic] insufficient to demonstrate
a § 10(b) claim” and based its decision on those
 Giancarlo v. UBS Fin. Servs., Inc., 725 F. App’x 278 (5th
Cir. 2018) (unpublished), cert denied, 139 S. Ct. 199 (2018). As
defendants note in their 28(j) letter to this court, Giancarlo was
litigated in parallel with the instant action by the same counsel
before the same district court. See Feb. 28, 2018 28(j) Letter.
47

App. 21
deficiencies rather than “perceived deficiencies in their
pleading in the trial court.”48 Plaintiffs assert that the
panel’s decision “is not a decision on the merits of the
§ 10(b) claim asserted by the Plaintiffs in the Lampkin
case.”49 That characterization is inconsistent with the
panel opinion, which held that plaintiffs had not adequately established the existence of a joint venture,
nor put forth any other theory that permitted aggregation of the actions and knowledge of the defendant entities,50 and had failed to establish that any one
defendant had material non-public knowledge and a
duty to disclose that knowledge to the plaintiffs.51 The
panel concluded, therefore, that “the district court
properly dismissed Plaintiffs’ amended complaint.”52
Although we are not bound by an unpublished decision, we find the reasoning in Giancarlo persuasive
and adopt it here.
First, plaintiffs contend that they adequately alleged that PaineWebber and Warburg united to form a
joint venture named UBS. Plaintiffs urge that because
PaineWebber and Warburg were incorporated under
Delaware law, the court looks to the Delaware standard for establishing that a joint venture exists: where
there is (1) a community of interest in the performance
of a common purpose, (2) joint control or right of
 March 6, 2018 Response to 28(j) Letter.
 Id.
50
 Giancarlo, 725 F. App’x at 284.
51
 Id. at 286.
52
 Id.
48
49

App. 22
control, (3) a joint proprietary interest in the subject
matter, (4) a right to share in the profits, (5) a duty to
share in the losses which must be sustained.53 Plaintiffs point to allegations that UBS made public admissions in media releases describing itself as an
“integrated” bank and predicted in a press release after PaineWebber’s acquisition that PaineWebber
would become “an integral part of UBS Warburg.”
However, like the plaintiffs in Giancarlo, plaintiffs
here do not explain how the allegations they point to
support a finding that defendants shared profits or
losses or establish that defendants had joint control or
right of control over the joint venture.54 The press releases described by plaintiffs support a shared interest
but are insufficient to support joint venture liability
under Delaware law—as this court in Giancarlo emphasized, “vague corporate platitudes about integration as a firm” are insufficient to support a finding of
joint venture liability.55 Beyond plaintiffs’ conclusory
 Warren v. Goldinger Bros., Inc., 414 A.2d 507, 509 (Del.
1980) (quoting Kilgore Seed Co. v. Lewin, 141 So. 2d 809, 810–11
(Fla. App. 1962)).
54
 Giancarlo, 725 F. App’x at 283–84 (“None of the allegations
allude to profit sharing, or loss sharing.”) (citing N.S.N. Int’l Indus., N.V. v. E.I. DuPont de Nemours & Co., C.A., No. 12902, 1994
WL 148271 (Del. Ch. Mar. 31, 1994) (finding no joint venture
where agreement between parties did not contemplate loss sharing)).
55
 Id. (citing Warren, 414 A.2d at 509); see also Janus Cap.
Grp., Inc. v. First Derivative Traders, 564 U.S. 135, 145–46 (2011)
(“declin[ing] th[e] invitation to disregard the corporate form”
where it was “undisputed that the corporate formalities were observed” and entities remained legally separate).
53

App. 23
statements that UBS was a single, integrated entity,
plaintiffs have not established the existence of a joint
venture and, as in Giancarlo, “have not put forth any
other theory that permits us to aggregate the actions
and knowledge of the defendant entities for purposes
of assessing liability.”56
With respect to duty, plaintiffs contend that defendants had knowledge of material nonpublic information concerning Enron and that they owed a duty to
disclose that information. Plaintiffs assert that a duty
to disclose arose through UBS’s retail brokerage relationship with plaintiffs and through UBS’s “special relationship” as a entity between its retail client and its
issuer client. Because, as we discussed, plaintiffs have
not adequately pled that Warburg and PaineWebber
formed a joint venture, they must demonstrate that
the entity that possessed the material, nonpublic information—according to plaintiffs [sic] allegations, Warburg or UBS AG—had the duty to disclose that
information.57


 Id. at 284.
 Giancarlo, 725 F. App’x at 284 (“Moreover, even a searching review of the relevant documents supports, at most, that Warburg and UBS AG had some insider knowledge of Enron’s
financial situation, as those are the defendants that participated
in the transactions identified by Plaintiffs. Thus, Plaintiffs must
show that Warburg or UBS AG owed them a duty of disclosure.”).
56
57

App. 24
Plaintiffs emphasize that a duty to disclose can
arise without the existence of a fiduciary duty, and
point to two sources of the alleged duty here. First,
they contend that the security industry’s self-regulation rules give rise to actionable duties under the Exchange Act. According to plaintiffs, the integration of a
retail brokerage business (PaineWebber) into the joint
venture brought with it duties placed on broker-dealers by the rules of two self-regulatory organizations
(“SROs”), the NASD and NYSE. Plaintiffs claim that
the NASD and NYSE “establish obligatory standards”
and “obligated UBS to speak.” Plaintiffs’ complaint
cites to NASD Rule 2210(d) which governs “[a]ll member communications with the public” and mandates
that “[n]o material fact or qualification may be omitted
if the omission . . . would cause the communications to be
misleading.” This theory of duty falls with [sic] plaintiffs’
theory of joint venture liability. The SRO rules depend
on a communication—but as in Giancarlo, PaineWebber was the entity that communicated with the retail
brokerage customer plaintiffs but plaintiffs fail to allege that PaineWebber had knowledge of Enron’s financial misrepresentations.58 The defendant with the
duty was not the defendant with the knowledge.
 Giancarlo, 725 F. App’x at 285 (“The only defendant alleged to have ‘communicated’ with Plaintiffs is PaineWebber,
and Plaintiffs have not sufficiently alleged that any person at
PaineWebber had knowledge concerning Enron’s financial manipulations. Thus, even if we accepted Plaintiffs’ invitation to hold
that NASD rules can impose a duty of disclosure for purposes of
§ 10(b) liability, Plaintiffs have not shown that any defendant violated such rules.”) (internal citations omitted).
58

App. 25
Simply labeling the offending entity “UBS” does not
rescue plaintiffs from this fatal flaw.
Plaintiffs also point to a second source of defendants’ alleged duty, the alleged “special relationship” between UBS and plaintiffs. Essentially, plaintiffs claim
that UBS stood between Enron and its retail brokerage
customers and that special relationship obligated its
disclosure about Enron’s financial manipulations. In
support of this alleged duty, plaintiffs rely on Affiliated
Ute Citizens of Utah v. United States.59 In Affiliated
Ute, a bank that was acting as a transfer agent for Ute
tribe members bought the plaintiffs’ restricted stock
without disclosing that they had created a secondary
market for the stock where they could sell it for a
profit.60 The Court held that the “sellers had the right
to know that the defendants were in a position to gain
financially from their sales and that their shares were
selling for a higher price in that market.”61 Plaintiffs
have not alleged an analogous relationship between
themselves and the entity that sold them securities,
PaineWebber. Furthermore, plaintiffs do not suggest
that PaineWebber was the entity that had knowledge
of the Enron securities market.62 PaineWebber was the
 406 U.S. 128 (1972).
 Affiliated Ute, 406 U.S. at 152–53.
61
 Id. at 153.
62
 See e.g., Giancarlo, 725 F. App’x at 286 (“Documents attached to the pleadings discuss the role of ‘UBS Warburg AG’ in
several transactions and indicate that that [sic] ‘UBS Warburg’
was the ‘joint lead manager of Credit Linked Notes for Enron.’
Plaintiffs specify that their brokers were employees of PaineWebber. Plaintiffs do not argue that PaineWebber had any special
59
60

App. 26
broker for the retail-brokerage customers while UBS
AG and Warburg were the entities that played a role
in the particular transactions identified in the complaint purporting to evidence the material knowledge
of Enron’s financial manipulations—again, plaintiffs’
use of the grouping “UBS” does not cure the fact of
those entities’ separate legal statuses.
Plaintiffs fundamentally fail to establish that either defendant had material, nonpublic knowledge to
disclose and a duty to disclose. They attempt to circumvent this requirement by arguing that UBS operated
as a “single, fully integrated entity,” meaning that any
material, nonpublic information known to UBS AG or
Warburg had to be disclosed by PaineWebber. Because
they have not adequately pled that defendants formed
a joint venture, the lack of particularized allegations
that any defendant entity possessed material information about Enron’s finances and a duty of disclosure
are fatal to their claim.63
V.
Plaintiffs contend that, even if their third
amended complaint was properly dismissed by the district court, the court abused its discretion in denying
them the opportunity to file an amended complaint.
knowledge of the market for Enron debt securities, and UBS
AG’s and Warburg’s dealings with Enron cannot support that
PaineWebber had a duty of disclosure.”).
63
 Id. at 284 (citing Fin. Acquisition Partners LP v. Blackwell,
440 F.3d 278, 289 (5th Cir. 2006)).

App. 27
While Fed. R. Civ. P. 15(a) provides that leave to
amend shall be “freely” given,64 where a plaintiff seeks
to amend its complaint after a scheduling order has
been entered, Fed. R. Civ. P. 16(b) governs.65 Under that
rule, a scheduling order “may be modified only for good
cause and with the judge’s consent.”66 The court must
consider four factors in determining whether there was
good cause for the delay: (1) the explanation for the
failure to timely move for leave to amend, (2) the importance of the amendment, (3) the potential prejudice
the other party would suffer if the amendment was allowed, and (4) the availability of a continuance to cure
that prejudice.67
Plaintiffs explain their failure to seek timely
amendment, pointing to depositions of Enron’s former
CFO and UBS’s expert, which were taken after the
amendment deadline, and UBS’s “unforeseeable denial”
of facts admitted to in its SEC filings. As this court recognized in Giancarlo, which proceeded under a similar
schedule, Enron’s CFO was deposed eight months before this action was stayed, during which time plaintiffs failed to seek to amend their complaint.68
Plaintiffs waited a full two years after Stoneridge
was decided before moving to lift the stay. Plaintiffs’
suggestion that they could not have predicted that
 Fed. R. Civ. P. 15(a).
 S&W Enters., 315 F.3d at 535.
66
 Fed. R. Civ. P. 16(b)(4).
67
 S&W Enters., 315 F.3d at 536 (citing Reliance Ins. Co. v.
La. Land & Exploration Co., 110 F.3d 253, 257 (5th Cir. 1997)).
68
 Giancarlo, 725 F. App’x at 287–88.
64
65

App. 28
defendants would argue that Warburg and PaineWebber are separate legal entities is implausible given
the reference to different entities in different allegations of the operative complaint. Plaintiffs also submit
that the proposed amendment was “clearly” important
given the dismissal in the case. Again, as in Giancarlo,
that conclusory statement does not tell this court
which new allegations would cure the deficiencies
highlighted by the district court.69 Specifically, plaintiffs have not made clear how their revised allegations
would support their theory that PaineWebber and Warburg participated in a joint venture. Even taking plaintiffs at their word that defendants would not have been
overly prejudiced by the proposed amendment, the
first two factors in the analysis are determinative here.
The district court did not abuse its discretion in refusing to grant leave to amend.
VI.
Because plaintiffs failed to state a claim under the
Securities Act or the Exchange Act and the district
court did not abuse its discretion in denying plaintiffs
an additional chance to amend their complaint, we affirm the district court’s dismissal.


69

 Id. at 288.

App. 29
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
-----------------------------------------------------------------------

No. 17-20608
-----------------------------------------------------------------------

D.C. Docket No. 4:02-CV-851
KEVIN LAMPKIN; STEPHEN MILLER, individually
and on behalf of all others similarly situated; JOE
BROWN; FRANK GITTESS; TERRY NELSON; DIANNE [sic] SWIBER; ROBERT FERRELL,
Plaintiffs - Appellants
v.
UBS FINANCIAL SERVICES, INCORPORATED, formerly known as UBS Painewebber, Incorporated; UBS
SECURITIES, L.L.C., formerly known as UBS Warburg, L.L.C.,
Defendants - Appellees
Appeal from the United States District Court
for the Southern District of Texas
Before HIGGINBOTHAM, SMITH, and GRAVES, Circuit Judges.
JUDGMENT
(Filed May 24, 2019)
This cause was considered on the record on appeal
and was argued by counsel.

App. 30
It is ordered and adjudged that the judgment of
the District Court is affirmed.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.

App. 31
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
In Re ENRON CORPORATION §
SECURITIES, DERIVATIVE §
& “ERISA” LITIGATION,
§
KEVIN LAMPKIN, JANICE
SCHUETTE, ROBERT
FERRELL, AND STEPHEN
MILLER, Individually and
on Behalf of All Others
Similarly Situated,
    Plaintiffs,
VS.
UBS PAINEWEBBER, INC.
AND UBS WARBURG, LLC,
    Defendants.

§
§
§
§
§
§
§
§
§
§
§
§
§

MDL 1446

CIVIL ACTION
NO. H-02-0851

OPINION AND ORDER
(Filed Feb. 28, 2017)
The above referenced putative class action alleges
violations of the following securities fraud statutes
through Defendants’ scheme to optimize revenue in investment banking fees from UBS Securities LLC’s corporate client, Enron Corp. (“Enron”), at the expense
and defrauding of UBS Financial Service’s brokerage
retail clients, Lead Plaintiffs Kevin Lampkin, Janice
Schuette, Bobby Ferrell, Stephen Miller, Terry Nelson,
Diane Swiber, Franklin Gittess, and Joe Brown and

App. 32
similarly situated individuals: §§ 11, 12(a)(2) and 15 of
the Securities Act of 1933 (“the 1933 Act”), 15 U.S.C.
§§ 77k, 77l, and 77o et seq.; §§ 10(b) and 20 of the
Securities Exchange Act of 1934 (“the 1934 Act”), 15
U.S.C. §§ 78j(b) and 78(t), et seq., and Rule 10b-5, 17
C.F.R. § 240.10b-5; and the Private Securities Litigation Reform Act (“PSLRA”), 15 U.S.C. § 78u-4. The 1933
Act claims are brought against UBS Financial Services, Inc. f/k/a UBS Paine Webber, Inc. (“PW”) only.
#122 ¶¶ 228, 269.
Pending before the Court are (1) a motion to dismiss the Third Amended Complaint,1 filed by Defendants PW2 and UBS Securities LLC f/k/a UBS Warburg
LLC (Warburg”),3 (collectively, “UBS Defendants”) (Notice of Motion to Dismiss, instrument #125; Memorandum in support, #126); (2) an alternative motion for
leave to amend complaint from Lead Plaintiffs Kevin
Lampkin, Janice Schuette, Bobby Ferrell, Stephen Miller, Terry Nelson, Diane Swiber, Franklin Gittess, and
Joe Brown; (#164); (3) a motion to certify class (#166),
filed by Lead Plaintiffs; and (4) an opposed motion for

 Third Amended Complaint is instrument #122.
 PW is a Delaware corporation authorized to do business in
Texas and is a wholly owned subsidiary of Switzerland’s banking
conglomerate UBS AG. #122 at ¶ 13.
3
 Warburg is a Delaware limited liability company authorized to do business in Texas and also a wholly owned subsidiary
of UBS AG. #122 ¶ 14.
Warburg and PW are collectively referred to as “Defendants.”
#122 ¶ 15. Warburg, PW and UBS AG are collectively referred to
as “UBS.” Id.
1
2

App. 33
amended scheduling order, for additional briefing, and
for a ruling (#223), filed by Plaintiffs.
Plaintiffs in this action have elected to proceed independently of the complaints in the Newby and Tittle
actions in MDL 1446.
As housekeeping matters, given the age of this litigation, the lengthy discovery period now closed, and
the extensive briefing already filed in this case regarding the claims against the UBS Defendants, the Court
denies the motion for amended scheduling order and
for additional briefing as unnecessary (#223). In addition because Plaintiffs have already been permitted to
file four complaints (#1, 6, 20, and 122), the Court denies their alternative motion for leave to file another
(#164). Finally, in light of the issuance of this Opinion
and Order, the Court finds that the remaining motion
for a ruling (also part of #223) is MOOT.
The Court leaves aside the name-calling, subjective accusations, and denigrating remarks in the various documents it reviews and focuses on the merits of
the parties’ contentions.
I. Standards of Review
A.

Rule 8(a)
Federal Rule of Civil Procedure 8(a) states,
A pleading that states a claim for relief must
contain:

App. 34
(1) a short and plain statement of the
grounds for the court’s jurisdiction, unless the
court already has jurisdiction, and the claim
needs no new jurisdictional support;
(2) a short and plain statement of the claim
showing that the pleader is entitled to relief;
and
(3) a demand for the relief sought, which
may include relief in the alternative or different types of relief.
Under the Rule’s requirement of notice pleading, “defendants in all lawsuits must be given notice of specific
claims against them.” Anderson v. U.S. Dept. of Housing and Urban Development, 554 F.3d 525, 528 (5th Cir.
2008). While a plaintiff need not plead specific facts,
the complaint must provide “the defendant fair notice
of what the . . . claim is and the grounds upon which it
rests.” Bell Atlantic Corp. v. Twombly, 550 U.S. 544, 555
(2007). If the complaint lacks facts necessary to put a
defendant on notice of what conduct supports the
plaintiff ’s claims against it, the complaint is inadequate to meet the notice pleading standard. Anderson,
554 [sic] at 528. The complaint must not only name the
laws which the defendant has allegedly violated, but
also allege facts about the conduct that violated those
laws. Id.
B.

Rule 12(b)(6)

When a district court reviews a motion to dismiss
pursuant to Fed. R. Civ. P. 12(b)(6), it must construe the

App. 35
complaint in favor of the plaintiff and take all wellpleaded facts as true. Randall D. Wolcott, MD, PA
v. Sebelius, 635 F.3d 757, 763 (5th Cir. 2011), citing
Gonzalez v. Kay, 577 F.3d 600, 603 (5th Cir. 2009). The
plaintiff ’s legal conclusions are not entitled to the
same assumption. Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (“The tenet that a court must accept as true all
of the allegations contained in a complaint is inapplicable to legal conclusions.”), citing Bell Atlantic Corp.
v. Twombly, 550 U.S. 544, 555 (2007); Hinojosa v. U.S.
Bureau of Prisons, 506 Fed. Appx. 280, 283 (5th Cir.
Jan. 7, 2012).
“While a complaint attacked by a Rule 12(b)(6) motion to dismiss does not need detailed factual allegations, . . . a plaintiff ’s obligation to provide the ‘grounds’
of his ‘entitle[ment] to relief ’ requires more than labels
and conclusions, and a formulaic recitation of the elements of a cause of action will not do. . . .” Twombly,
550 U.S. at 555 (citations omitted). “Factual allegations
must be enough to raise a right to relief above the speculative level.” Id. at 1965, citing 5 C. Wright & A. Miller, Federal Practice and Procedure § 1216, pp. 235-236
(3d ed. 2004) (“[T]he pleading must contain something
more . . . than . . . a statement of facts that merely creates a suspicion [of ] a legally cognizable right of action”). “Twombly jettisoned the minimum notice pleading
requirement of Conley v. Gibson, 355 U.S. 41 . . . (1957)
[“a complaint should not be dismissed for failure to
state a claim unless it appears beyond doubt that the
plaintiff can prove no set of facts in support of his
claim which would entitle him to relief ”], and instead

App. 36
required that a complaint allege enough facts to state
a claim that is plausible on its face.” St. Germain v.
Howard, 556 F.3d 261, 263 n.2 (5th Cir. 2009), citing In
re Katrina Canal Breaches Litig., 495 F.3d 191, 205
(5th Cir. 2007) (“To survive a Rule 12(b)(6) motion to
dismiss, the plaintiff must plead ‘enough facts to state
a claim to relief that is plausible on its face.’ ”), citing
Twombly, 127 S. Ct. at 1974 [550 U.S. at 570]). “ ‘A claim
has facial plausibility when the pleaded factual content allows the court to draw the reasonable inference
that the defendant is liable for the misconduct alleged.’ ”
Montoya v. FedEx Ground Package System, Inc., 614
F.3d 145, 148 (5th Cir. 2010), quoting Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009). The plausibility standard is
not akin to a “probability requirement,” but asks for
more than a “possibility that a defendant has acted unlawfully.” Twombly, 550 U.S. at 556. “[T]hreadbare recitals of the elements of a cause of action, supported by
mere conclusory statements do not suffice” under Rule
12(b). Iqbal, 556 U.S. at 678.
Dismissal under Rule 12(b)(6) is proper not only
where the plaintiff fails to plead sufficient facts to support a cognizable legal theory, but also where the plaintiff fails to allege a cognizable legal theory. Kjellvander
v. Citicorp, 156 F.R.D. 138, 140 (S.D. Tex. 1994), citing
Garrett v. Commonwealth Mortgage Corp., 938 F.2d
591, 594 (5th Cir. 1991); ASARCO LLC v. Americas
Min. Corp., 832 B.R. 49, 57 (S.D. Tex. 2007). “A complaint lacks an ‘arguable basis in law’ if it is based on
an indisputedly meritless legal theory’ or a violation of
a legal interest that does not exist.” Ross v. State of

App. 37
Texas, Civ. A. No. H-10-2008, 2011 WL 5978029, at *8
(S.D. Tex. Nov. 29, 2011).
As noted, on a Rule 12(b)(6) review, although generally the court may not look beyond the pleadings, the
court may examine the complaint, documents attached
to the complaint, and documents attached to the motion to dismiss to which the complaint refers and which
are central to the plaintiff ’s claim(s), as well as matters of public record. Lone Star Fund V (U.S.), L.P. v.
Barclays Bank PLC, 594 F.3d 383, 387 (5th Cir. 2010),
citing Collins, 224 F.3d at 498-99; Cinel v. Connick, 15
F.3d 1338, 1341, 1343 n.6 (5th Cir. 1994). See also
United States ex rel. Willard v. Humana Health Plan of
Tex., Inc., 336 F.3d 375, 379 (5th Cir. 2003) (“the court
may consider . . . matters of which judicial notice may
be taken”). Taking judicial notice of public records directly relevant to the issue in dispute is proper on a
Rule 12(b)(6) review and does not transform the motion into one for summary judgment. Funk v. Stryker
Corp., 631 F.3d 777, 780 (5th Cir. 2011). “A judicially
noticed fact must be one not subject to reasonable
dispute in that it is either (1) generally known within
the territorial jurisdiction of the trial court or (2) capable of accurate and ready determination by resort to
sources whose accuracy cannot reasonably be questioned.” Fed. R. Evid. 201(b).
Plaintiffs object to Defendants’ attachment of significant amounts of extrinsic evidence to their motion
and then arguing fact issues utilizing extrinsic evidence as support, both of which are inappropriate in a

App. 38
motion to dismiss.4 The Court finds this objection to be
unfounded.
“ ‘[D]ocuments that a defendant attaches to its motion to dismiss are considered part of the pleadings if
they are referred to in the plaintiff ’s complaint and are
central to [its] claim.’ ” Collins v. Morgan Stanley Dean
Witter, 224 F.3d 496, 498-99 (5th Cir. 2000), quoting
Venture Assocs. Corp. v. Zenith Data Sys. Corp., 987
F.2d 429, 431 (7th Cir. 1993). “[W]hen a plaintiff does
not attach a pertinent document to the complaint, a
‘defendant may introduce the exhibit as part of his motion attacking the pleading.’ ” Sheppard v. Texas Dept.
of Transportation, 158 F.R.D. 592, 595 (E.D. Tex. 1994);
Charles Alan Wright, et al., 5A Federal Practice and
Procedure: Civil § 1327 (3d ed. April 2016 update). All
the documents that Defendants attach to their motion
to dismiss were referenced and relied upon by Plaintiffs in their Third Amended Complaint, and are central to their claims. Plaintiffs have not questioned the
authenticity of the documents. By such attachments
the defendant simply provides additional notice of the
basis of the suit to the plaintiff and aids the Court in
determining whether a claim has been stated. Id. at
499. The attachments may also provide the context
from which any quotation or reference in the motion
is drawn to aid the court in correctly construing that
quotation or reference. In re Enron Corp. Securities,
 The Court does not address Plaintiffs’ arguments about the
pleading standard for scheme liability under Rule 10b-5(a) and (c)
because of the Supreme Court’s later rejection of such claims in
Stoneridge.
4

App. 39
Derivative & “ERISA” Litig., No. H-04-0087, 2005 WL
3504860, at *11 n.20 (S.D. Tex. Dec. 22, 2005). “Where
the allegations in the complaint are contradicted by
facts established by documents attached as exhibits
to the complaint, the court may properly disregard the
allegations.” Martinez v. Reno, No. 3:97-CV-0813-P,
1997 WL 786250, at *2 (N.D. Tex. Dec. 15, 1997), citing
Nishimatsu Const. Co. v. Houston Nat’l Bank, 515 F.2d
1200, 1206 (5th Cir. 1975). When conclusory allegations and unwarranted deductions of fact are contradicted by facts disclosed in the appended exhibit, which
is treated as part of the complaint, the allegations
are not admitted as true. Carter v. Target Corp., 541
Fed. Appx. 413, 417 (5th Cir. Oct. 4, 2013), citing Associated Builders, Inc. v. Alabama Power Co., 505 F.2d 97,
100 (5th Cir. 1974), citing Ward v. Hudnell, 366 F.2d
247 (5th Cir. 1966). See Northern Indiana Gun & Outdoor Shows, Inc. v. City of South Bend, 163 F.3d 449,
(7th Cir. 1996) (“It is a well settled rule that when a
written instrument contradicts allegations in the complaint to which it is attached, the exhibit trumps the
allegations.”); Roth v. Jennings, 489 F.3d 499, 509 (2d
Cir. 2007) (when attached documents contain statements that contradict the allegations in the complaint,
the documents control and the court need not accept as
true the allegations contained in the complaint.”).
C.

Rule 9(b)

“Rule 9(b) supplements but does not supplant
Rule 8(a)’s notice pleading,” and “requires “only ‘simple, concise, and direct’ allegations of the ‘circumstances

App. 40
constituting fraud,’ which after Twombly must make
relief plausible, not merely conceivable, when taken as
true.” U.S. ex rel. Grubbs v. Kanneganti, 565 F.3d 180,
186 (5th Cir. 2009).
Rule 9(b) provides,
In all averments of fraud or mistake, the circumstances constituting fraud or mistake
shall be stated with particularity. Malice, intent, knowledge, and other condition of mind
of a person must be averred generally.
“In every case based upon fraud, Rule 9(b) requires the plaintiff to allege as to each individual defendant ‘the nature of the fraud, some details, a brief
sketch of how the fraudulent scheme operated, when
and where it occurred, and the participants.” Hernandez v. Ciba-Geigy Corp. USA, 200 F.R.D. 285, 291 (S.D.
Tex. 2001). In a securities fraud suit, the plaintiff must
plead with particularity the circumstances constituting the alleged fraud: Rule 9(b) requires the plaintiff to
“ ‘specify the statements contended to be fraudulent,
identify the speaker, state when and where the statements were made, and explain why the statements
were fraudulent.’ ” Southland Securities Corp. v. INspire Ins. Solutions, Inc., 365 F.3d 353, 362 (5th Cir.
2004), quoting Williams v. WMX Technologies, Inc., 112
F.3d 175, 177-78 (5th Cir. 1997), cert. denied, 522 U.S.
966 (1997). “ ‘In cases concerning fraudulent misrepresentation and omission of facts, Rule 9(b) typically requires the claimant to plead the type of facts omitted,
the place in which the omissions should have appeared, and the way in which the omitted facts made

App. 41
the representations misleading.’ ” Carroll v. Fort James
Corp., 470 F.3d 1171, 1174 (5th Cir. 2006), quoting
United States ex rel. Riley v. St. Luke’s Hosp., 355 F.3d
370, 381 (5th Cir. 2004).
Unlike the alleged fraud, Rule 9(b) allows a
plaintiff to plead intent to deceive or defraud generally.
Nevertheless a mere conclusory statement that the defendant had the required intent is insufficient; the
plaintiff must set forth specific facts that raise an inference of fraudulent intent, for example, facts that
show the defendant’s motive. Tuchman v. DSC Communications Corp., 14 F.3d 1061, 1068 (5th Cir. 1994)
(“Although scienter may be averred generally, case law
amply demonstrates that pleading scienter requires
more than a simple allegation that a defendant had
fraudulent intent. To plead scienter adequately, a
plaintiff must set forth specific facts that support an
inference of fraud.”); Melder v. Morris, 27 F.3d 1097,
1102 (5th Cir. 1994).
The particularity requirement of Rule 9(b) also
governs a conspiracy to commit fraud. Southwest Louisiana Healthcare System v. MBIA Ins. Corp., No. 051299, 2006 WL 1228903, *5 & n.47 (W.D. La. May 6,
2006); Hernandez v. Ciba-Geigy Corp. USA, No. Civ. A.
B-00-82, 2000 WL 33187524, *4 (S.D. Tex. Oct. 17,
2000) (“The weight of Fifth Circuit precedent holds
that a civil conspiracy to commit a tort that sounds in
fraud must be pleaded with particularity.”); In re Ford
Motor Co. Vehicle Paint Litigation, No. MDL 1063, 1994
WL 426548, *34 (E.D. La. July 30, 1996); and Castillo

App. 42
v. First City Bancorporation of Texas, Inc., 43 F.3d 953,
961 (5th Cir. 1994).
A dismissal for failure to plead with particularity
in accordance with Rule 9(b) is treated as a Rule
12(b)(6) dismissal for failure to state a claim. Lovelace
v. Software Spectrum, Inc., 78 F.3d 1015, 1017 (5th Cir.
1996).
II. The Exchange Act and the PSLRA’s
Heightened Pleading Requirements
Section 10(b) of the Securities Exchange Act of
1934, as amended, 15 U.S.C. § 78j(b), states in relevant
part,
It shall be unlawful for any person, directly or
indirectly, by the use of any means or instrumentality of interstate commerce or of any facility of any national securities exchange . . .
(b) To use or employ in connection with the
purchase or sale of any security registered
on a national securities exchange or any security not so registered, or any securities-based
swap agreement (as defined in [S]ection 206B
of the Gramm-Leach-Bliley Act), any manipulative or deceptive device or contrivance in
contravention of such rules and regulations as
the Commission may prescribe as necessary
or appropriate in the public interest or for the
protection of investors.

App. 43
Pursuant to the statute, the Securities and Exchange Commission (“SEC”) promulgated Rule 10b-5,
17 C.F.R. § 240.10b-5, which provides:
It shall be unlawful for any person, directly or
indirectly, by the use of any means or instrumentality of interstate commerce, or of the
mails or of any facility of any national securities exchange,
(a) to employ any device, scheme, or artifice
to defraud,
(b) To make any untrue statement of a material fact or to omit to state a material fact
necessary in order to make the statements
made, in the light of the circumstances under
which they were made, not misleading, or
(c) To engage in any act, practice, or course
of business which operates or would operate
as a fraud or deceit upon any person, in connection with the purchase or sale of any security.
Although the statute does not expressly provide for a
private cause of action, the Supreme Court has recognized that the statute and its implementing regulation
imply a private cause of action for § 10(b) violations.
Stoneridge Inv. Partners, LLC v. Scientific-Atlanta, 552
U.S. 148, 157 (2008), citing Superintendent of Ins. of
N.Y. v. Bankers Life & Casualty Co., 404 U.S. 6, 13 n.9
(1971).
To state a claim under § 10(b) of the 1934 Act and
Rule 10b-5, 17 C.F.R. § 240.10b-5, the plaintiff must

App. 44
plead “(1) a material misrepresentation or omission by
the defendant; (2) scienter; (3) a connection between
the misrepresentation or omission and the purchase
or sale of a security; (4) reliance upon the misrepresentation or omission; (5) economic loss; and (6) loss
causation.” Stoneridge, 552 U.S. at 157, citing Dura
Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336, 341-42
(2005). An omission is material for purposes of federal
securities law if there is a “substantial likelihood that
the disclosure of omitted fact would have been viewed
by the reasonable investor as having significantly altered the ‘total mix’ of information available.” TSC Industries, Inc. v. Northway, Inc., 426 U.S. 438, 449 (1976);
Basic, Inc. v. Levinson, 485 U.S. 224, 231-32 (1988)
(“adopt[ing] TSC Industries standard of materiality for
the § 10(b) and Rule 10b-5 context”).
Loss causation, i.e., a causal connection between
the defendant’s material misrepresentation or omission (or other fraudulent conduct) and the economic
loss to the plaintiff for which it seeks to recover, can be
proven by showing that when the relevant truth about
the fraud is disclosed to or leaked into the market
place, whether at once or in a series of events, whether
by the defendant’s announcing changes in its accounting treatments, or whistle blowers, or analysts question [sic] financial results, resignations of key officers, or
newspapers and journals, etc., it caused the price of the
stock to decline and thereby proximately caused the
plaintiff ’s economic injury. Lormand v. US Unwired,
Inc., 565 F.3d 228, 255 (5th Cir. 2009), citing Dura Pharmaceuticals, Inc. v. Broudo, 544 U.S. 336, 342 (2005).

App. 45
The Fifth Circuit has held that Rule 8(a)(2) and Twombly’s
plausibility standard govern the pleading of loss causation. Id. at 256-58.
For many years plaintiffs in securities fraud suits
brought claims under § 10(b) and Rule 10b-5 against
secondary actors,5 including investment bankers, lawyers, and accountants, who participated with primary
violators in a scheme to defraud investors. In the last
twenty years, the Supreme Court has greatly limited
the reach of a private right of action against secondary
actors under Rule 10b-5(a) and (c). Despite the fact
that for three decades secondary actors had been found
liable under the federal securities laws as aiders and
abettors in lower courts, given the 1934 Act’s silence
as to aiding and abetting, the Supreme Court has concluded, “The section 10(b) implied private right of
action does not extend to aiders and abettors.” Stoneridge, 552 U.S. at 158; see also Central Bank of Denver,
N.A. v. First Interstate Bank of Denver, N.A., 511 U.S.

 Judge Jose A. Cabranes in Pacific Inv. Management Co.,
LLC v. Mayer Brown LLP, 603 F.3d 144, 148 n.1 (2d Cir. 2010),
cert. denied, 564 U.S. 1018 (2011), defines “secondary actor” as a
term for “lawyers . . . , accountants, or other parties who are not
employed by the issuing firm whose securities are the subject of
allegations of fraud.” Id., citing Stoneridge Investment Partners,
LLC v. Scientific-Atlanta, Inc., 552 U.S. 148, 166 (2008) (“using the
term ‘[s]econdary actors’ to refer to an issuing firm’s customers
and suppliers”), and Central Bank of Denver, N.A. v. First Interstate Bank of Denver, N.A., 511 U.S. 164, 191 (1994) (characterizing “lawyer[s], accountant[s] or bank[s]” as “secondary actors”).
5

App. 46
164, 177-78 (1994) (for private parties6 Section 10(b)
“does not itself reach those who aid and abet” a primary wrongdoer’s violation of the securities laws because while the statute prohibits the making of a
material misstatement or omission or the commission
of a manipulative act,7 the “proscription does not “include giving aid to a person who commits a manipulative or deceptive act”; “We cannot amend the statute to
create liability for acts that are not themselves manipulative or deceptive within the meaning of the statute.”
511 U.S. at 177-78. Instead, to impose liability, a plaintiff must establish that each named defendant committed its own primary violation of the securities laws to
be held liable under § 10(b). Moreover the Supreme
Court concluded that in some circumstances secondary
actors, like lawyers, investment banks [sic], and accountants, “who employ[ ] a manipulative device or
make[ ] a material misstatement (or omission) on
which a purchaser or seller of securities relies,” can be
 The PSLRA added Section 20(e), 15 U.S.C. § 78t(e), to the
1934 Act, affirming the right of the SEC to prosecute aiders and
abettors in enforcement actions, but not private plaintiffs.
7
 The word “manipulative” is a term of art when used in the
context of securities markets and connotes intentional or willful
conduct designed to deceive or defraud investors by controlling or
artificially affecting the price of securities.” Regents of Univ. of
Calif. v. Credit Suisse First Boston (USA), Inc., 482 F.3d 372, (5th
Cir. 2007) (citing Ernst & Ernst v. Hochfelder, 425 U.S. 185, 199
(1976)), cert. denied sub nom. Regents of Univ. of Calif. v. Merrill
Lynch, Pierce, Fenner & Smith, 552 U.S. 1170 (2008). The term
“ ‘refers generally to practices, such as wash sales, matched orders, or rigged prices, that are intended to mislead investors by
artificially affecting market activity.’ ” Id., quoting Santa Fe Indus. v. Green, 430 U.S. 462, 476 (1977).
6

App. 47
liable as primary violators if “all the requirements for
primary liability under Rule 10b-5 are met.” Id. at 191.
In accord, Stoneridge, 552 U.S. at 158 (For a secondary
actor to be held liable under § 10(b), that person or entity “must satisfy each of the elements or preconditions
for [primary] liability.”).8
“Where liability is premised on a failure to disclose
rather than on a misrepresentation, ‘positive proof of
reliance9 is not a prerequisite to recovery. All that is

 Plaintiffs argue that this Court is bound by its earlier
determination in In re Enron Corp. Securities, Derivative &
“ERISA” Litig., 439 F. Supp. 2d 692, 722 (S.D. Tex. 2006) that the
applicable level of particularity required is different for omission
and scheme cases is that set forth in In re Parmalat Sec. Litig.,
376 F. Supp. 2d 472, 492 (S.D.N.Y. 2005) (“The pleading requirements of the PSLRA regarding misleading statements and omissions do not apply to claims that allege no misrepresentation or
omission, but instead are based on employing any device, scheme
or artifice to defraud or engaging in any act, practice or course of
business that operates or would operate as a fraud or deceit upon
any person in connection with the purchase or sale of any security; however those claims sound in fraud and therefore come
within” Rule 9(b)).
Not only does this Court have the ability to reconsider its
prior rulings, but it observes that some key decisions about pleading requirements have been issued since by the Supreme Court,
including Stoneridge (rejecting scheme liability), Janus Capital
Group, Inc. v. First Derivative Trader [sic], 564 U.S. 135 (2011)
(clarifying who “makes a statement”), and Halliburton Co. v. Erica P. John Fund, Inc., 134 S. Ct. 2398 (2014) (same), all of which
are discussed infra. The Court does not address Plaintiffs’ scheme
liability aiding and abetting claims, which are no longer viable in
the wake of Central Bank and Stoneridge.
9
 “[P]roof of reliance ensures that there is a proper ‘connection between a defendant’s misrepresentation and a plaintiff ’s
8

App. 48
necessary is that the facts withheld be material in the
sense that a reasonable investor might have considered them important in the making of his decision. . . .
This obligation to disclose and the withholding of a material fact establish the requisite element of causation
in fact.’ ” Regents of Univ. of Cal. v. Credit Suisse First
Boston (USA), Inc., 482 F.3d 372, 383-84 (5th Cir. 2007)
(quoting Affiliated Ute Citizens of the State of Utah v.
U.S., 406 U.S. 128, 153-54 (1972)), cert. denied sub nom.
Regents of Univ. of Cal. v. Merrill Lynch, Pierce, Fenner
& Smith, 552 U.S. 1170 (2008). See also Basic, Inc.,
485 U.S. at 243 (“[W]here a duty to disclose material
information had been breached . . . the necessary
nexus between the plaintiffs’ injury and the defendants’ wrongful conduct had been established.”).
“When an allegation of fraud is based upon nondisclosure, there can be no fraud absent a duty to
speak.” Central Bank, 511 U.S. at 174, quoting Chiarella v. U.S., 445 U.S. 222, 235 (1980). A duty to disclose arises only from “a fiduciary or other similar
relation of trust and confidence between [parties]”; it
“does not arise from the mere possession of nonpublic
market information.” Chiarella, 445 U.S. at 228, 235.
“Silence, absent a duty to disclose, is not misleading
under Rule 10b-5.” Basic, Inc. v. Levinson, 485 U.S. 224,
239 n.17 (1988).
The omission of a material fact by a defendant with
a duty to disclose establishes a rebuttable presumption
injury.’ ” Erica P. John Fund, Inc. v. Halliburton Co., 563 U.S.
804, 810 (2011), quoting Basic, Inc., 485 U.S. at 243.

App. 49
of reliance upon the omission by investors to whom the
duty was owed. Affiliated Ute Citizens of the State of
Utah v. U.S., 406 U.S. 126, 153-54 (1972). “To invoke the
Affiliated Ute presumption of reliance on an omission,
a plaintiff must (1) allege a case primarily based on
omissions or non-disclosure and (2) demonstrate that
the defendant owed him a duty of disclosure.” Regent
of Univ. of Cal., 482 F.3d at 384. “This presumption is
a judicial creature. It responds to the reality that a person cannot rely upon what he is not told.” Smith v.
Ayres, 845 F.2d 1360, 1363 (5th Cir. 1988). “[A]dministrative and judicial interpretations have established
that silence in connection with the purchase or sale of
securities may operate as a fraud actionable under
§ 10(b)” when there is “a duty to disclose arising from
a relationship of trust and confidence between parties
to a transaction.” Chiarella, 445 U.S. at 230.
“Whether a fiduciary duty exists is a question of law
for the court’s determination.” Stevenson v. Rochdale
Investment Management, Inc., No. Civ. A. 3:97CV1544L,
2000 WL 1278479, at *3 (N.D. Tex. Sept. 7, 2000), citing
Fuqua v. Taylor, 683 S.W. 2d 735, 737 (Tex. App.--Dallas 1984, writ ref ’d n.r.e.). Nevertheless the factfinder
determines whether the facts give rise to a fiduciary
duty. Id.
In Kinzbach Tool Co. v. Corbett-Wallace Corp., 138
Tex. 565, 160 S.W. 2d 509, 512-13 (Tex. 1942), the Texas
Supreme Court wrote,
The term “fiduciary” is derived from the civil
law. It is impossible to give a definition of the

App. 50
term that is comprehensive enough to cover
all cases. Generally speaking, it applies to any
person who occupies a position of peculiar confidence toward another. It refers to integrity
and fidelity. It contemplates fair dealing and
good faith, rather than legal obligation, as the
basis of the transaction. The term includes
those informal relations which exist whenever
one party trusts and relies upon another, as
well as technical fiduciary relations.
See also Fisher v. Roper, 727 S.W. 2d 78, 81 (Tex.
App.--San Antonio 1987, writ ref ’d n.r.e.):
A fiduciary relationship exists when the parties are under a duty to act for or give advice
for the benefit of another upon matters within
the scope of the relation. It exists where a special confidence is reposed in another who in
equity and good conscience is bound to act in
good faith and with due regard for the interest
of the one reposing confidence. A fiduciary relationship generally arises over a long period
of time when parties have worked together toward a mutual goal. To establish a fiduciary
relationship, the evidence must show that the
dealings between the parties have continued
for such a period of time that one party is justified in relying on the other to act in his best
interest. To transform a mere contract into
a fiduciary relationship, the evidence must
show that the dealings between the parties
have continued for such a period of time that
one party is justified in relying on the other to
act in his best interest. [citations omitted].

App. 51
For example, because of the relationship of trust
and confidence between the shareholders of a corporation and “those insiders who have obtained confidential information by reason of their position with that
corporation,” courts have imposed a duty to disclose on
a corporate insider when the corporate insider trades
on the confidential information (“intended to be available only for a corporate purpose and not for the personal benefit of anyone”) and makes secret profits.
Chiarella, 445 U.S. at 227-28. “Trading on such [material, nonpublic] information qualifies as a ‘deceptive
device’ under § 10(b) . . . because ‘a relationship of
trust and confidence [exists] between the shareholders
of a corporation and those insiders who have obtained
confidential information by reason of their position
with that corporation.’ ” United States v. O’Hagan, 521
U.S. 642, 651-52 (1997), citing Chiarella, 445 U.S. at
228. “That relationship . . . gives rise to a duty to disclose [or to abstain from trading] because of the ‘necessity of preventing a corporate insider from . . . tak[ing]
unfair advantage of . . . uninformed shareholders.’ ”
O’Hagan, 521 U.S. at 652, quoting Chiarella, 445 U.S.
at 228-29. A corporate insider with material information is required to disclose it to the investing public
or, if he cannot because he must protect a corporate
confidence, or if he chooses not to disclose, he must
abstain from trading in or recommending securities
concerned while the inside information remains undisclosed. SEC v. Texas Gulf Sulphur Co., 401 F.2d 833,
848 (2d Cir. 1968) (en banc) (“[A]nyone in possession of
material inside information must either disclose it to
the investing public, or if he is disabled from disclosing

App. 52
it in order to protect a corporate confidence, or he
chooses not to do so, must abstain from trading in or
recommending the securities concerned while such inside information remains undisclosed.”), cert. denied
sub nom. Kline v. SEC, 394 U.S. 976 (1969).
An individual or entity that does not fit within the
traditional definition of a corporate insider may become a “temporary insider” if the person “by entering
into a special confidential relationship in the conduct
of the business of the enterprise is given access to information solely for corporate purposes.” SEC v. Cuban, 620 F.3d 551, 554 (5th Cir. 2010), citing Dirks v.
SEC, 463 U.S. 646, 655 n.13 (1983). The duty to disclose
or abstain from trading arises from the corporate insider’s duty to his shareholders, and it applies not only
“to officers, directors and other permanent insiders
of a corporation,” but also to “attorneys, accountants,
consultants and others who temporarily become fiduciaries of the corporation.” O’Hagan, 521 U.S. at 22829, quoting Dirks v. SEC, 463 U.S. 646, 655 n.14 (1983).
Violations of Rule 10b-5(a) and (c), which prohibit
“employ[ing] any device, scheme or artifice to defraud”
or “engag[ing] in any act, practice or course of business
which operates . . . as a fraud or deceit upon any person” in connection with the sale of securities, were
designated by some courts as “scheme liability.” In
Stoneridge (5-3), the Supreme Court addressed the issue, “when, if ever, an injured investor may rely upon
§ 10(b) to recover from a party that neither makes a
public misstatement nor violates a duty to disclose, but
does participate in a scheme to violate § 10(b).” The

App. 53
high court rejected that scheme liability theory because a plaintiff cannot rely on a defendant’s concealed
deceptive acts. 552 U.S. at 156, 159-60. Justice Kennedy wrote for the majority,
Reliance by the plaintiff upon the defendant’s
deceptive acts is an essential element of the
§ 10(b) private cause of action. It ensures that,
for liability to arise, the “requisite causal connection between a defendant’s misrepresentation and a plaintiff ’s injury” exists as a
predicate for liability. . . . We have found a
rebuttable presumption of reliance in two
different circumstances. First, if there is an
omission of a material fact by one with a duty
to disclose, the investor to whom the duty
was owed need not provide specific proof of
reliance. . . . Second, under the fraud-on-themarket doctrine, reliance is presumed when
the statements at issue become public. The
public information is reflected in the market
price of the security. Then it can be assumed
that an investor who buys or sells stock at the
market price relies upon the statement. . . .
Neither presumption applies here. Respondents had no duty to disclose; and their
deceptive acts were not communicated to the
public. No member of the investing public had
knowledge, either actual or presumed, of respondents’ deceptive acts during the relevant
times. Petitioner, as a result, cannot show reliance upon any of respondents’ actions except

App. 54
in an indirect chain that we find too remote
for liability.
Id. at 769.
In Janus Capital Group, Inc. v. First Derivative
Traders, 564 U.S. 135, 137-38, 142, 167 (2011) (5-4), examining what it means to “ ‘make any untrue statement of material fact’ in connection with the purchase
or sale of securities” under Rule 10b-5 and “mindful
that [the Court] must give ‘narrow dimensions’ ” to the
implied right of action under § 10(b) since Congress did
not authorize it,10 the majority of the United States

 The majority of the Supreme Court began by construing
the word “make” in Rule 10b-5 very narrowly:
One “makes” a statement by stating it. When “make” is
paired with a noun expressing the action of a verb, the
resulting phrase is “approximately equivalent in sense”
to that verb. 6 Oxford English Dictionary 66 (def. 59)
(1933) (hereinafter OED). . . . For instance, “to make
a proclamation” is the approximate equivalent of “to
proclaim,” and “to make a promise” approximates “to
promise.” See 6 OED 66 (def. 59). The phrase at issue
in Rule 10b-5, “to make any . . . statement.” is thus the
approximate equivalent of “to state.”
In the dissent, Justice Breyer, joined by Justices Ginsburg,
Sotomayor, and Kagen [sic], opined,
In my view, . . . the majority has incorrectly interpreted
the Rule’s word “make.” Neither common English nor
this Court’s earlier cases limit the scope of that word
to those with “ultimate authority” over a statement’s
content. To the contrary, both language and case law
indicate that, depending upon the circumstances, a management company, a board of trustees, individual company officers, or others, separately or together, might
“make” statements contained in a firm’s prospectus-10

App. 55
Supreme Court attempted to further clarify the distinction between a primary violation and aiding and
abetting by holding, “For purposes of Rule 10b-5, the
maker of a statement is the person with ultimate authority over the statement, including its content and
whether and how to communicate it. Without control,
a person or entity can merely suggest what to say, not
‘make’ a statement in its own right. One who prepares
or publishes a statement on behalf of another is not its
maker.”11 See also Halliburton Co. v. Erica P. John
Fund, Inc., 134 S. Ct. 2398, 2403 (2014) (Section 10(b)
and Rule 10b-5 liability should not be extended “to
entirely new categories of defendants who themselves
had not made any material public misrepresentation.”). Thus Janus restricts liability under a § 10(b)
private right of action to a person or entity with ultimate authority over a false statement on which an investor relied to his detriment in purchasing or selling
a security.
The PSLRA “installed both substantive and procedural controls” that were “[d]esigned to curb perceived
abuses of the § 10(b) private action--nuisance filings,
targeting deep-pocket defendants, vexatious discovery
even if a board of directors has ultimate content-related
responsibility.
Id., 564 U.S. at 149-50.
11
 The high court compared the relationship between the
aider and abettor and the primary violator to that between a
speechwriter and a speaker: “Even when a speechwriter drafts
a speech, the content is entirely within the control of the person
who delivers it. And it is the speaker who takes credit--or blame
--for what is ultimately said.” Id. at 143.

App. 56
requests and manipulation by class action lawyers.”
Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S.
208, 320 (2007). The PSLRA heightened the particularity requirements for pleading securities fraud in two
ways: (1) the plaintiff must “specify each statement alleged to have been misleading and the reason or reasons why the statement is misleading . . . ,” 15 U.S.C.
§ 78u-4(b)(1)(B); and (2) for “each act or omission alleged” to be false or misleading, the plaintiff must
“state with particularity facts giving rise to a strong
inference that the defendant acted with the required
state of mind,” 15 U.S.C. § 78u-4(b)(2). Indiana Elec.
Workers’ Pension Trust Fund IBEW v. Shaw Group,
Inc., 537 F.3d 527, 533 (5th Cir. 2007). As noted, Rule
9(b) requires the plaintiff in a securities fraud suit to
“ ‘specify the statements contended to be fraudulent,
identify the speaker, state when and where the statements were made, and explain why the statements
were fraudulent.’ ” Southland, 365 F.3d at 362, quoting
Williams v. WMX Technologies, Inc., 112 F.3d 175, 17778 (5th Cir. 1997), cert. denied, 522 U.S. 966 (1997). See
15 U.S.C. § 78u-4. In other words, “ ‘[p]leading fraud
with particularity . . . requires ‘time, place and contents of the false representations, as well as the identity of the person making the misrepresentation and
what [that person] obtained thereby.’ ” Williams, 112
F.3d at 177 (5th Cir. 1997), quoting Tuchman, 14 F.3d
at 1068. The PSLRA mandates that “untrue statements or omissions be set forth with particularity as to
‘the defendant’ and that scienter be pleaded with regard to ‘each act or omission’ sufficient to give ‘rise to
a strong inference that the defendant acted with the

App. 57
required state of mind.’ ” Southland, 365 F.3d at 364.
The PSLRA’s use of “the defendant” is reasonably
construed to mean “ ‘each defendant’ in multiple defendant cases.’ ” Id. at 365. Where the defendant is a
corporation (as Warburg and PW are), the plaintiff
must plead specific facts giving rise to a strong inference that a particular defendant’s employee acted with
scienter as to each alleged omission; “[a] defendant corporation is deemed to have the requisite scienter for
fraud only if the individual corporate officer making
the statement has the requisite level of scienter, i.e.,
knows the statement is false, or at least deliberately
reckless as to its falsity, at the time he or she makes
the statement.” Southland, 365 F.3d at 366. “ ‘The
knowledge necessary to form the requisite fraudulent
intent must be possessed by at least one agent [of the
corporation] and cannot be inferred and imputed to
a corporation based on disconnected facts known by
different agents.’ ” Id. at 367, quoting Gutter v. E.I.
Dupont De Nemours, 124 F. Supp. 2d 1291, 1311 (S.D.
Fla. 2000); also citing First Equity Corp. v. Standard &
Poor’s Corp., 690 F. Supp. 256, 260 (S.D.N.Y. 1988) (“A
corporation can be held to have a particular state of
mind only when that state of mind is possessed by a
single individual.”), aff ’d, 869 F.2d 175 (2d Cir. 1989).
“ ‘In cases concerning . . . omission of facts, Rule
9(b) typically requires the claimant to plead the type
of facts omitted, the place in which the omissions
should have appeared, and the way in which the omitted facts made the representations misleading.’ ” Carroll v. Fort James Corp., 470 F.3d 1171, 1174 (5th Cir.

App. 58
2006), quoting United States ex rel. Riley v. St. Luke’s
Hosp., 355 F.3d 370, 381 (5th Cir. 2004). To meet the
requirement of materiality, “there must be a substantial likelihood that the disclosure of the omitted fact
would have been viewed by the reasonable investor as
having significantly altered the ‘total mix’ of information made available” and would have actually been
significant “in the deliberations of the reasonable
shareholder.” Basic, Inc., 485 U.S. at 231-32; Southland, 365 F.3d at 362. See also Lormand v. US Unwired, Inc., 565 F.3d 228, 248-49 (5th Cir. 2009) (“Once
the defendants engaged in public discussion . . . , they
had a duty to disclose a ‘mix of information’ that is
not misleading.”). Thus the standard for misrepresentation in this context is whether the information
disclosed, understood as a whole, would mislead a reasonable potential investor. L.W. Laird v. Integrated Resources, Inc., 897 F.2d 826, 832 (5th Cir. 1990). The
Fifth Circuit has “long held under Rule 10b-5, a duty
to speak the full truth arises when a defendant undertakes a duty to say anything. Although such defendant
is under no duty to disclose every fact or assumption
underlying a prediction, he must disclose material,
firm-specific adverse facts that affect the validity or
plausibility of that prediction.” Lormand, 565 F.3d at
249. “The omission of a known risk, its probability of
materialization, and its anticipated magnitude, are
usually material to any disclosure discussing the prospective result from a future course of action.” Id. at
248 These facts “must be laid out before access to the
discovery process is granted.” Williams, 112 F.3d at
178.

App. 59
The Fifth Circuit does not permit group pleading
of securities fraud suits. Owens v. Jastrow, 789 F.3d
529, 537 (5th Cir. 2015), citing Southland, 365 F.3d at
365 (“[T]he PSLRA requires the plaintiffs to distinguish among those they sue and enlighten each defendant as to his or her particular part in the alleged
fraud. . . . [W]e do not construe allegations contained
in the [second amended complaint] against ‘defendants’ as a group as properly imputable to any particular defendant unless the connection between the
individual defendant and the allegedly fraudulent
statement is specifically pleaded.”).12 “Corporate officers are not liable for acts solely because they are officers or where their day-to-day involvement in the
corporation is pleaded.” Financial Acquisition Partners
LP v. Blackwell, 440 F.3d 278, 287 (5th Cir. 2006). A
corporate officer may be liable if plaintiff identifies him
and alleges he made materially misleading statements
with scienter at a shareholder meeting or he signed
documents on which statements were made. Id. Group
pleading, or the group publishing doctrine, fails to
 The group pleading or group publishing doctrine permits
plaintiffs to presume that statements in prospectuses, registration statements, annual reports, press releases, etc. are collectively attributable to persons with direct involvement in the
regular business of the company. Southland, 365 F.3d at 363 n.9.
In its most expansive form it allows “unattributed corporate statements to be charged to one or more individual defendants based
solely on their corporate title. Under this doctrine, the plaintiff
need not allege any facts demonstrating an individual defendant’s
participation in the particular communication containing the misstatement or omission where the defendants are ‘insiders or affiliates’ of the company.” Id. at 363.
12

App. 60
satisfy the heightened pleading standards of the
PSLRA. Southland, 365 F.3d at 363 n.9.13
The Fifth Circuit further requires that scienter or
the requisite state of mind, which for the PSLRA is “an
intent to deceive, manipulate, or defraud,” or “ ‘severe
recklessness’ in which the ‘danger of misleading buyers or sellers . . . is either known to the defendant or is
so obvious that the defendant must have been aware of
it,’ ”14 must be pleaded for each act or omission for each
defendant in a multiple defendant case sufficiently to
create “a strong inference that the defendant acted
with the required state of mind.” Id. at 364-65. See also
Owens v. Jastrow, 789 F.3d at 536 (“Severe recklessness is limited to those highly unreasonable omissions
or misrepresentations that involve not merely simple
or inexcusable negligence, but an extreme departure
from the standard of ordinary care, and that present a
danger of misleading buyers or sellers which is either
known to the defendant or is so obvious that the defendant must have been aware of it.”), quoting Abrams
 The Third Circuit, which includes Delaware, has also held
that “the group pleading doctrine is no longer viable in private
securities actions after the enactment of the PSLRA.” Winer Family Trust v. Queen, 503 F.3d 319, 334 (3d Cir. 2007). See also City
of Roseville Employees’ Retirement v. Horizon Lines, Inc., 686
F. Supp. 2d 404, 426 (D. Del. 2009) (“[T]o plead scienter against
the corporate defendants, plaintiffs must identify facts raising a
strong inference that false or misleading statements were made
or otherwise promoted by an individual acting on behalf of each
company and who knew or was reckless in not knowing that the
statements were false or misleading at the time they were made.”
14
 Quoting Broad v. Rockwell Int’l Corp., 642 F.2d 929, 96162 (5th Cir. 1981) (en banc).
13

App. 61
v. Baker Hughes, Inc., 292 F.3d 424, 430 (5th Cir. 2002).
To determine whether a statement made by a corporation was made with the requisite intent, it is appropriate to look into the state of mind of the corporate
official who made the statement rather than to the collective knowledge of all of the corporation’s officers and
employees acquired in the course of their employment.
Southland, 365 F.3d at 366; Janus Capital Group, Inc.
v. First Derivative Traders, 564 U.S. 135, 142 (2011)
(“[T]he maker of a statement is the person or entity
with ultimate authority over the statement, including
its content and whether and how to communicate it.”).
“A defendant corporation is deemed to have the requisite scienter for fraud only if the individual corporate
officer making the statement has the requisite level of
scienter, i.e., knows that the statement is false or is at
least deliberately reckless as to its falsity, at the time
he or she makes the statement.” Southland, 365 F.3d
at 366.
“In determining whether the pleaded facts give
rise to a ‘strong’ inference of scienter, the court must
take into account plausible opposing inferences.” Tellabs, Inc. v. Makor Issues & Rights, Ltd., 551 U.S. 308,
323 (2007). Furthermore, the inference of scienter ultimately must be “ ‘cogent and compelling,’ not merely
‘reasonable’ or “permissible.’ ” “Congress required plaintiffs to plead with particularity facts that give rise to
a ‘strong’--i.e., a powerful or cogent--inference.” Id.;
Indiana Elec. Workers’ Pension Trust Fund IBEW v.
Shaw Group, Inc., 537 F.3d 527, 533 (5th Cir. 2008),
quoting Tellabs, Inc., 551 U.S. at 324. “To determine

App. 62
whether the plaintiff has alleged facts that give rise to
the requisite ‘strong inference’ of scienter, a court must
consider plausible, nonculpable explanations for the
defendant’s conduct, as well as inferences favoring the
plaintiff. The inference that the defendant acted with
scienter need not be irrefutable, i.e., of the ‘smokinggun’ genre, or even the ‘most plausible of competing inferences.’ ” Id. at 323-24. But it must be “at least as
compelling as any opposing inference one could draw
from the facts alleged.” Id. at 324. “[A] tie favors the
plaintiff.” Owens v. Jastrow, 789 F.3d 529, 536 (5th Cir.
2015), quoting Lormand v. US Unwired, Inc., 565 F.3d
228, 254 (5th Cir. 2009), citing Tellabs, 551 U.S. at 324.
“The inquiry is whether all of the facts alleged, taken
collectively, give rise to a strong inference of scienter,
not whether any individual allegations, scrutinized
in isolation, meet that standard.” Lormand, 565 F.3d
at 251, citing Tellabs, 551 U.S. at 322-23. While allegations of motive and opportunity may serve to
strengthen the inference of scienter, such allegations
alone are insufficient to satisfy the requirement. Flaherty & Crumrine Preferred Income Fund, Inc. v. TXU
Corp., 565 F.3d 200, 208 (5th Cir. 2009); Owens v.
Jastrow, 789 F.3d at 539.
If the plaintiff fails to satisfy the pleading requirements for scienter, “the district court ‘shall,’ on defendant’s motion to dismiss, ‘dismiss the complaint.’ ”
Nathenson, 267 F.3d at 407, citing § 78u-4(b)(3).
Under the PSLRA, 15 U.S.C. § 78u-4(b)(4), a plaintiff must also allege and ultimately prove “the traditional elements of causation and loss,” i.e., “that the

App. 63
defendant’s misrepresentations (or other fraudulent
conduct) proximately caused the plaintiff ’s economic
loss.” Dura Pharmaceuticals, Inc. v. Broudo, 544 U.S.
336, 346 (2005). The plaintiff must plead economic loss
and loss causation, i.e., a causal connection between
the material misrepresentation or omission and the
loss. Id. at 341-42. “[A]n inflated purchase price will
not itself constitute or proximately cause the relevant
loss.” Id. at 342. To establish proximate causation, the
plaintiff must prove that when the “relevant truth”
about the fraud began to leak out or otherwise make
its way into the marketplace, it caused the price of
the stock to depreciate and thereby proximately cause
the plaintiff ’s economic injury. Lormand, 565 F.3d at
255 (“[W]e conclude that Rule 8(a)(2) requires the
plaintiff to allege, in respect to loss causation, a facially
‘plausible’ causal relationship between the fraudulent
statements or omissions and plaintiff ’s economic loss,
including allegations of a material misrepresentation
or omission, followed by the leaking out of relevant or
related truth about the fraud that caused a significant
part of the depreciation of the stock and plaintiff ’s economic loss.”), citing Dura at 342, 346.
Both the 1933 and the 1934 statutes have a section imposing liability on persons controlling a primary violator. Section 15, 15 U.S.C. § 77o of the 1933
Act, entitled “Liability of controlling persons, states in
relevant part,


App. 64
(a) Controlling persons
Every person who, by or through stock ownership, agency, or otherwise, or who, pursuant
to or in connection with an agreement or understanding with one or more persons by or
through stock ownership, agency, or otherwise, controls any person liable under sections
77k or 77l of this title, shall also be jointly and
severally with and to the same extent as such
controlled person to any person to whom such
controlled person is liable, unless the controlling persons had no knowledge of or reasonable ground to believe in the existence of the
facts by reason of which the liability of the
controlled person is alleged to exist.
(b) Prosecution of persons who aid and abet
violations
For purposes of any action brought by the
Commission under subparagraph (b) or (d)
of section 77t of this title, any person that
knowingly or recklessly provides substantial
assistance to another person in violation of a
provision of this subchapter, or of any rule or
regulation issued under this subchapter, shall
be deemed to be in violation of such provision
to the same extent as the person to whom such
assistance is provided.15

 Plaintiffs assert that Defendants are liable for their employees’ conduct under the common law doctrine of respondeat superior, as well as under § 15 of the Securities Act on [sic] 1933, 15
U.S.C. § 77(o), and under § 20 of the Securities Exchange Act of
1934, 15 U.S.C. § 78(t).
15

App. 65
“The term control (including the terms controlling,
controlled by and under common control with) means
the possession, direct or indirect, of the power to direct
or cause the direction of the management and policies of a person, whether through the ownership of
voting securities, by contract, or otherwise.” 17 C.F.R.
§ 230.405. To state a claim for Section 15 control person liability, a plaintiff must allege that a primary violation under Section 11 or 12 was committed and the
defendant directly or indirectly controlled the violator.
Kapps v. Torch Offshore, Inc., 379 F.3d 207, 221 (5th Cir.
2004). The plaintiff can show control by alleging facts
showing that the defendant possessed the power to
direct or cause the direction of the management and
policies of a person through ownership of voting securities, by contract, business relationships, interlocking
directors, family relations, or the power to influence
and control the activities of another, but the plaintiff
must allege more than the defendant’s position or title.
In re Dynegy, Inc. Sec. Litig., 339 F. Supp. 2d 804, 828
(S.D. Tex. 2004). The Fifth Circuit does not require a
plaintiff to allege that the controlling person actually
participated in the underlying primary violation to
state a claim for control person liability.
Section 20(a) of the 1934 Act, 15 U.S.C. § 78(t) (“Liability of controlling persons and persons who aid and
abet”), states,
Every person who, directly or indirectly, controls any person liable under any provision of
this title or of any rule or regulation thereunder shall also be liable jointly and severally

App. 66
with and to the same extent as such controlled
person to any person to whom such controlled
person is liable . . . , unless the controlling person acted in good faith and did not directly or
indirectly induce the act of [sic] acts constituting the violation or cause of action.
Claims under section 20(a) are not governed by
Rule 9(b)’s heightened pleading requirements for fraud
claims; plaintiffs need only give the defendant fair notice of the claim and the grounds for the allegations. In
re BP p.l.c. Litig., 843 F. Supp. 2d 712, 791 (S.D. Tex.
2012). Plaintiffs can state a claim of controlled persons
against corporate officers who did not personally make
a misrepresentation or play a significant role in the
preparation of a misrepresentation by pleading facts
that such a person nevertheless “had the requisite
power to directly or indirectly control or influence corporate policy.” Id. at 792, quoting G.A. Thompson & Co.,
636 F.2d 945, 958 (5th Cir. 1981).
Because § 20(a) is a secondary liability provision,
if the Plaintiff fails to state a claim for a primary violation under § 10(b) and/or Rule 10b-5, Plaintiff also
fails to state a claim for control person liability under
§ 20(a). Id. at 750.
The control person liability provisions of Section
20(a) of the 1934 Act and Section 15 of the 1933 Act,
although worded differently, are interpreted similarly.
Dynegy, 339 F. Supp. 2d at 828, citing Abbott v. Equity
Group, Inc., 2 F.3d 613, 619 n.15 (5th Cir. 1993); In re
Franklin Bank Sec. Litig., 782 F. Supp. 2d 364, 380
(S.D. Tex. 2011), aff ’d sub nom. Harold Roucher Trust

App. 67
U/A DTD 9/21/72 v. Nocella, 464 Fed. Appx. [sic] (5th
Cir. Mar. 14, 2012).
III. Securities Act of 1933
The 1933 Act, 15 U.S.C. §§ 77a et seq., governs the
content of securities registration statements, which
the SEC requires for the trading and dealing of stock.
The Securities Act of 1933 also bars the “offer or
sale” of “securities” unless a registration statement has
been filed with the SEC or an exception to registration
requirements applies. Section 5 of the 1933 Act, 15
U.S.C. § 77e; SEC v. Continental Tobacco Co., 463 F.2d
137, 155-56 (5th Cir. 1972).
Section 11, 15 U.S.C. § 77k, addressing “Civil liabilities on account of false registration statement,” provides purchasers of registered securities with strict
liability protection for material misstatements or
omissions in registration statements with the SEC by
specifically enumerated parts. It provides in relevant
part,
(a) In case any part of the registration statement . . . contained an untrue statement of a
material fact or omitted to state a material
fact required to be stated therein or necessary
to make the statement therein not misleading, any person acquiring such security (unless it is proved that at the time of such
acquisition he knew of such untruth or omission) may, either at law or in equity, in any
court of competent jurisdiction, sue

App. 68
(1) every person who signed the registration
statement;
(2) every person who was a director of (or
person performing similar functions) or partner in the issuer at the time of the filing of the
part of the registration statement with respect to which his liability is asserted;
(3) every person who, with his consent, is
named in the registration statement as being
or about to become a director, person performing similar functions or partner; . . . .
(5) every underwriter to such security.
Regarding (5), under Section 2(11), 15 U.S.C.
§ 77b(11), a statutory underwriter is defined functionally on the basis of its relationship to a particular offering and reaches “any person who has purchased
from an issuer with a view to, or offers or sells for
an issuer in connection with, the distribution of any
security, or participates or has direct or indirect participation in any such undertaking, or participates or
has a participation in the direct or indirect underwriting of any such undertaking. . . .” Furthermore 15
U.S.C. § 77k(a)(5) provides that any person who purchases a security, which was subject to a registration statement containing a false statement, may sue
“every under writer with respect to such security.”


App. 69
Section 12, 15 U.S.C. § 77l, states in relevant part,
(a) in general--Any person who–
(1) offers or sells a security in violation
of section 77e of this title, or
(2) offers or sells a security (whether or
not exempted by the provisions of section
77c of this title, other than paragraphs (2)
and (14) of subsection (a) of said section),
by the use of any means or instruments
of transportation or communication in
interstate commerce or of the mails, by
means of a prospectus or oral communication, which includes an untrue statement of material fact necessary in order
to make the statements, in light of the circumstances under which they were made,
not misleading (the purchaser not knowing of such untruth or omission), and who
shall not sustain the burden of proof that
he did not know, and in the exercise of
reasonable care could not have known, or
such truth or omission,
shall be liable, subject to subsection (b) of this
section, to the person purchasing such security from him, who may sue either at law or in
equity any court of competent jurisdiction, to
recover the consideration paid for such security with interest thereon, less the amount of
any income received thereon, upon the tender
of such security, or for damages if he no longer
owns the security.

App. 70
Section 11 of the Securities Act of 1933, 15 U.S.C.
§ 77k, “applies to registered securities and imposes
civil liability on the signatories to the registration
statement and on the directors of the issuer when the
registration statement is materially misleading or defective.” Firefighters Pension & Relief Fund of the City
of New Orleans v. Bulmahn, 53 F. Supp. 3d 882, 892
(E.D. La. 2014), citing Rosenzweig v. Azurix Corp. 332
F.3d 854, 861 (5th Cir. 2003). To state a claim under
Section 11 of the Securities Act of 1933, 15 U.S.C. § 77k,
the plaintiffs must allege that they purchased shares
from a registration statement that contained (1) an
omission or misstatement (2) of a material fact required to be stated or necessary to make other statements made not misleading. Krim v. Banc Texas Group,
Inc., 989 F.2d 1435, 1445 (5th Cir. 1993) (defining a
“material fact” as “one which a reasonable investor
would consider significant in the decision whether to
invest, such that it alters the ‘total mix’ of information
available about the proposed investment”).
Thus section 11, 15 U.S.C. § 77k(a), permits “any
person acquiring such security” to sue, including after
market purchasers of shares issued in a public offering,16 while in contrast, under section 12(a)(2), 15 U.S.C.
§ 77l(a)(2), a seller is only liable “to the person purchasing such security from him.” Rosenzweig, 332 F.3d
at 872-73, citing inter alia Joseph v. Wiles, 223 F.3d
1155, 1159 (10th Cir. 2000) (“[T]he natural reading of
 See Rosenzweig, 332 F.3d at 872 (“§ 11 applies to aftermarket purchasers.” Section 11 only applies to public registered offerings, and not to private offerings. Id. at 873.
16

App. 71
‘any person acquiring such security’ is simply that the
buyer must have purchased a security issued under
the registration statement at issue, rather than some
other registration statement.”).
Regarding alleged omissions, under § 11 an issuer
only has to disclose information that is required to
make other statements not misleading or information
that the securities laws require to be disclosed; simply
possessing material nonpublic information does not give
rise to a duty to disclose. Firefighters, 53 F. Supp. 3d at
892. Moreover the statute’s “ ‘expansive’ liability provisions create ‘virtually absolute liability’ for corporate
issuers for even innocent misstatements.” Id., quoting
Krim v. pcOrder.com, Inc., 402 F.3d 489, 495 (5th Cir.
2205 [sic]). Plaintiffs are not required to plead scienter,
reliance or fraud under the statute. Id., citing Rombach v. Chang, 355 F.3d 164, 169 n.4 (2d Cir. 2004).
Where grounded in negligence, Section 11 only requires notice pleading under Federal Rule of Civil Procedure 8, not the heightened standards of Federal Rule
of Civil Procedure 9(b) or of the PSLRA. In re Dynegy,
Inc. Sec. Litig., 339 F. Supp. 2d 804, (S.D. Tex. 2004),
citing Lone Star Ladies, 238 F.3d at 369 (averments
that defendants made untrue statements of material
facts and omitted to state material facts in violation of
§ 11 are not claims that sound in fraud and cannot be
dismissed for failure to satisfy Rule 9(b)’s heightened
pleading requirements), citing In re Electronic Data
Systems Corp. “ERISA” Litig., 305 F. Supp. 2d 658, 677
(E.D. Tex. 2004). Nor is a plaintiff required to allege
and show that the defendant acted with scienter under

App. 72
§ 11 of the Securities Act of 1933, 15 U.S.C. § 77k(a), or
that he relied in any way on the defendant’s misrepresentations or omissions. Collmer, 268 F. Supp. 2d at
756 (S.D. Tex. 2003). Nevertheless, if the allegations
are based in fraud, the heightened standards of Rule
9(b) apply. Firefighters, 53 F. Supp. 3d at 892, citing
Lone Star Ladies Inv. Club, 238 F.3d at 368, citing
Melder, 27 F.3d at 1100 n.6, and Rombach, 355 F.3d at
171.
“The Securities Act of 1933 imposes strict liability
on offerors and sellers of unregistered securities” and
allows purchasers to recover under Section 12(1) “regardless of whether they can show any degree of fault,
negligent or intentional, on the seller’s part.” Swenson
v. Engelstad, 626 F.2d 421, 424-25 (5th Cir. 1980). An
issuer’s liability to a plaintiff who buys a security issued pursuant to a registration statement with a material misstatement or omission under section 12 (as it
is under section 11) of the 1933 Act is “ ‘virtually absolute.’ ” Lone Star Ladies Inv. Club v. Scholtzsky’s [sic]
Inc., 238 F.3d 363, 369 (5th Cir. 2001), quoting Herman
& MacLean v. Huddleston, 459 U.S. 375, 382 (1983). In
Pinter v. Dahl, 486 U.S. 622, 644 (1988), the Supreme
Court indicate [sic] that in some situations the issuer
is immune from liability in a firm commitment underwriting [where the public does not purchase from the
issuers but from the underwriters]: “One important
consequence of [the purchaser clause] is that § 12(1)
imposes liability on only the buyer’s immediate seller;
remote purchasers are precluded from bringing actions
against remote sellers. Thus a buyer cannot recover

App. 73
against his seller’s seller.” Lone Star Ladies Inv. Club v.
Schlotzsky’s, Inc., 238 F.3d 363, 370 (5th Cir. 2001),
quoting Pinter, 486 U.S. at 644 n.21 (emphasis added
by Lone Star). Furthermore § 12(a)(2) applies only to
purchases of stock in initial offerings, and not to aftermarket trading. Gustafson v. Alloyd Co., Inc., 513 U.S.
561 (1995). See also Rosenzweig v. Azurix Corp., 332
F.3d 854, 870-71 (5th Cir. 2003) (holding that purchasers who buy their shares on the secondary market lack
standing to bring § 12(a)(2) claims.).
Defendants other than the issuer can avoid liability by pleading and proving an affirmative defense of
due diligence. Id.
Section 12 restricts recovery to purchasers who
purchase their shares from a seller who makes use of
false or misleading statements. 15 U.S.C. § 77l(a)(2)
(seller “shall be liable to the person purchasing such
security from him.”). “Section 2(3) defines ‘sale’ or ‘sell’
to include ‘every contract of sale or disposition of a security or interest in a security, for value,’ and the terms
‘offer to sell,’ ‘offer for sale,’ or ‘offer’ to include ‘every
attempt or offer to dispose of, or solicitation of an offer
to buy, a security or interest in a security, for value.’ 15
U.S.C. § 77b(3). Under these definitions, the range of
persons potentially liable under § 12(1) is not limited
to persons who pass title.” Pinter v. Dahl, 486 U.S. 622,
643 (1988). While the purchase requirement limits liability to instances in which a sale has occurred, the language of the statute extends statutory seller status
and thus liability to some persons who simply urged
the buyer to purchase the security. Id. at 644.

App. 74
When a broker acting as an agent of one of the
principles to a securities purchase successfully solicits
a purchase, he is a person from whom the buyer purchases within the meaning of § 12 and is thus liable as
a statutory seller. Pinter, 486 U.S. at 646, citing inter
alia Cady v. Murphy, 113 F.2d 988, 990 (1st Cir.) (finding a broker acting as an agent to be liable as a statutory seller), cert. denied, 311 U.S. 705 (1940). The
Supreme Court went on to limit a solicitor’s liability to
exclude the solicitor, “merely to assist the buyer,” “gratuitously urges another to make a particular investment”: “The language [‘buy . . . for value”] and purpose
of § 12(1) suggest that liability extends only to the person who successfully solicits the purchase, motivated
at least in part by a desire to serve his own financial
interests or those of the securities owner,” e.g., a broker. Id. at 647.
As with § 11, where § 12(a) claims do constitute
fraud, the plaintiff must plead the circumstances constituting fraud with Rule 9(b) particularity. Collmer v.
U.S. Liquids, Inc., 268 F. Supp. 2d 718, 756 (S.D. Tex.
2003), citing Melder v. Morris, 27 F.3d 1097, 1100 n.6
(5th Cir. 1994) (“When 1933 Securities Act claims are
grounded in fraud rather than negligence . . . Rule 9(b)
applies.”).
Section 12(a)(2) of the Securities Act of 1933, 15
U.S.C. § 77l(a), states, “Any person who . . . offers or
sells a security . . . by means of a prospectus or oral
communication, which includes an untrue statement of
material fact or omits to state a material fact necessary in order to make the statements, in light of the

App. 75
circumstances under which they were made, not misleading (the purchaser not knowing of such untruth or
omission), and who shall not sustain the burden of
proof that he did not know, and in the exercise of reasonable care could not have known, of such untruth or
omission, shall be liable, subject to subsection (b) of
this section, to the person purchasing such security
from him, who may sue either at law or in equity in
any court of competent jurisdiction, to recover the consideration paid for such security with interest thereon,
less the amount of any income received therein, upon
the tender of such security, or for damages if he no
longer owns the security.” Under section 12(a)(2) the
term “seller” refers to “either the person who actually
passes title to the buyer, or ‘the person who successfully solicits the purchase, motivated at least in part
by a desire to serve his own financial interests or those
of the securities owner,’ e.g., a broker.” Rosenzweig v.
Azurix Corp., 332 F.3d 854, 871 (5th Cir. 2003), citing
Pinter v. Dahl, 486 U.S. 622, 647 (1988). To constitute a
“solicitation,” at the very least the seller must “directly
communicate with the buyer.” Id., citing Litigation v.
Kraftsow, 890 F.2d 628, 636 (3d Cir. 1989) (“The purchaser must demonstrate direct and active participation in the solicitation of the immediate sale to hold the
issuer liable as a § 12(a)(2).”).
To prevail on a claim under § 12(a)(2), 15 U.S.C.
§ 77l(a)(2), the plaintiff must allege and prove that
the defendant, as a seller of a security “by means of
a prospectus or oral communication,” misrepresented
or failed to state material facts to the plaintiff in

App. 76
connection with the sale and that the plaintiff had
no knowledge of untruth or omission. Collmer, 268
F. Supp. 2d at 756, citing Junker v. Crory, 650 F.2d
1349, 1359 (5th Cir. 1981). As with § 11, “a ‘material’
fact is one which a reasonable investor would consider
significant in the decision whether to invest, such that
it alters the ‘total mix’ of information available about
the proposed investment.” Krim, 989 F.2d at 1445.
There is no liability under Section 12(a)(2) if there
is no duty to disclose the allegedly false or misleading
information. In re Morgan Stanley Technology Fund
Sec. Litig., 643 F. Supp. 2d 366, 381-82 (S.D.N.Y. 2009),
citing In re Time Warner Inc. Sec. Litig., 9 F.3d 259, 267
(2d Cir. 1993) (an actionable claim under the Securities
Act or the Exchange Act must plead a material omission that involves information that the defendant has
a duty to disclose).
IV. Employee Stock Option Plans
To have standing to sue under the 1933 and 1934
Acts, a plaintiff must be either a purchaser or a seller
of the securities at issue. Blue Chip Stamps v. Manor
Drug Stores, 421 U.S. 723 (1975). Therefore for the securities laws to apply to a transaction between the employer and the employee, there must be a “security”
and a “sale.” To determine whether a stock option plan
is covered by the securities laws, the Court first examines whether the employee’s interest in the plan is
a “security,” second, whether it involves an “offer” or

App. 77
“sale” of securities, and third, whether it falls within
an exemption from either or both of the Acts.
It is undisputed that a stock option is a security.
Section 2(1) of the Securities Act of 1933, 15 U.S.C.
§ 77b(a)(1), and Section 3(a)(1) of the Exchange Act, 15
U.S.C. § 78c(a)(10), define a “security” almost identically, with the variations being insignificant here, to
include inter alia any note, stock, bond, option, and
participation in an investment contract. SEC v. Glenn
W. Turner Enterprises, Inc., 474 F.2d 476, 480 & n.4
(9th Cir. 1973), cert. denied, 414 U.S. 821 (1973); Hunssinger v. Rockford Business Credits, Inc., 745 F.2d 484,
487 (7th Cir. 1984); Daily v. Morgan, 701 F.2d 496. 500
(5th Cir. 1983) (“ ‘Stock’ is expressly included in the
definition [of ‘security’ in the 1933 and 1934 Acts], and
represents to many people, both trained and untrained
in business matters, the paradigm of a security.”);
Yoder v. Orthomolecular Nutrition Institute, Inc., 751
F.2d 555, 558 (2d Cir. 1985) (holding that stock offered
as an inducement to accept employment qualifies as a
purchase or sale of securities under the Securities Exchange Act).
An “investment contract” under the federal securities acts is a contract, transaction or scheme in which
a person invests money in a common enterprise and
is led to expect profits solely from the efforts of the
promoter or a third party. 15 U.S.C. § 77b(1) and
§ 78c(a)(10). Because the Securities Acts are remedial
in nature and were enacted to regulate investments in
an effort to protect against abuses in the securities
market, the Supreme Court opined that the broad

App. 78
definition of securities “encompasses virtually any instrument that might be sold as an investment” and
“embodies a flexible rather than a static principle, one
that is capable of adaptation to meet the countless and
variable schemes devised by those who seek the use of
the money of others on the premise of profits.” Reves v.
Ernst & Young, 494 U.S. 56, 60-61 (1990); SEC v. W.J.
Howey Co., 328 U.S. 293, 299 (1946).
In Howey, the Supreme Court established a test
to determine whether a financial relationship constituted an “investment contract,” i.e., “whether a contract transaction or scheme whereby a person invests
his money in a common enterprise and is led to expect
profits solely from the efforts” of others. Id. at 298-99.
In applying the test, courts should disregard form and
focus on the “substance--the economic realities of the
transaction--rather than the names that may have
been employed by the parties.” United Housing Foundation, Inc. v. Forman, 421 U.S. 837, 848-49 (1975). In
Howey the Supreme Court determined, regarding the
first prong, the investment of money, that the employees covered under the defined benefit17 pension plan
 Employee benefit plans are divided into two broad categories: defined benefit and defined contribution plans. The SEC explains in Employee Benefit Plans, SEC Release No. 33-6188, 19
S.E.C. Docket 465, 1980 WL 29482, at *6-7,
A defined benefit plan pays fixed or determinable benefits. The benefits ordinarily are described in a formula
which specifies the amount payable in monthly or annual installments to participants who retire at a certain age. As long as the plan and the employer(s)
contributing to the plan remain solvent, and the plan
continues to be [sic] operate, vested participants will
17

App. 79
did not make an “investment of money,” unlike other
purchasers who had given up “some tangible and definable consideration” in return for their security”; in a
pension plan “by contrast, the purported investment is
a relatively insignificant part of an employee’s total
and indivisible compensation package” and “ ‘[n]o portion of an employee’s compensation other than the potential pension benefits has any of the characteristics
of a security . . . Only in the most abstract sense may
it be said that an employee ‘exchanges’ some portion of
his labor in return for there [sic] possible benefits.” Int’l
Brotherhood of Teamsters, Chauffeurs, Warehousemen
and Helpers of America v. Daniel, 439 U.S. 551, 560-61

receive the benefits specified. In the event the investment
results of the plan do not meet expectations, the employer(s) usually will be required, on the basis of actuarial computation, to make additional contributions to
fund the promised benefits. Conversely, if plan earnings are better than anticipated, the employer(s) may
be permitted to make contributions that are less than
the projected amounts.
A defined contribution plan does not pay any fixed or
determinable benefits. Instead, benefits will vary, depending on the amount of plan contributions, the investment success of the plan, and allocations made of
benefits forfeited by non-vested participants who terminate employment. Thus, the amount of benefits is
based, in part, on the earning generated by the plan.
Observing that the opinion in Int’l Brotherhood of Teamsters,
Chauffeurs, Warehousemen & Helpers of America v. Daniel, 439
U.S. 551 (1979) (discussed infra). “did not rest on the fact that the
plan was a defined benefit one,” the SEC finds that the “defined
benefit or defined contribution nature of a plan is not dispositive
in determining whether a security is present.” Id. at *7.

App. 80
(1979).18 Nor was the second prong of the Howey test
met because the pension plan’s funds were mainly employer contributions. Id. at 562 (“[A] far larger portion
of its income comes from employer contributions,” and
not from earnings from its assets). Because any profit
made from the pension plan’s investment of those monies was minimal and the covered employees would not
gain or lose from the choice of those investments, the
high court found that the fund was not a “common enterprise with profits to come solely from the efforts
of others,” and thus it was not an investment contract.
Id. at 558, quoting Howey, 328 U.S. at 301. Finally the
Supreme Court found that ERISA, which specifically
regulates pension plans, undermined any reason for
securities regulations of such pension plans. Id. at 56970.
After Howey, in Daniel the Supreme Court applied
the Howey test to decide whether an employee’s interest in an employee pension plan constituted a “security” under the 1934 Act. It concluded that the answer
depended on whether the plan is voluntary or compulsory, individually contributory or noncontributory.19
Daniel, 439 U.S. at 559; Employee Benefit Plans, SEC
 The Supreme Court noted in Daniel, 439 U.S. at 559, “An
employee who participates in a noncontributory, compulsory pension plan by definition makes no payment into the pension fund.
He only accepts employment, one of the conditions of which is eligibility for a possible benefit on retirement.”
19
 In Daniel the plan was compulsory because all employees
were enrolled in it under a collective bargaining agreement and
it was noncontributory because the employer alone paid money
into it.
18

App. 81
Release No. 33-6188, 1 Fed. Sec. Rep. (CCH) P 1051 at
2073-6 n, 19-20, 1980 WL 29482 (Feb. 1, 1980). A “compulsory” benefit indicates the employer imposed the
benefit as a condition of employment (i.e., all employees were required to participate), while “noncontributory means that “[t]he employees paid nothing to the
plan themselves,” and the employer made all the contributions. Observing that every Supreme Court decision finding the existence of a security under the 1933
and 1934 Acts also found an investor who “chose to give
up a specific consideration in return for a separable financial interest with the characteristics of a security”
or a purchaser who “gave up some tangible and definable consideration for an interest that had substantially the characteristics of a security,” the Supreme
Court found that in Daniel’s plan the “purported investment [was] a relatively insignificant part of an employee’s total compensation package.” 439 U.S. at 560.
“Only in the most abstract sense may it be said that an
employee ‘exchanges’ some portion of his labor in return for these possible benefits.” Id. “Looking at the
economic realities, it seems clear that an employee is
selling his labor primarily to obtain a livelihood, not
making an investment.” Id. at 559-60.20 Daniel held
 Inducements to continue employment (in contrast to inducements to accept employment) are not seen as a contribution
sufficient to constitute a “security” to meet the test. In re Cendant
Corp. Sec. Litig., 81 F. Supp. 2d 550, 556 (D.N.J. 2000) (“When an
employee does not give anything of value for stock other than the
continuation of employment not independently bargains for . . .
stock, there is no ‘purchase or sale’ of securities.”). They distinguish cases “in which an employee was found to have purchased
or sold stock options in return for labor” as “based on the concept
20

App. 82
that an interest in a compulsory, noncontributory pension plan is not an interest in an investment contract,
and thus not a “security” under the 1933 and 1934
Acts. Daniel, 439 U.S. at 553; Howey, 328 U.S. at 298.
Thus the 1933 and 1934 Securities Acts do not apply
to pension plans to which employees do not contribute
and in which employee participation is compulsory because such a plan does not require the employee to
“give up specific consideration in return for a separable
financial interest with the characteristics of a security.” Daniel, 439 U.S. at 559, 570.
The SEC subsequently expanded Daniel beyond
pension plans to all involuntary and noncontributory
employee benefit plans. SEC Release No. 33-6188 (Feb.
1, 1980); SEC Release No. 33-6281 (Jan. 15, 1981).
Only an actual direct purchaser or seller of securities has standing to sue under Section 10(b) and Rule
10b-5. Blue Chip Stamps, 421 U.S. at 749-55, ratifying
Birnbaum v. Newport Steel Corp., 193 F.3d 461, 462-63
(2d Cir. 1952). Section 11(a) of the Securities Act of
1933 “gave a right of action by reason of a false registration statement to ‘any person acquiring the security,
and § 12 of the Act gave a right to sue the seller of a
security who had engaged in proscribed practices with
respect to prospectuses and communication to ‘the person purchasing such security from him.’ ” Blue Chip
that the options are ‘a quid pro quo offered to induce plaintiff to
enter into the employ of [defendant].” Id., citing as examples
Yoder, 751 F.2d at 560; Rudinger v. Insurance Data Processing,
Inc., 778 F. Supp. 1334 (E.D. Pa. 1991); and Collins v. Rukin, 342
F. Supp. 1282 (D. Mass. 1972).

App. 83
Stamps, 421 U.S. at 728. Section 2(3) of the Securities
Act of 1933 states, “The term ‘sale’ or ‘sell’ shall include
every contract of sale or disposition of a security or interest in a security for value,” while section 3(a)(14) of
the Securities Exchange Act of 1934 provides, “The
terms ‘sales’ and ‘sell’ each include any contract to sell
or otherwise dispose of.”
Arising in the wake of Daniel’s holding that an interest in a compulsory, noncontributory pension plan is
not a “security,” the SEC’s “no-sale doctrine” provides
that a grant of securities to employees pursuant to a
stock bonus plan is not a “purchase or sale” where
these employees “do not individually bargain to contribute cash or other tangible or definable consideration to such plans.” SEC Release No. 33-6188, 1980 WL
29482 at *1521 (Feb. 1, 1980). Such plans are “involuntary [or compulsory], non-contributory plans.” Id. at *8.
Thus compulsory noncontributory stock option plans
where the employees do not individually bargain to
contribute cash or other consideration are not “sales”
under the definition of the Securities Act of 1933. Id.
See also Compass Group PLC, SEC No-Action Letter,
1999 WL 311797 (May 13, 1999) (finding that registration of stock options was not required “when an employee does not give anything of value for stock other
than the continuation of employment nor independently
bargains for such stock, as a stock bonus program that
involves the award of stock to employees at no direct
cause.”). When an employee does not give anything of
21

 Or 1980 SEC LEXIS 2141 at *15.

App. 84
value22 for stock other than the continuation of employment nor independently bargains for . . . stock, as when
the employee receives his stock through a companywide stock option plan “there is no ‘purchase or sale’
of securities.” Wyatt v. Cendant Corp. (In re Cendant
Corp. Sec. Litig.), 81 F. Supp. 2d 550, 556 (D.N.J. 2000)
(internal quotation omitted); McLaughlin v. Cendant
Corp., (In re Cendant Corp. Sec. Litig.), 76 F. Supp. 2d
539, 550 (D.N.J. 1999) (“Under the SEC’s ‘no sale’ doctrine, a grant of securities to an employee pursuant to
a stock bonus plan is not a ‘purchase’ or sale’ because
these employees ‘do not individually bargain to contribute cash or other tangible or definable consideration to such plan . . . [and] employees in almost all
instances would decide to participate if given the opportunity.”), citing Securities Release No. 33-6188,
1980 WL 29482, and Compass Group PLC, SEC No-Action Letter, 1999 WL 311797 (May 13, 1999) (finding
that no registration of stock options was required
“when an employee does not give anything of value for
stock other than the continuation of employment no
[sic] independently bargains for such stock, such as a
stock bonus program that involves the award of stock
to employees at no direct cost.”); Daniel, 439 U.S.
at 558-59 (holding that the Exchange Act does not
apply to noncontributory, compulsory pension plan;
“An employee who participates in a noncontributory

 The phrase “for value” in § 2(1) of the Securities Act of
1933 has been construed to include a wide variety of forms of consideration, including property, cash, services, and the surrender
of a legal right. SEC Release No. 33-6188, 1980 WL 29482, at *16.
22

App. 85
compulsory pension plan by definition makes no payment into the pension fund.”).
This reasoning has been applied to employee stock
option plans. Cendant, 76 F. Supp. 2d at 545-46, citing
Bauman v. Bish, 571 F. Supp. 1054 (N.D.W. Va. 1983)
(concluding that an employee stock option plan was
“compulsory” where “there [was] no affirmative investment decision” made by the individual employee), and
Childers v. Northwest Airlines, Inc., 688 F. Supp. 1357,
1363, 1364 (D. Minn. 1988) (“Plaintiffs’ participation
was an incident of employment and their only choice
would have been to forego the receipt of benefits entirely”; “The notion that the exchange of labor will suffice to constitute the type of investment which the
Securities Acts were intended to regulate was rejected
in Daniel”). Only “[w]here an employee . . . acquires the
right to [stock] options as part of his or her bargainedfor compensation [will courts] infer that the employee
made an intentional decision to ‘purchase’ the options.”
Cendant, 81 F. Supp. 2d at 557-58,23 citing Yoder v. Orthomolecular Nutrition Inst., Inc., 751 F.2d 555, 560 (2d
Cir. 1985) (noting that the definitional sections of the
two Acts, § 2 of the 1933 Act and § 2 of the 1934 Act,
begin with the proviso, “When used in this title, unless

 “To ‘purchase or sell’ stock options, employee-purchasers
must give up a specific consideration in return for a separable financial interest with the characteristics of a security.” Cendant,
81 F. Supp. 2d at 556. In accord Fishoff v. Coty Inc., No. 09 Civ.
628 (SAS), 2009 WL 1585769, at *5 & n.74 (S.D.N.Y. June 8,
2009), citing Fraser v. Fiduciary Trust Co., Intern., 417 F. Supp. [sic]
310, 318 (S.D.N.Y. 2006).
23

App. 86
the context otherwise requires24 [emphasis added by this
Court], . . . ,” and finding that the promise of a stock
distribution in exchange for an individually bargained
employee contract could be consideration for a “sale”
under the Securities Act); Childers v. Northwest Airlines,
Inc., 688 F. Supp. 1357, 1363 (D. Minn. 1988) (“Plaintiffs’ participation was an incident of employment and

 Addressing this key phrase in the beginning of the definitional sections of the 1933 and 1934 Acts, Matthew T. Bodie
explains in Aligning Incentives With Equity: Employee Stock Options and Rule 10b-5, 88 Iowa L. Rev. 539, 558-59 (March 2003),
Courts and commentators have debated over the exact
meaning of this exception, particularly whether “context” means “in the context of the statute’s text,” or “in
the context of the facts of the case.” In two Rule 10b-5
cases involving employee ownership interests--one involving stock [Yoder v. Orthomolecular Nutrition Institute, Inc.], the other stock options [Collins v. Rukin, 342
F. Supp. 1282, 1286 (D. Mass. 1972) (defendant corporation offered plaintiff a stock option as an inducement
to accept employment, which satisfied the “for value”
requirement of the 1933 Act)]--defendants argued that
the securities laws should not apply in the “context” of
securities that form a part of an employment contract.
In both cases, while the courts noted that the securities
laws were designed to protect investors, they nevertheless found the securities protections broad enough to
encompass employees with interests in their companies. As Judge Friendly wrote in the Yoder case, “We
see no reason why ‘the context requires’ us to hold that
an individual who commits herself to employment by a
corporation in return for stock or the promise of stock
should not be considered an investor.”
24

App. 87
their only choice would have been to forgo the receipt
of benefits entirely.”).25
Moreover where the plan is noncontributory and
involuntary, the stock awarded to employees is not required to be registered because there is no “sale” to the
employees since they have not individually bargained
to contribute cash or other consideration to the employee stock ownership plan. 1980 SEC Release No. 336188. These courts and the SEC Release grew out of
Daniel’s finding that these stock option employees that
did not directly contribute to the plan failed to meet
the “investment of money” or investment contract requirement of Howey for a sale/purchase and the SEC’s
“no-sale” doctrine.
Plaintiffs rely on decision by the Ninth Circuit
in Falkowski v. Imation Corp., 309 F.3d 1123 (2002),
amended, 320 F.3d 905 (9th Cir. 2003), that is contrary
to the Cedant [sic] cases and to the 1980 SEC Release.
The panel in Falkowski, interpreting SLUSA and its
preemption of class actions that involved charges of
fraud “in connection with the purchase and sale of a
covered security,” grounded in California state law,
dealt with a class action comprised of employees and
contractors of Cemax who had received stock options
through a company plan from their original employer,
Cemax-Icon (“Cemax”), which was subsequently acquired by Imation and their options were converted to
 As noted, under Howey and Daniel, an employee’s participation in a noncontributory, compulsory pension plan also cannot
be characterized as an investment contract. Daniel, 439 U.S. at
559.
25

App. 88
Imation stock options. Id. at 1126-27. A year later
Imation sold Cemax to Eastman Kodak Company, and
in connection with that sale, according to the plaintiffs
in their class action, induced the employees to remain
with Cemax-Imation merged company by misrepresenting the value of their stock and options and exaggerating the length of time they would have to exercise
their options. Id. at 1127. Instead of basing their decision on the concept of an “investment contract” to
which the employees had failed to contribute anything
in Daniel, the Ninth Circuit panel observed that
SLUSA’s language was very like that of § 10(b), which
bars securities fraud “in connection with the purchase
or sale of any security.” Id. at 1129. Moreover, emphasizing that the Supreme Court in SEC v. Zandford, 535
U.S. 813 (2002), found that § 10b “should be construed
not technically and restrictively, but flexibly to effectuate its remedial purposes” and “be viewed as part of the
remedial package of federal securities laws,” the Ninth
Circuit panel focused on the fact that “the 1933 and
1934 Acts define the purchase or sale of a security to
include any contract to buy or sell a security.” 15 U.S.C.
§§ 77b(a)(3). 78c(a)(13)-(14).” Id. at 1129. They further
reasoned that “if a person contracts to sell a security,
that contract is a ‘sale’ even if the sale is never consummated.” Id. The panel determined, “The grant of
an employee stock option on a covered security is
therefore a ‘sale’ of the covered security. The option is
a contractual duty to sell a security at a later date
for a sum of money, should the employee choose to buy
it. Whether or not the employee ever exercises the
option, it is a ‘sale’ under Congress’s definition.” Id. at

App. 89
1129-30. They concluded, “Whether or not an option
grant is a sale in the lay sense, it is a sale under the
securities laws because it is a contract to sell a security
when the option is exercised. We reject the contrary
holding of the Cedant cases. Id. at 1130.
This Court observes that Falkowski relied on a
statement in Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723, 750-51 (1975): “A contract to purchase or
sell securities is expressly defined by section 3(a) of the
1934 Act, 15 U.S.C. section 78c(a), as a purchase or sale
of securities for the purposes of the Act. . . . [T]he holders of . . . options and other contractual rights or duties
to purchase or sell securities have been recognized as
‘purchasers’ or ‘sellers’ of securities for purposes of
Rule 10b-5, not because of a judicial conclusion that
they were similarly situated to ‘purchasers’ or ‘sellers,’
but because the definitional provisions of the 1934 Act
themselves grant them such a status.” In deciding to
follow the Cedant cases and rejecting Falkowski, this
Court would emphasize that Blue Chip Stamps was issued before Daniel (1979) and before the SEC 1980 Release. Moreover in the 1980 Release, the SEC changed
its prior position to accord with Daniel’s and its progeny’s reasoning. Additional reasons for not following
Falkowski are highlighted in McKissick v. GemstarTV Guide, Intern., Inc., 415 F. Supp. 2d 1240, 1244-45
(N.D. Okla. 2005).26
 In Mckissick [sic], as a result of the merger of TV Guide,
Inc. and Gemstar International Group Limited, in which TV Guide
became a wholly-owned subsidiary of Gemstar, each TV Guide
shareholder received a fractional share of Gemstar stock in exchange for his TV Guide stock and each person who held stock
26

App. 90
Congress, in enacting the Securities and Exchange Act, provided definitions to help in the
interpretation and application of the statutes.
See 15 U.S.C. 78c. But, as the Supreme Court
has stated, “The relevant definitional section
of the 1934 Act are for the most part unhelpful; they only declare generally that the terms
“purchase” and “sale” shall include contracts
to purchase or sell. SEC v. Natl. Sec., Inc., 393
U.S. 453, 466 . . . (1969). Thus, the Court must
look to other courts to discern boundaries for
standing under a Rule 10b-5 cause of action to
determine if the holding of stock options by
the Plaintiff constitutes a contract to purchase or sell stocks. . . .
[T]he Supreme Court’s language in the
Blue Chip Stamps decision was nothing more
than dicta that alone cannot serve as the basis
for standing under 10(b) or Rule 10b-5. . . . To
allow the Plaintiff, who simply held her stock
options, to qualify as a purchaser or seller of
options for purchase of TV Guide stock were granted stock options
in Gemstar in the same fractional share given current shareholders. The plaintiff, who was President and Chief Operating Officer
of TV Guide and had been awarded a number of stock options remained in that position with the subsidiary after the merger in
2000, but then left in 2003. She alleged that she had planned to
exercise her stock options with TV Guide before the merger, but
was fraudulently induced to hold them because of misrepresentations that mere [sic] made to her during the merger on which she
relied, so her stock options were converted into Gemstar stock options. Soon after the value of Gemstar stock and her stock options
significantly decreased, causing her a major loss. She sued. The
plaintiff did not allege that she purchased or sold any stock at the
time of the merger, but only that she had a contractual right to
do so.

App. 91
stock under Rule 10b-5 under these facts
would destroy the Supreme Court’s reasoning
for adopting the Birnbaum Rule.27 As the
Court stated, “In the absence of the Birnbaum
doctrine, bystanders to the securities marketing process could await developments on the
sidelines without risk.” Blue Chip Stamps,
421 U.S. at 747. . . . Here, the Plaintiff is exactly the person described by the Court, a “bystander to the securities market[ ].” Id.
Moreover, as the Fifth Circuit has noted, “It is
well established that the mere retention of securities in reliance on material misrepresentations or omissions does not form the basis
for a section 10(b) or Rule 10b-5 claim.” Krim
v. BancTexas Group, Inc., 989 F.2d 1435, 1443
n. 7 (5th Cir. 1993) (citing Blue Chip Stamps,
421 U.S. 723. . . .
V. Disregarding the Corporate Form
Plaintiffs contend that the three Defendant UBS
entities (PW, Warburg, and nonparty UBS AG) form a
single enterprise which is liable to Plaintiffs for some
or all of their alleged violations of the Securities Exchange Act. When an entity’s corporate form is at issue,
courts standardly hold that the law of the state of incorporation of that entity applies to determine whether
its corporate form should be disregarded, i.e., whether
one can pierce the corporate veil. Ace American Ins. Co.
 Birnbaum v. Newport Steel Corp., 193 F.2d 461 (2d Cir.
1952) (finding that a purchase or sale was required for a Rule 10b5 cause of action).
27

App. 92
v. Huntsman Corp., 255 F.R.D. 179, 195 (S.D. Tex. 2008)
(and cases cited therein). PW and Warburg were incorporated in Delaware; thus the Court applies Delaware’s law to determine if their corporate forms should
be disregarded and UBS should be treated as a single
enterprise Defendant.28
As stated in the complaint, PW and Warburg are
subsidiaries of UBS AG. Contrary to Plaintiffs’ insistence that in a Rule 12(b)(6) review the Court must accept their conclusory claim that “UBS” is a single
entity and not three separate corporations as suggested by their names and corporate histories, under
Delaware law a corporate entity “may be disregarded
‘only in the interest of justice, when such matters as
fraud, contravention of law or contract, public wrong,
or equitable considerations among members of the corporation require it, are involved.” In re Phillips Petroleum Sec. Litig., 738 F. Supp. 824, 838 (D. Del. 1990).
A conclusory statement that three entities are one is
not sufficient without specific facts supporting such an
allegation. The separate corporate forms will not be
disregarded “merely upon a showing of common management or whole ownership.” Id. “A subsidiary corporation may be deemed the alter ego of its corporate
parent29 where there is a lack of attention to corporate
 As noted, the Third Circuit, which includes Delaware, has
rejected group pleading as failing to satisfy the PSLRA’s particularity in pleading requirement. Winer, 503 F.3d at 335.
29
 Delaware courts use varying terminology when addressing
the issue of liability in a parent-subsidiary relationship, “[y]et regardless of the precise nomenclature employed, the contours of
the theory are the same.” Mobile [sic] Oil, 718 F. Supp. at 266.
28

App. 93
formalities, such as where the assets of two entities
are commingled and their operations intertwined” or
“where a corporate parent exercises complete domination over its subsidiary.” Mobil Oil Corp v. Linear
Films, Inc., 718 F. Supp. 260, 266 (D. Del. 1989). To
pierce the corporate veil under an alter ego theory, Delaware law requires a showing of fraud or similar injustice. Ace American, 255 F.R.D. at 196 (and cases cited
therein). While the “general principle of corporate law
‘deeply ingrained in our economic and legal systems” is
that “a parent corporation . . . is not liable for the acts
of its subsidiaries,” in exceptional circumstances plaintiffs may allege and ultimately prove that an alter ego
relationship exists, in which a corporate parent exercises total domination and control over its subsidiary,
that the corporation and its subsidiary “operated as a
single economic entity” so that “the corporation is little
more than a legal fiction,’ ” and the parent company
has fraudulent intent Blair v. Infineon Technologies
AG, 720 F. Supp. 2d 462, 469 (D. Del. 2010), quoting
United States v. Bestfoods, 524 U.S. 51, 61 (1998), and
citing Bd. of Tr. of Teamsters Local 863 Pensions Fund
v. Foodtown, Inc., 296 F.3d 164, 171 (3d Cir. 2002); Pearson v. Component Tech. Corp, 247 F.3d 471, 485 (3d Cir.
2001); and Mobil Oil Corp. v. Linear Films, Inc., 718
F. Supp. 260, 266 (D. Del. 1989) (“A subsidiary corporation may be deemed the alter ego of its corporate parent where there is a lack of attention to corporate
“Alter ego” is often used interchangeably with “disregarding the
corporate entity,” “piercing the corporate veil,” “instrumentality,”
and “agent.” Id.

App. 94
formalities, such as where the assets of two entities are
commingled and their operations intertwined. An alter
ego relationship might also lie where a corporate parent exercises complete domination and control over its
subsidiary.”). As a tool of equity, under Delaware law
“[t]he corporate fiction may be disregarded to prevent
fraud,” and a wholly-owned subsidiary may sometimes
be treated as an instrumentality of the parent. Buechner v. Farbenfabriken Bayer Aktiengesellschaft, 38 Del.
Ch. 490, 493 (Del. Ch. 1959).
The Third Circuit applies a “single entity test”
that considers seven factors in deciding generally
whether two or more corporations operated as a single
economic entity: (1) a corporation is grossly undercapitalized for the purposes of the corporate undertaking;
(2) a failure to observe corporate formalities; (3) the nonpayment of dividends; (4) the insolvency of the debtor
corporation at the time; (5) the siphoning of the corporation’s funds by the dominant stockholder; (6) the
nonfunctioning of other officers or directors; (7) the absence of corporate records; and (8) the fact that the corporation is merely a facade for the operations of the
dominant stockholder(s). Blair, 720 F. Supp. 2d at 47071, citing United States v. Pisani, 646 F.2d 83, 88 (3d
Cir. 1981) (approving the federal alter ego factors used
by the Fourth Circuit in DeWitt Truck Brokers, Inc. v.
W. Ray Flemming Fruit Co., 540 F.2d 681, 686-87 (4th
Cir. 1976) to determine whether it was appropriate
to pierce the corporate veil). “While no single factor
justifies a decision to disregard the corporate entity,”
some combination of these factors is necessary and “an

App. 95
overall element of injustice or unfairness must always
be present as well.” U.S. v. Golden Acres, Inc., 702
F. Supp. 1097, 1104 (D. Del. 1988), aff ’d sub nom.
Golden Acres, Inc. v. Sutton Place Corp., 879 F.2d 857
(3d Cir. 1989) (piercing the corporate veil where a subsidiary was undercapitalized, corporate formalities
were not observed, the subsidiary was insolvent, the
subsidiary did not pay dividends, and defendants were
siphoning funds from the subsidiary, using it as “an incorporated pocketbook”). Some of these seven factors
may be sufficient to show the requisite unfairness. Pisani, 646 F.2d at 88. The test does not require evidence
of actual fraud as a prerequisite for piercing the corporate veil. Trustees of Nat. Elevator Industry Pension,
Health Benefit and Educational Funds v. Lutyk, 332
F.3d 88, 194 (3d Cir. 2003).
In a narrowed application of the alter ego theory,
under Delaware law a court may “pierce the corporate
veil of a company where . . . it in fact is a mere instrumentality or alter ego of its owner” and the two operate
as a “single entity.” Fletcher v. Atex, Inc., 68 F.3d 1451,
1457 (2d Cir. 1995). To prevail on an alter ego claim, “a
plaintiff must show (1) that the parent and the subsidiary operated as a single economic entity and (2) that
an overall element of injustice or unfairness is present.” Id. For the first element, the plaintiff must allege
“exclusive domination and control . . . to the point that
[the subsidiary] no longer has legal or independent significance of its own.” Id., citing Wallace ex rel. Cencom
Cable Income Partners II, LP v. Wood, 752 A.2d 1175,
1183-84 (Del. Ch. 1999). That element incorporates the

App. 96
list of typical factors in the general corporate veilpiercing analysis: “whether the corporation was adequately capitalized for the corporate undertaking;
whether the corporation was solvent; whether dividends were paid, corporate records kept, officers and
directors functioned properly, and other corporate formalities were observed; whether the dominant shareholder siphoned corporate funds; and whether, in
general, the corporation simply functioned as a facade
for the dominant shareholder. In re Foxmeyer Corp.,
290 B.R. 229, 235 (Bankr. D. Del. 2003), citing Harco
National Ins. Co. v. Green Farms, Inc., CIV. A. No. 1131,
1989 WL 110537, at *4 (Del. Ch. Sept. 19, 1989), quoting Golden Acres, 702 F. Supp. at 1104. To satisfy the
second element the plaintiff must show fraud or injustice inherent “in the defendant’s use of the corporate
form”; however “[t]he underlying cause of action, at
least by itself, does not supply the necessary fraud or
injustice,” but is distinct from the tort alleged in the
suit. Id., citing In re Foxmeyer Corp., 290 B.R. 229, 236
(Bankr. D. Del. 2003); Sears, Roebuck & Co. v. Sears plc,
744 F. Supp. 1297, 1305 (D. Del. 1990). “ ‘To hold otherwise would render the fraud or injustice element
meaningless, and would sanction bootstrapping.’ ” Id.,
citing Mobil Oil, 718 F. Supp. at 268. To pierce the corporate veil, the corporate structure must cause the
fraud, and the fraud or injustice must be found in the
defendants’ use of the corporate form; the corporation
must be a fraud or a sham existing only for the purpose

App. 97
of serving as a vehicle for fraud. Foxmeyer, 290 B.R. at
236 (cases not cited).30

 In Skouras v. Admiralty Enterprises, Inc., 386 A.2d 674,
681 (Del. Ch. 1978), citing Buechner v. Farbenfabriken Bayer Aktiengesellschaft, 154 A.2d 684 (Del. Supr. 1959), and State ex rel.
Rogers v. Sherman Oil Co., 117 A. 122 (Del. Supr. 1922), the Delaware Court of Chancery emphasized that mere control and even
total ownership of one corporation by another is not sufficient to
warrant the disregard of a separate corporate entity under Delaware law: [a]bsent a showing of a fraud or that a subsidiary is in
fact the mere alter ego of the parent, a common central management alone is not a proper basis for disregarding separate corporate existence.” In accord, eCommerce Industries, Inc. v. MWA
Intelligence, Inc., C.A. No. 7471-VCP, 2013 WL 5621678, at *27
(Del. Ch. Oct. 4, 2013). In Skouras, the court found that the parent corporation’s “subsidiary corporations were so organized and
controlled and their affairs are so conducted as to make them
adjuncts or instrumentalities of the defendant company,” and
it listed factors that might be considered in determining whether
a parent corporation is liable for the wrongdoing of a subsidiary because they operated as a single economic unit, including whether
all of the subsidiary corporations were engaged in the
same general business as the parent; the parent owned
all of the shares . . . of the subsidiaries; all the members
of the boards of directors of . . . the subsidiary corporations were also directors of defendant, and a majority
of members of the boards of the remaining . . . subsidiaries were directors of defendant. Furthermore, the
books of the subsidiaries were not in defendant’s possession, custody, or control. Upon determining that the
separate subsidiary corporations had been formed for
fraudulent purposes, this court granted plaintiffs’ demand for inspection of the books of defendant’s subsidiaries. . . .
Id. at 681.
30

App. 98
Plaintiffs have failed to allege any of these kinds
of facts to warrant disregarding the corporate forms of
PW and Warburg.
V. [sic] Stock Broker Standards
At issue in this case is whether PW, in its brokerage relationship with the investor participants in the
Enron Stock Option program, had a fiduciary duty to
disclose material information about Enron’s fraudulent activities and financial decline to its investor retail clients purchasing or holding Enron securities or
debt.
Firms in the securities market operate in three
main capacities: broker, broker-dealer, and investment
advisor. Thomas Lee Hazen, “Are Existing Stock Broker Standards Sufficient?,” 2010 Colum. Bus. L. Rev.
710, 730 (2010).
A “broker” is defined in Black’s Law Dictionary
(6th ed. West 1990) as, “An agent employed to make
bargains and contracts for compensation. A dealer in
securities issued by others. . . . An agent of a buyer or
seller who buys or sells stocks, bonds, commodities, or
services, usually on a commission basis.” See also
Rauscher Pierce Refsnes, Inc. v. Great Southwest Sav.,
F.A., 923 S.W. 2d 112, 115 (Tex. App.--Houston [14th
Dist.] 1996) (“The relationship between a broker and
its customer is that of principal and agent.”). Under
the Exchange Act, 15 U.S.C. § 78c(a)(4)(A), a broker is
“any person engaged in the business of effecting transactions in securities for the account of others.”

App. 99
A “broker-dealer” is defined as a “securities brokerage firm, usually registered with the S.E.C. and with
the state in which it does business, engaging in the
business of buying and selling securities to or for customers.” Black’s Law Dictionary (6th ed. West 1990).31
There is no explicit fiduciary standard applicable to
broker-dealers under the Exchange Act,32 but when
they do more than act as order takers for their clients’
transactions, they must meet other standards, including of suitability in making investment recommendations to their clients, and they must satisfy the rules of
the self-regulatory organizations (“SROs”), including
national securities exchanges and the Financial Industry Regulatory Authority (“FINRA,” the self-regulatory
 Under the Exchange Act a “dealer” is a person who engages in “the business of buying and selling securities . . . for such
person’s own account,” and not as part of a regular business. 15
U.S.C. § 78c(a)(5)(A). The term broker-dealer includes persons
who act as brokers, dealers, or both brokers and dealers. Tuch,
Self-Regulation, 83 Geo. Wash. L. Rev. at 117. In the context of
securities offerings, an investment banker plays two roles: it
counsels the corporate issuer and, if it underwrites the offering
on a firm-commitment basis, commits to acquiring the issuer’s securities, and it sells those securities to investors. Id. at 114-15.
Investment banks are correctly designated as broker-dealers, as
evidenced by FINRA rules and the SEC’s Guide to Broker-Dealer
Registration. Id. at 118. In particular they qualify as brokers
where they advise on security offerings, are involved in the sale
or exchange of securities and receive fees for that service, negotiate between the issuer and the investor, and counsel on structuring transactions. Id. at 118-20.
32
 Section 913(g) of the Dodd-Frank Wall Street Reform and
Consumer Protection Act of 2010, Pub. L. No. 111-203, 124 Stat.
at 1827-28, gives the SEC rulemaking authority to impose a fiduciary duty on broker-dealers, but it has not done so.
31

App. 100
body for broker-dealers) that oversee them. Thomas
Lee Hazen, “Fiduciary Obligations of Securities Brokers,” 5 Law Sec. Reg. § 14:133 (March 2016 update).
Thus while a broker owes his investor-client a fiduciary duty, that duty varies in scope with the nature
of their relationship, and determining that nature requires a fact-based analysis. Romano v. Merrill Lynch,
Pierce, Fenner & Smith, 834 F.2d 523, 520 [sic] (5th Cir.
1987), cert. denied, 487 U.S. 1205 (1988). The nature of
the account, whether nondiscretionary or discretionary, is one factor to be considered, as are the degree of
trust placed in the broker and the intelligence and
qualities of the customer. Id. A broker’s duty is usually
restricted to executing the investor’s order when “the
investor controls a nondiscretionary account and retains the ability to make investment decisions.”33 Romano, 834 F.2d at 530; Martinez Tapia v. Chase
Manhattan Bank, N.A., 149 F.3d 404, 412 (5th Cir.
1998).
When investors “lack the time, capacity, or knowhow to supervise investment decisions” and “delegate
authority to a broker who will make decisions in their
best interests without prior approval” in a discretionary account, however, there well may be a duty to
 On the other hand, where the broker’s duty simply consists
of bringing parties together so they can negotiate a sale by themselves, he is merely a middleman and not necessarily an “agent”
of any. Rauscher, 923 S.W. 2d at 115. The question whether an
agency relationship exists is usually a question of fact. Coleman
v. Klockner & Co., 180 S.W. 3d 577, 587 (Tex. App.--Houston [14th
Dist.] 2005).
33

App. 101
disclose. Town North Bank, N.A. v. Shay Financial Services, Inc., Civ. A. No. 3:11-CV-3125-L, 2014 WL
4851558, at *17 (N.D. Tex. Sept. 30, 2014), citing Martinez Tapia, 149 F.3d at 412,34 and SEC v. Zandford,
535 U.S. 813, 823 (2002). Under Texas law,
In a non-discretionary account, the agency relationship begins when the customer places
the order and ends when the broker executes
it because the broker’s duties in this type of
account, unlike those of an investment advisor or those of a manager of a discretionary
account, are “only to fulfill the mechanical,
ministerial requirements of the purchase or
sale of the security. . . .” As a general proposition, a broker’s duty in relation to a nondiscretionary account is complete, and his authority
ceases, when the sale or purchase is made and
the receipts therefrom accounted for. Thus,
each new order is a new request that the proposed agent consents to act for the principal.
There is no on-going agency relationship as
there would be with a financial advisor or
manager of a discretionary account.
Hand v. Dean Witter Reynolds, Inc., 889 S.W. 2d 483,
493-94 (Tex. App.--Houston [14th Dist.] 1994, writ denied) (citations omitted).

 Citing Hill v. Bache Halsey Stuart Shields, Inc., 790 F.2d
817, 825 (11th Cir. 1986) (“fiduciary duty in the context of brokerage relationship is only an added degree of responsibility to carry
out pre-existing, agreed-upon tasks properly”); Limbaugh v. Merrill Lynch Pierce, Fenner & Smith, 732 F.2d 859, 862 (11th Cir.
1984) (“duty owed by the broker was simply to execute the order”).
34

App. 102
In a discretionary investment account, in contrast
to a nondiscretionary account, a broker is a “fiduciary
of his customer in a broad sense” and is required to
(1) manage the account in a manner directly
comporting with the needs and objectives of
the customer as stated in the authorization
papers or as apparent from the customer’s investment and trading history; (2) keep informed regarding the changes in the market
which affect his customer’s interest and act
responsively to protect these interests; (3) keep
his customer informed as to each completed
transaction; and (4) explain forthrightly the
practical impact and potential risks of the
course of dealing in which the broker is engaged.
Anton v. Merrill Lynch, 36 S.W. 3d 251, 257-58 (Tex.
App.--Austin 2001, rev. denied) (citations omitted, emphases added in Anton), quoting Leib v. Merrill Lynch,
Fenner & Smith, Inc., 461 F. Supp. 951, 953 (E.D. Mich.
1978), aff ’d, 647 F.2d 165 (6th Cir. 1981).35
Although there is no statutorily mandated heightened pleading of fiduciary duty for brokers, Thomas
Lee Hazen, a noted scholar in the field, points out that
 Also cited by other courts in the Fifth Circuit, e.g., In re
Rea, 245 B.R. 77, 88, 89-90 (N.D. Tex. 2000); Puckett v. Rufenacht,
Bromagen & Hertz, Civ. App. No. H-88-0035(W), 1989 WL 265340,
at *5 (S.D. Miss. May 31, 1989), aff ’d in part by 903 F.2d 1014
(5th Cir. 1990), amended by 919 F.2d 992 (1990) [sic], certified
question (“What duty of care under Mississippi law does a commodities broker owe to commodities customers in a nondiscretionary account?”), answered by 587 So. 2d 273 (Miss. 1991).
35

App. 103
“there is plenty of authority under the existing law
that recognizes heightened obligations of securities
broker-dealers, at least when they are acting in a capacity beyond that of mere order taker. . . . The law, regulations, and regulatory interpretations to date make
clear that broker-dealers have fiduciary or fiduciarylike obligations when they provide services beyond executing customer orders.” Hazen, “Are Existing Stock
Broker Standards Sufficient?,” 2010 Colum. Bus. L.
Rev. 710, 713-14 (2010). These legal sources include the
Investment Advisers Act of 1940, regarding which the
Supreme Court has held that, even though the word
“fiduciary” does not appear in the statute, investment
advisers are fiduciaries to their clients and must meet
the fiduciary duties of care and loyalty, i.e., they must
[sic] “must fully disclose material facts about prospective investments . . . [and] all conflicts of interests
when giving advice.” Id. at 716, citing SEC v. Capital
Gains Research Bureau, 375 U.S. 180, 191-92 (1963). A
fundamental purpose common to a number of statutes
enacted in the 1930’s, including the Investment Advisers Act and the 1934 Act, “was to substitute a philosophy of full disclosure for the philosophy of caveat
emptor and thus to achieve a high standard of business
ethics in the securities industry.” SEC v. Capital Gains
Research Bureau, 375 U.S. at 186.
The Investment Advisers Act of 1940, 15 U.S.C.
§ 80b-2(a)(11), however, defines “investment adviser”
in relevant part as follows:
“Investment adviser” means any person who,
for compensation, engages in the business of

App. 104
advising others, either directly or through
publications or writings, as to the value of securities or as to the advisability of investing
in, purchasing, or selling securities, or who, for
compensation and as part of a regular business, issues or promulgates analyses or reports concerning securities, but does not
include . . . (C) any broker or dealer whose
performances of such services is solely incidental to the conduct of his business as a broker or dealer and who receives no special
compensation therefor. . . .
The Court concludes from the allegations in the complaint and the lack of mention of any special compensation for PW’s advice to its retail clients that PW does
not qualify as an investment advisor under subsection
(C). See, e.g., Banca Cremi, S.A. v. Alex. Brown & Sons,
Inc., 132 F.3d 1017, 1039 (4th Cir. 1997) (“In this case,
it is clear that, to the extent that Epley and Alex.
Brown provided ‘investment advisory services,’ such
services were “ ‘solely incidental to the conduct of business as a broker dealer’ ” and “the Bank was not an ‘advisory client’ of the defendants.”). The complaint states
that PW did not charge Enron any fee to administer
the Employee Stock Option program, and charged the
employees merely six cents per share to exercise their
options, apparently an administrative charge for effecting the transaction. #122 ¶ 67.
Furthermore the Supreme Court has held that
private rights of action under the Investment Advisers
Act of 1940 are restricted to suits for equitable relief
for rescission of investment adviser contracts and

App. 105
restitution under section 215; damages are not available. Transamerica Mortg. Advisors, Inc. v. Lewis, 444
U.S. 11 (1979). “ ‘[T]he rescinding party may have restitution of the consideration given under the contract,
less any value conferred by the other party.’ ” Douglass
v. Beakley, 900 F. Supp. 2d 736, 745 (N.D. Tex. 2012),
citing Transamerica Mortg. Advisors, 444 U.S. at 18-24.
The SEC may enforce the Act by obtaining an injunction mandating that a registered investment adviser
disclose to his clients any of the adviser’s violations of
his duties under the Act. Capital Gains, 375 U.S. at
181.36
 As the Fifth Circuit observed in Laird v. Integrated Resources, Inc., 897 F.2d 826, 833-37 (5th Cir. 1990), “Other circuits
understand the investment adviser’s fiduciary status to require
disclosure of any conflicts of interest for the purpose of assessing
liability under rule 10(b)-5.” Id., citing and discussing SEC v.
Blavin, 760 F.2d 706, 711-12 (6th Cir. 1985) (“As a fiduciary, the
standard of care to which an investment adviser must adhere imposes ‘an affirmative duty of ‘utmost good faith, and full and fair
disclosure to all material facts,’ as well as an affirmative obligation to ‘employ reasonable care to avoid misleading’ his clients.”)
(citing Capital Gains), and Zweig v. Hearst Corp., 594 F.2d 1261,
1267-68 (9th Cir. 1979) (addressing section 206(1) and (2) (“It
shall be unlawful for any investment adviser, by use of the mails
and any means or instrumentality of interstate commerce, directly or indirectly (1) to employ any device, scheme, or artifice to
defraud any client or prospective client; (2) to engage in any transaction, practice, or course of business which operates as a fraud
or deceit upon any client or prospective client. . . .”), which tracks
the language in Rule 10b-5, of the Investment Advisers Act, as
amended 15 U.S.C. § 80b-6(1,2), as analogous to § 10(b) and Rule
10b-5 of the Securities Exchange Act) (“The plaintiffs here do not
argue that Campbell was an investment adviser as defined in the
statute; thus Capital Gains is not controlling. But the failure to
bring the case within the Investment Advisers Act does not mean
36

App. 106
Relevant to the determination whether brokerdealers have fiduciary or fiduciary-like obligations
when they provide services beyond executing customer
orders are SEC rules, particularly those addressing
“(a) conflicts between the firm’s obligations to its customers and its own financial interests, and (b) trading
in or recommending securities in the absence of adequate information about the issuer,” made pursuant
to the general anti-fraud provisions of sections 10(b),
15 U.S.C. § 78j(b), and 15(c), 15 U.S.C. § 78o(c), of the
1934 Act, section 17(a) of the Securities Act of 1933, 15
U.S.C. § 77q(a),37 and section 206 of the Investment
that the claim under Section 10(b) and Rule 10b-5 should fail. We
hold that as applied to the facts we must assume in this case, the
Investment Advisers Act was not meant to limit the Securities
Exchange Act or Rule 10b-5. Instead, we believe these provisions
complement each other and provide different means to curb
slightly different types of ‘fraud or deceit.’ . . . A number of cases
since Capital Gains suggest that Rule 10b-5 requires the disclosure of conflicts of interests in situations similar to the facts of this
case.”).
37
 Section 77q(a), addressing “Use of interstate commerce for
purpose of fraud or deceit, states,
It shall be unlawful for any person in the offer or sale
of any securities (including security-based swaps) or
any security-based swap agreement (as defined in section 78c(a)(78) of this title) or by use of any means or
instruments of transportation or communication in interstate commerce or by use of the mails, directly or indirectly
(1) to employ any device, scheme, or artifice to
defraud, or
(2) to obtain money or property by means of any
untrue statement of a material fact or any omission to state a material fact necessary in order to

App. 107
Advisers Act, described supra. Hazen, “Are Existing
Stock Broker Standards Sufficient?,” 2010 Colum. Bus.
L. Rev. at 722.
In the late 1930’s, Congress amended the Exchange Act to authorize self-regulatory organizations
for broker dealers. See, e.g., Andrew F. Tuch, The SelfRegulation of Investment Bankers, 83 Geo. Wash. L.
Rev. 101, 112 & n.50 (December 2014), citing Securities
Exchange Act of 1934, Pub. L. No. 73-291, 48 Stat. 8881
(codified as amended at 15 U.S.C. §§ 78a-78pp (2012)).
Hazen particularly highlights the SEC and FINRA
[formed in 2007 to replace the National Association of
Securities Dealers (“NASD”)] regulations38 as sources
of fiduciary-like duties. Id. at 733-55. Sections 6(b)(5)
and 15A(b)(6) of the Securities Exchange Act require
stock exchanges and associations of brokers and securities dealers to establish rules to protect the investing
public from fraudulent and manipulative practices in
the securities market. 15 U.S.C. § 78o-3(b)(6). In response, a number of national exchanges and SROs
have adopted “suitability rules” for brokers. The NASD
adopted Rule 2310(a), which provides,
make the statements made, in light of the circumstances under which they were made, not misleading; or
(3) to engage in any transaction, practice, or
course of business which operates or would operate as a fraud or deceit upon the purchaser.
38
 For example, Article III, NSAD [sic] Rules of Fair Practice,
NASD Manual (CCH) ¶ 2151 provides, “A member, in the conduct
of his business, shall observe high standards of commercial honor
and just and equitable principles of trade.”

App. 108
In recommending to a customer the purchase,
sale or exchange of any security, a member
shall have reasonable grounds for believing
that the recommendation is suitable for such
customer upon the basis of the facts, if any,
disclosed by such customer as to his other
security holdings and as to his financial situation and needs.” This is the so-called “suitability rule,” and its purpose is to protect
unsophisticated investors of publicly-held corporations from the sometimes devious practices of unscrupulous securities transactions
experts.
The NYSE adopted a similar, “know your customer
rule,” NYSE Rule 405(a), which requires the officers of
member organizations to “use diligence to learn essential facts relative to every customer, every order, every
cash or margin account accepted or carried by such organization.” Generally regulatory rules of conduct do
not provide a private right of action for individual investors, but are for actions brought by the SEC or state
regulatory investors. As a result, aggrieved individual
investors must frame their securities complaints as
claims under § 10(b) of the Exchange Act and Rule 10b5. Steven D. Irwin, Scott A. Lane, and Carolyn W. Mendelson, Wasn’t My Brother Always Looking Out For My
Best Interests? The Road to Become a Fiduciary, 12 Duquesne Bus. L. J. 41,44-45 (Winter 2009) (“In itself, the
regulatory violation does not state an independent
claim for economic relief in a civil proceeding for the
investor who suffered a loss at the hands of a broker
who has made an unsuitable trade recommendation.

App. 109
Instead, the aggrieved investor must state a valid
claim under Rule 10b-5. The plaintiff must allege, in
connection with the purchase or sale of securities, the
misstatement or omission of a material fact, made with
scienter, upon which the plaintiff justifiably relied and
which proximately caused the plaintiff ’s injury.”).
Hazen comments regarding violations of NYSE,
FINRA or NASD rules that “it is generally held that
violation of a rule or a self regulatory organization will
not, by itself, support a private right of action. However, a violation of an exchange or FINRA rule can
form the basis of a 10b-5 action, provided of course,
that all of the elements of a 10b-5 claim can be established.” “Market Regulation: Broker-Dealer Regulation; Credit Rating agencies,” 5 Law Sec. Reg. § 14:175
(updated March 2016). The courts are split in a variety
of ways over whether a private right of action exists for
violations of such rules and regulations.
The Fifth Circuit has deliberately chosen not to
decide whether rules for brokers established by national exchanges and SROs, such as the NASD suitability rule or the NYSE “know your customer rule,”
provide a private cause of action for individual investors, but has found that they may be used as evidence
of industry standards and practices. Miley v. Oppenheimer & Co., Inc., 637 F.2d 318, 333 (5th Cir. 1981) (en
banc) (in a churning case “NYSE and NASD rules are
excellent tools against which to assess in part the reasonableness or excessiveness of a broker’s handling of
an investor’s account,” the other five factors being the
nature and objectives of the account, the turnover rate,

App. 110
in-and-out trading, the holding period of the respective
securities, and the broker’s profit), abrogated on other
grounds, 470 U.S. 213 (1985).
The Securities Exchange Act has no express civil
remedy for a violation of an exchange or association
rule. In a seminal opinion in Colonial Realty v. Bache
and Co., 358 F.2d 178, 181 (2d Cir. 1965), cert. denied,
385 U.S. 817 (1966), in which a client sued his brokerdealer for failure to conduct its dealings in accordance
with just and equitable principles of trade in violation
of NYSE and NASD rules, Judge Henry J. Friendly
opined that since a private remedy is not expressly
stated in the 1934 Act, the finding of an implied private
cause of action should be based on the court’s duty to
effect Congress’s purpose in the statute and the federal
policy it has adopted. A court may find an implied right
of action under the Securities Exchange Act where
there is explicit condemnation of certain conduct in the
statute and when the statute provides a general grant
of jurisdiction to enforce liability. Id. Judge Friendly
concluded that there could be no general rule as to
when a private claim can be maintained for a violation
of NYSE and NASD rules because “the effect and significance of particular rules may vary with the manner
of their adoption and their relationship to provisions
and purpose of the statute and SEC regulations thereunder.” An implied action may arise from the protection intended by the legislature and the ineffectiveness
of existing administrative and judicial remedies to accomplish. The court must examine the nature of the
specific rule and its role in the regulatory scheme, with

App. 111
the party seeking to impose liability bearing a heavier
burden of persuasion than the violation of the statute
or of [sic] an SEC regulation would require. Id. at 182.
Judge Friendly concluded, “The case for implication of
liability would be strongest when the rule imposes an
explicit duty unknown to the common law.” Id. Judge
Friendly found that a private cause of action may exist
under section 6 of the 1934 Act, which requires a securities association like the NASD to adopt disciplinary
rules. Id. [sic] 181-83. He found an implied cause of action where the rule that was violated either constituted a substitute for an SEC regulation and where the
rule that was violated established an explicit duty unknown to the common law. Id. at 182.
As indicated in Miley, the Fifth Circuit has been
hesitant to recognize a private cause of action based
only on a violation of a NYSE or NASD rule. See also
Porter v. Shearson Lehman Bros., Inc., 802 F. Supp. 41,
61 (S.D. Tex. 1992), in which the Honorable Ewing Werlein, noting Judge Friendly’s opinion, emphasized that
the 1934 Act “did not specifically authorize actions for
violation of private associations rules,” including the
“suitability” rule of NASD, which “requires generally
that a broker recommend a purchase or sale only after
determining that the recommendation is suitable to
the customer, and that he use due diligence to learn
essential facts regarding the customer. . . . Congress
could not have meant that NASD should be given the
authority to define new crimes.” Observing that district courts within the Fifth Circuit were split about
whether an implied cause of action may be based on

App. 112
the NASD or stock exchange rules, Judge Werlein observed that in Miley and in Jolley v. Welch, 904 F.2d
988, 993 (5th Cir. 1990), cert. denied, 498 U.S. 1050
(1981) [sic], the Fifth Circuit permitted the NYSE and
NASD rules to be considered as one of six factors in
determining an element of an excessive trading violation (churning), but not as a private cause of action.
Porter, 802 F. Supp. at 62-63. See also Lange v. H. Hentz
& Co., 418 F. Supp. 1376 (N.D. Tex. 1976) (NASD rules
are evidence of the standard of care NASD members
should provide and are admissible in determining the
question what fiduciary duties are owed by a broker to
his investor).
In 1988 Congress passed Section 15(f ) of the
Exchange Act, 15 U.S.C. § 78o(f ),39 and Section 204A
of the Investment Advisers Act, 15 U.S.C. § 8ob-4a
[sic],40 which require broker-dealers and investment
 Section 78o(f ) provides,
Every registered broker or dealer shall make appropriate rules or regulations about these policies and procedures. See 17 C.F.R. §§ 230.37, 230.138, 230.139. Thus
an investment bank is required to erect a Chinese wall
between its securities analysts’ research department
and its divisions providing commercial banking, underwriting, or other services to issuers of securities to
prevent information from the latter influencing the former.
40
 Section 204A of the Investment Advisers Act, 15 U.S.C.
§ 8ob-4a [sic] (“Prevention of misuse of nonpublic information”)
provides,
Every investment adviser subject to section 80b-4 of
this title shall establish, maintain, and enforce written
policies and procedures reasonably designed, taking into
consideration the nature of such investment adviser’s
39

App. 113
advisers to establish, maintain, and enforce written
policies and procedures reasonably designed to preclude unlawful use of material nonpublic information.
Federal common law has also imposed fiduciary
duties in federal securities cases. For example, because
a brokerage relationship is a principal/agent relationship, some courts have found fiduciary duties that generally accompany such a relationship, including that
“the broker must act in the customer’s best interests
and must refrain from self-dealing unless the customer
consents after full disclosure.” Hazen, “Are Existing
Stock Broker Standards Sufficient?,” 2010 Colum. Bus.
L. Rev. at 736-37 & n.127. When a broker recommends
securities or transactions, heightened duties have been
found to apply that parallel those under the Investment Advisers Act that arose from judicial interpretation. Id. at 738.
Under the “shingle theory” of the common law, “by
hanging up a shingle, a broker implicitly represents

business, to prevent the misuse in violation of this
chapter of the Securities Exchange Act of 1934 [15
U.S.C.A. § 78a et seq.], or the rules and regulations
thereunder, of material nonpublic information by such
investment adviser. The Commission, as it deems necessary or appropriate in the public interest or for the
protection of investors, shall adopt rules or regulations
to require specific policies or procedures reasonably designed to prevent misuse in violation of this chapter or
the Securities Exchange Act of 1934 [15 U.S.C.A. § 78a
et seq.] (or the rules or regulations thereunder) of material nonpublic information.

App. 114
that he or she will conduct business in an equitable
and professional manner.” Id. at 749, 738-39 [sic]. As
an extension of the common law doctrine of “holding
out,” it has been long and well established that “a securities broker occupies a special position of trust and
confidence with regard to his or her customer when
making a recommendation, and that any recommendation of a security carries with it an implicit representation that the broker has an adequate basis for the
recommendation.” Id. at 750-51, citing Hanly v. SEC,
415 F.2d 589, 506 [sic] (2d Cir. 1969).
As another basis for enforcing suitability, the
“shingle theory” holds that the SEC and self-regulatory
rules require broker-dealers to adhere to standards of
fair and equitable principles of trade and that breach
of the implied representation that a broker will deal
fairly with the public [even at arm’s length] will be actionable in a private action under the securities laws
only if a plaintiff customer can show a causal relationship between the alleged breach and injury to the
plaintiff; a breach of fiduciary duty, alone, does not violate federal securities laws. Id. at 750, citing Charles
Hughes & Co. v. SEC, 139 F.2d 434 (2d Cir. 1943), cert.
denied, 321 U.S. 786 (1944). Nevertheless, the Court
has been unable to find a single Texas case, no less a
case in the Fifth Circuit, that applies the shingle theory, so presumably it has not been adopted in Texas.
“[A]ccountability for the implied representations
that may arise out of a fiduciary duty will not violate
the securities laws’ antifraud provisions in the absence
of showing that the defendant acted with the requisite

App. 115
scienter.” Thomas Lee Hazen, “Fiduciary Obligations
of Securities Brokers,” 5 Law Sec. Reg. § 14:133 (updated March 2016), citing In the Matter of Michael
Flanagan, Ronald Kindschi, and Spectrum Administration, Inc., Release No. 160, Release No. ID-160, 71
SEC Docket 1415, 2000 WL 98210, *24 (S.E.C. Release
No. 2000). The SEC also directs attention to the “basic
principle” that by holding itself out as a broker-dealer,
“a firm is representing that it will act in the customer’s
best interests.” Id. & n.57 (and cases cited therein).
In addition, “[e]ven in the context of federal claims
against a broker-dealer, the federal courts may look to
state law to determine whether a fiduciary duty existed.” Hazen, “Are Existing Stock Broker Standards
Sufficient?,” 2010 Colum. Bus. L. Rev. at 740, citing
Press v. Chem. Inv. Servs. Corp., 166 F.3d 529, 536 (2d
Cir. 1999) (finding no fiduciary duty under New York
common law for 10b-5 claims relating to mark-ups);
SEC v. Pasternak, 561 F. Supp. 2d 459, 499 (D.N.J.
2008) (“To determine the existence of a fiduciary relationship in federal securities fraud actions, district
courts generally look to state law.”). Hazen concludes
that the “apparent majority of cases applying state
common law” found that although “there is no blanket
fiduciary relationship between a broker-dealer and a
client as a matter of law,” certain circumstances “can
suffice to create a fiduciary duty,” especially when the
broker holds itself out as having investment expertise
and the customer places faith, confidence, and trust in
the broker. Id. at 741-46. Even where there is no discretionary account, the degree to which the broker

App. 116
cultivates a degree of trust and confidence in the customer affects the obligations that the broker has to the
customer. Id. at 748. Among the duties that may be
owed by a broker to a customer in a non-discretionary
account41 are “the duty to recommend a stock only after
studying it, sufficiently to become informed as to its
nature, price and financial prognosis,” “the duty to inform the customer of the risks involved in purchasing
or selling a particular security,” “the duty to refrain
from self-dealing or refusing to disclose any personal
interest the broker may have in a particular recommended security,” and “the duty not to misrepresent
any fact material to the transaction.” Id. at 748-49, citing Leib v. Merrill Lynch, Pierce, Fenner & Smith, Inc.,
461 F. Supp. 951, 953 (E.D. Mich. 1978) (and cases cited
therein).
The Texas Supreme Court has opined that “the
term ‘fiduciary’ is derived from the civil law and contemplates fair dealing and good faith, rather than legal
obligation, as the basis of the transaction. Further, that
term includes those informal relations which exist
whenever one party trusts and relies upon another, as
well as technical fiduciary relations.” Texas Bank and
Trust Co. v. Moore, 595 S.W. 2d 502, 507 (1980), citing
Kinzbach Tool, Inc. v. Corbett-Wallace Corp., 138 Tex.
565, 160 S.W. 2d 509 (1942). The Supreme Court in
 A nondiscretionary account is one in which the customer
must approve all transactions before they are effected. Hand v.
Dean Witter Reynolds, Inc., 889 S.W. 2d 483, 492 (Tex. App.--Houston [14th Dist.] 1994, writ denied). A discretionary account is one
in which the broker makes the investment decisions and manages
the account. Id.
41

App. 117
Texas Bank quoted the Illinois Supreme Court in Higgins v. Chicago Title & Trust Co., 312 Ill. 11, 18, 143
N.E. 482, 484 (1924),
A fiduciary relation is not limited to cases of
trustee and cestui que trust, guardian and
ward, attorney and client, nor other recognized legal relations, but it exists in all cases
in which influence has been acquired and
abused, in which confidence has been reposed
and betrayed, and the origin of the confidence
is immaterial, and may be moral, social, or domestic or merely personal.
Moreover, “a fiduciary relationship exists when the
parties are ‘under a duty to act for or give advice for
the benefit of another upon matters within the scope of
the relation.’ It exists where a special confidence is reposed in another who in equity and good conscience is
bound to act in good faith and with due regard to the
interests of the one reposing confidence.’ ” Id., quoting
Lappas v. Barker, 375 S.W. 2d 248, 251 (Ky. 1964). “The
problem is one of equity and the circumstances out of
which a fiduciary relationship will be said to arise are
not subject to hard and fast lines.” Id. at 508.
In Texas, to state a claim for breach of fiduciary
duty, the plaintiff must plead “(1) a fiduciary relationship between the plaintiff and defendants; (2) the defendant must have breached his fiduciary duty to the
plaintiff; and (3) the defendant’s breach must result in
injury to the plaintiff or benefit to the defendant.” Billitteri v. Securities America, Inc., No. 09-CV-1568-F,
2010 WL 6785484, *9 (N.D. Tex. July 26, 2010), citing

App. 118
Jones v. Blume, 196 S.W. 3d 440, 447 (Tex. App.--Dallas
2006, pet. denied). Texas law recognizes two types of
fiduciary duty, a formal relationship arising as a matter of law, and an informal relationship, where there is
a close personal relationship of trust and confidence.
Navigant Consulting, Inc. v. Wilkinson, 508 F.3d 277, 283
(5th Cir. 2007); Willis v. Donnelly, 199 S.W. 3d 262, 277
(Tex. 2006). The latter arises from a “moral, social, domestic, or purely personal relationship of trust and
confidence.” Meyer v. Cathey, 167 S.W. 3d 327, 331 (Tex.
2005); Thigpen v. Locke, 363 S.W. 2d 247, 253 (Tex.
1962). “The existence of the fiduciary relationship is to
be determined from the actualities of the relationship
between the persons involved.” Thigpen, 363 S.W. 2d at
253.
Under Texas law the formal relationship between
a broker and its customer is one of principal and agent.
Rauscher Pierce Refsnes, Inc. v. Great Southwest Savings, F.A., 923 S.W. 2d 112, 115 (Tex. App.--Houston
[14th Dist.] 1996), citing Magnum Corp. v. Lehman
Bros. Kuhn Loeb, Inc., 794 F.2d 198, 200 (5th Cir. 1986)
(“The relationship between a securities broker and its
customer is that of principal and agent. . . . The law
imposes upon the broker a duty to disclose to the customer information that is material and relevant to the
order.”). The relationship between an agent and a principal is a fiduciary relationship under Texas law. West
v. Touchstone, 620 S.W. 2d 687, 690 (Tex. Civ. App.--Dallas 1981), citing Restatement (Second) of Agency § 1
(1958). Nevertheless that fiduciary relationship is a
narrow one, starting with and restricted to the scope of

App. 119
the agency. Hand v. Dean Witter Reynolds, Inc., 889
S.W. 2d 483, 492 (Tex. App.--Houston [14th Dist.]
1994, writ denied). As with federal law, under Texas
law “[i]n a non-discretionary account, the agency relationship begins when the customer places the order
and ends when the broker executes it, because the broker’s duties in this type of account, unlike those of an
investment advisor or those of a manager of a discretionary account, are ‘only to fulfill the mechanical, ministerial requirements of the purchase or sale of the
security or future[s] contracts on the market. As a general proposition, a broker’s duty in relation to a nondiscretionary account is complete and his authority
ceases, when the sale or purchase is made and the receipts therefrom accounted for.” Id. [sic] 493-94, citing
Robinson v. Merrill Lynch, Pierce, Fenner & Smith, Inc.,
337 F. Supp. 107, 111 (N.D. Ala. 1971), aff ’d, 453 F.2d
417 (5th Cir. 1972). In Rauscher, 923 S.W. 2d at 115 (citations omitted), the Fourteenth Court of Appeals explains,
An agent is one who consents to act on behalf
of, and subject to, the control of another, the
principal, who has manifested consent that
the agent shall so act. Agency is a consensual
relationship, and the agency or broker/customer
relationship does not come into existence until the order has been placed and the broker
has consented to execute it. . . . If a broker, under his contract with his principal, is charged
with no responsibility and is not obligated to
exercise any discretion, but his duty consists
of merely bringing the parties together so that

App. 120
between themselves, they may negotiate a
sale, and the sale is made in that manner, the
broker is considered a mere “middleman” and
is not necessarily the “agent” of either party.
The Restatement (Third) of Agency § 1.01 (2006) defines “agency” as follows: “Agency is the fiduciary relationship that arises when one person (a ‘principal’)
manifests assent to another person (an ‘agent’) that
the agent shall act on the principal’s behalf and subject
to the principal’s control, and the agent manifests assent or otherwise consents so to act.” An innate duty of
good faith and fair dealing, honest performance, and
strict accountability is owed by an agent to his principal, and is required in every transaction on behalf of
the principal. Vogt v. Wamock, 107 S.W. 3d 778, 782
(Tex. App.--El Paso 2003, pet. denied), citing Sassen
v. Tanglegrove Townhouse Condominium Ass’n, 877
S.W. 2d 489, 492 (Tex. App.--Texarkana 2001, pet. denied).
Nevertheless, under Texas law, to impose an informal fiduciary duty in a business transaction, “the special relationship of trust and confidence must exist
prior to and apart from the agreement that formed the
basis of the suit.” Aubrey v. Barlin, ___ F. Supp. 3d ___,
No. 1:10-CV-00076-DAE, 2016 WL 393551, at *7 (W.D.
Tex. Feb. 1, 2016), citing Meyer v. Cathey, 167 S.W. 3d
327, 331 (Tex. 1998). “[T]he fact that a business relationship has been cordial and of extended duration is
not by itself evidence of a confidential relationship.”
Floyd v. CIBC World Market, Inc., 426 B.R. 622, 651
(S.D. Tex. 2009), quoting Lexington Ins. Co. v. North

App. 121
Am. Interpipe, Inc., Civ. A. No. H-08-3589, 2009 WL
1750523, at *3 (S.D. Tex. June 19, 2009). Whether a fiduciary duty exists is a question of law for the court.
Fuqua v. Taylor, 683 S.W. 2d 735, 737 (Tex. App.--Dallas 1984, writ ref ’d n.r.e.). The facts giving rise to a fiduciary duty, however, are to be determined by the fact
finder. Id. at 737-38. Texas courts do not create a fiduciary relationship lightly. Schlumberger Tech. Corp. v.
Swanson, 959 S.W.2d 171, 177 (Tex. 1997); Meyer, 167
S.W.3d at 331.
V. [sic] Allegations of the Third
Amended Complaint (#122)
Each of the eight named Lead Plaintiffs purchased
or held Enron equity securities and/or acquired stock
options to purchase Enron securities in his [or her] PW
account “in reliance on the information provided to
him [or her] and absence of information withheld from
him” by PW during the Class Period. #122, ¶¶ 5-12.
Plaintiffs contend that UBS owed them a duty of disclosure but failed to disclose material information
within its knowledge, gained by its participation with
Enron in creating a false public characterization of Enron’s financial condition throughout the 1934 Act Class
Period, in order to maximize its earnings from Enron
at the expense of and in conflict with the interests of
its retail clients who were purchasing, acquiring
and/or holding Enron securities.42
 Plaintiffs identify as alleged undisclosed conflicts of interest the following matters (see #122 ¶¶ 209-22). UBS, like many
42

App. 122
Plaintiffs allege that Defendants, with scienter, violated Section 10(b) of the 1934 Act and Rule 10b-5(a)
and (c) by engaging in a scheme to defraud or a course
of business or conduct that operated as a fraud upon
Plaintiffs and the putative class and deceived them
into believing that the price at which they either purchased or held their Enron securities during the Class
Period43 was determined by supply and demand in the
investment banks, uses research analysts as “bird dogs” to lure in
customers and assist the banking department of the bank, just as
it used Barone and his “Strong Buy” recommendation, but UBS
never disclosed to the investing public or to Plaintiffs Barone’s
activities or pay. Described as a “regular” occurrence, Mark Altman, deputy head of the U.S. Equity Research for UBS, conceded
that, at the request of the investment bankers in UBS, the Equity
Department research analysts helped by initiating coverage of a
company as an incentive for that company to then do business
with the bank. Barone took clients to visit Enron, assisted in the
Enron-owned Azurix’s IPO, and participated in Enron-subsidiary
EOTT’s secondary and senior note offerings. Brian Barefoot, head
of PW’s investment bank until the completion of its integration
with UBS, in February 2000 contributed money on behalf of the
investment banking department to the “research compensation
pool” for Barone’s efforts, including those related to Azurix and
EOTT. Each year Barone’s base salary and bonuses went up substantially. With Barone’s help, in 2001 UBS was chosen as a colead manager and/or co-manager on Enron investment banking
deals.
The Court observes that the customers who were purportedly
lured in to do business with UBS are not members of the Plaintiff
class defined in the Third Amended Complaint and thus not relevant to this suit.
43
 The Class Period for the § 10(b), 1934 Act claims was from
November 5, 2000 to December 2, 2001.
The Class Period for the §§ 11 and 12 1933 Act claims was
from October 19, 1998 to November 19, 2001.

App. 123
marketplace. More specifically, UBS participated in
five transactions lacking a legitimate business purpose, but employed to create a false public image of
a strong Enron financial position: two amendments
to the Equity Forward Contracts between UBS and
Enron; underwriting notes issued as part of Enron’s
Osprey/Whitewing projects; commitment to extend
credit to Enron’s E-Next facility; and underwriting
credit linked notes in Enron’s Yosemite IV structure.
#122 ¶¶ 51-52. Plaintiffs contend that UBS breached
its duty to disclose to Plaintiffs, based on the 1934 Act
and on the brokerage relationship between PW and
Plaintiffs, the material information and knowledge
that UBS possessed because of its participation, with
scienter, in these transactions, manipulated to create a
false public characterization of Enron’s financial position and of the concealed conflicts underlying Warburg’s commercial banking relationship with Enron
and PW’s brokerage relationship with retail clients.
#122 ¶ 188. The undisclosed information was material
in that a reasonable investor would have considered it
important in deciding whether to invest in Enron securities. Once that information became public, Plaintiffs allege that it negatively impacted the price of

There are two proposed subclasses of PW customer Plaintiffs
under each of the two Acts. #122 at p. 6, ¶ 16. These are (1) a class
of purchasers of Enron common or preferred stock on whose behalf the 1934 Act claims are alleged (¶ 16(I); (2) a class of holders
of Enron common or preferred stock with claims under the 1934
Act (¶ 16(ii)); (3) and (4) classes of former Enron employees with
claims regarding Enron employee stock options under Section 11
and Section 12 of the 1933 Act (¶ 16 (iii) and (iv), respectively).

App. 124
Enron securities and thus damaged Plaintiffs and the
putative class. Furthermore Plaintiffs conclusorily assert that “UBS’s actions certainly show it acted with
requisite scienter.” #122 ¶ 190. They also claim that
UBS and Enron’s self-serving relationship took precedence over and conflicted with the interests of these
PW retail investor clients, from whom UBS had first
bite at Enron employee wealth (which it dubbed “the
goldmine”) to generate retail fees and income for UBS
and to whom PW would funnel Enron and Enronrelated securities to transfer Enron’s risk to the marketplace.
Plaintiffs’ claims against PW under §§ 11 and 12
of the 1933 Act, 15 U.S.C. §§ 77k and 77l, on behalf of
persons who acquired Enron employee stock options
and the common stock acquired when they exercised
those stock options, arise from PW’s alleged role as the
exclusive broker and stock option plan administrator
for Enron during the 1933 Act Class Period. #122
¶¶ 16(iii)-(iv), 26, 230, 271. The complaint asserts that
PW functioned as a “seller”44 and “underwriter”45 of
Enron securities and is purportedly liable for the materially false financial statements contained in Enron
prospectuses and registration statements. #122 ¶ 26.
According to the governing complaint, it was common knowledge in the banking industry that Enron
 Under the 1933 Act, “sellers” and “underwriters” of securities are required to make full and complete disclosure to purchasing investors in public offerings. Section 11, 15 U.S.C. § 77k(a).
45
 Pages 95-96 (¶ 200) of #122 list the public offerings of Enron securities for which PW or UBS served as underwriter.
44

App. 125
paid huge investment banking fees to banks that provided it with credit capacity. The rapid expansion of
Enron’s business from natural gas pipelines to a global
enterprise energy trading in the mid 1990’s created a
substantial need for cash infusions, so from 1998 onward the UBS Defendants worked hard to expand
their credit capacity for Enron in hopes of being allowed to obtain some of the more than $100 million in
non-credit related investment banking fees that Enron
paid out yearly. It also sought to obtain and retain high
credit ratings to allow it to accumulate senior unsecured long-term debt, essential to its success. Moreover
beginning in 1992 with the SEC’s okay and expanding
as the years went by, Enron used mark to market accounting (“MTM accounting”), including for its merchant investments, which allowed Enron to recognize
earnings long before its activities generated any cash,
resulting in an ever increasing gap between income
and actual funds flowing from operations (a “quality of
earnings” issue) by 1999. By December 31, 2000, approximately $22.8 billion of Enron’s assets were accounted for using MTM accounting, representing 35%
of its $65.5 billion total assets.
More specifically the complaint recites that Rocky
Val Emery (“Emery”), originally a financial adviser
with PW, in 1993 learned from a client, Bill Roamy, an
executive with Enron-owned EOG Resources, that Enron was creating an “all employee” stock option program and putting it out for bids from investment firms
for a contract to administer the Stock Option Program.
#122 ¶ 65. Seeking to make a lot of money, Emery put

App. 126
together a plan that impressed Enron, and PW was
chosen in 1994 to be the exclusive Administrator of the
Enron Employee Stock Option Plan, id. at ¶ 66, with
Emery given the primary responsibility for overseeing services to Enron and the Enron employees who
opened accounts. Emery’s group in PW was known as
the Emery Group, which continued to expand and provide services to PW for four years. In 1998 PW and Enron entered into a written, three-year contract which
provided that when an Enron employee chose to exercise his stock options, he had to do so exclusively
through PW. #122, ¶¶ 66-68. Once he exercised the
stock options, he could either stay with PW or move his
business to another firm. #122 ¶ 67. To retain that retail business, PW did not charge Enron any fee to administer the Employee Stock Option program, and PW
charged the employees merely six cents per share to
exercise their options, and thereby insured that PW
would receive a stream of wealth from the arrangement. #122 ¶ 67.
With its goal being to retain wealth generated by
Enron employees as they exercised their stock options,
with its business model PW was gradually capturing
and retaining about 60% of that wealth.46 #122 ¶ 70.
The way the arrangement worked, each time an Enron
employee received a grant of stock options, PW would
 The complaint at ¶ 69 states that by 1999 about 45,00050,000 Enron employees participated in the Employee Stock Option Plans. Of these, 25% signed up immediately by filling out the
forms provided in the introductory packed [sic]; 25% opened accounts when they exercised their stock options; and another 25%
would slowly flow in over a few months.
46

App. 127
send that employee a packet of information regarding
that stock grant, the exercise price, vesting dates, tax
treatments, and other data about how to exercise those
options and a form for the employee to apply for a new
PW account; in addition it would inform the employee
as a lure that PW charged a negligible six cents per
share for the employee to exercise his stock options.
#122 ¶¶ 67-68. PW emphasized to the employee that it
provided free services to employees who opened PW accounts, including not only the Resource Management
Account itself ($85 per year value), but also free stock
option analysis and free financial plans worth hundreds of dollars. Id. When an employee wanted to exercise his stock options, he could call PW. If the employee
was an insider or had options worth $500,000 or more,
he was transferred to Emery; otherwise he was forwarded to one of the brokers in the Emery group on a
rotating basis. When a PW broker answered the call,
the broker would immediately offer the employee a
free “financial plan,” which would then automatically
assign the employee account to that broker, and the
employee became an advisory client of UBS under the
Investment Advisers Act of 1940. #122 ¶ 71. One broker described this lucrative flow of money to PW “like
shooting fish in a barrel.” #122 ¶ 72.
Furthermore to keep this money flowing, PW
made a secret “gentlemen’s agreement” with Enron,
unknown to PW’s clients, that PW financial advisors
would not recommend that their retail customers
should sell Enron stock, would advise them to exercise their Enron options, and would say nothing about

App. 128
Enron that might be perceived as negative. While PW
advisors were permitted to advise their clients to diversify, those advisors had to speak with clients in code
language, in which they intended “diversify” to mean
“sell,” in violation of the rules of the National Association of Securities Dealers, Inc. (“NASD”). #122 ¶ 74.
PW did not reveal that communications between it and
its clients were limited nor that there would be no full
disclosure. These communications were intentionally
misleading. Furthermore, whenever a PW client asked
his financial advisor about Enron, the financial advisor
was required to give the client the “Strong Buy” rating
on Enron’s stock by the managing director of the
energy group at UBS Equity Research Ron Barone,47
 It should be noted that ironically Plaintiffs’ complaint, if
anything, bolsters Barone’s credentials to evaluate energy companies (#122 ¶ 206):
Barone is the managing director in the energy group at
UBS Equity Research and has been an analyst since
1971. At UBS, he specializes in natural gas transmission, distribution, independent power production and
energy marketing companies. He has been ranked on
Institutional Investors’ “All Star Team” for 27 consecutive years. In 2001, Barone was ranked No. 2 in the
natural gas category by Institutional Investors’ AllAmerican Team. Prior to joining UBS, Barone was the
natural gas analyst at Paine Webber, Inc.
The Court notes that the complaint alleges no facts that would
demonstrate that Barone acted with scienter in misleading those
he advised. As Defendants observe, #126 at p. 43, it was not “an
extreme departure from the standards of ordinary care” for Warburg to permit Barone to publish his research even though others
had different views. Financial Acquisition Partners LP v. Blackwell,
440 F.3d 278, 287 (5th Cir. 2006) (defining severe recklessness for
scienter as “highly unreasonable omissions or misrepresentations
47

App. 129
despite the fact that Barone did not intend that rating
to be a “buy” recommendation.48 #122 ¶ 76.49

demonstrating an extreme departure from standards of ordinary
care”), citing Nathenson v. Zonagen, Inc., 267 F.3d 400, 408 (5th
Cir. 2001).
48
 Barone allegedly sent a Note with each rating to the PW
brokers to indicate that it was a rating, not a recommendation,
and that he expected they would read and understand it and discuss with their client whether a stock was appropriate for the account holder, but this information was never revealed to PW
clients. #122 ¶ 76.
49
 The complaint asserts (#122 at ¶¶ 205 and 207-08),
  205. UBS purports to have “Research Principles.”
During the class period, it represented to clients that
the purpose of its equity research was to benefit the investing clients by (1) analyzing companies, industries
and countries to forecast their financial performance;
and (2) providing opinions on the value and future behavior of securities. UBS represented that its equity research was objective, had a reasonable basis and was
balanced and objective. Perhaps most importantly,
UBS represented that its Equity Research would not
be used by UBS “ . . . to advance its own interests
over those of its client, or to advance analysts’
own interests.” [emphasis in original #122]. . . .
  207. UBS’s fraudulent course of business is evidenced, in part, by its (1) willingness to allow Barone
to continue coverage on Enron when he espoused positions that UBS knew were wrong; and (2) requiring,
in the face of its knowledge, that Barone’s “Strong Buy”
Research Notes be given to each and every client who
asked questions regarding Enron. Within the UBS investment bank it was openly discussed that Barone’s
analysis and “Strong Buy” rating was [sic] inconsistent
with the investment bank’s knowledge of Enron’s finances. Moreover, the investment bank’s senior credit
officers admitted shortly before Enron’s bankruptcy

App. 130
Because many of the high level executives at Enron had accounts at PW, when a “sudden firestorm of
that Barone’s continuous “Strong Buy” rating when
highlighted by the press was “very embarrassing.”
  208. UBS allowed Barone to accept, apparently
blindly, Enron’s upper management’s nonsensical explanations and ignore known hard data. More importantly, UBS did not manage Barone, took advantage of
Barone’s contrary rating to mitigate UBS’s exposure to
Enron, and used Barone to serve Enron, UBS’s “true
client,” by enhancing its investment banking and retail
revenues at the complete expense of the Plaintiffs to
whom UBS owed concrete regulatory duties of disclosure.
Defendants point out that courts have dismissed claims
based on an investment bank’s failure to “monitor or correct” allegedly incorrect research reports. #126 at p. 42, citing Podany v.
Robertson Stephens, Inc., 318 F. Supp. 2d 146, 154, 156 (S.D.N.Y.
2004) (and cases cited therein) (“A securities fraud action may not
rest on allegations that amount to second-guesses of defendants’
opinions about the future value of issuers’ stock--second guesses
made all too easy with the benefit of hindsight”; among “strong
policy reasons why courts do not engage in . . . second-guessing of
forward-looking opinions” are that “relying on an inference that
an opinion that turned out to have been very misguided must
have been subjectively insincere would encourage lawsuits every
time a drop in share prices proves that an earlier-uttered forwardlooking opinion turned out to have been too optimistic. . . . The
securities laws are not intended as investor insurance every time
an investment strategy turns out to have been mistaken. Thus,
the ultimate inaccuracy of defendants’ recommendations cannot
be the sole basis for liability in a § 10(b) action for misstatement
of opinion. . . . [S]uch evidence is not sufficient to allege scienter,
and assertions that the opinions must have been false because in
hindsight it would have been more prudent to make different recommendations do not constitute the required particularized allegations of ‘provable facts’ supporting an inference that the
opinions were not truly held.”).

App. 131
selling Enron stocks began within the ranks of upper
level executives at Enron” in mid summer 2000, supported in the complaint by charts showing precise
sales by specific, identified executives on pp. 31-36 in
#122,50 PW knew from these red flags that there was
trouble at Enron. Within thirteen months twenty-one

 Defendants argue that these pages of trades do not demonstrate knowledge by PW of Enron’s deteriorating financial condition. Plaintiffs fail to indicate how many shares of Enron stock
each insider retained and whether he sold most of his holdings or
retained substantial exposure to Enron. Moreover allegations of
sales of the company’s stock by insiders, without more, are insufficient to plead knowledge of the corporation’s declining financial
state even by those insiders. In re Advanta Corp. Sec. Litig., 180
F.3d 525, 540 (3d Cir. 1999) (“The Third Circuit has held that it
“will not infer fraudulent intent from the mere fact that some officers sold stock.”); In re Enron, 258 F. Supp. 2d at 593-94 (“The
mere pleading of insider training without regard to either context
or the strength of the inferences to be drawn is not enough”;
“[w]hether there is an unusual or suspicious pattern of insider
trading may be gauged by such factors as timing of the sales (how
close to the class period’s high price), the amount and percentage
of the seller’s holdings sold, the amount of profit the insider received, the number of other insiders selling, or a substantial
change in the volume of insider sales.”). That a third party like
PW simply knows about the trades by executing or reading about
them does not constitute knowledge of Enron’s “true” financial
condition.
The Court notes that in Advanta Corp., id., the Third Circuit
went on to say “But if the stock sales were unusual in scope or
timing, they may support an inference of scienter.” Citing Shaw
v. Digital Equipment Corp., 82 F.3d 1194, 1224 (1st Cir. 1996)
(“[A]llegations of ‘insider trading in suspicious amounts or at suspicious times’ may permit an inference that the trader--and by
further inference, the company--possessed material nonpublic information at the time.”).
50

App. 132
insiders sold more than half a billion dollars in Enron
stock and generated hundreds of thousands of dollars
in fees for PW, which did not warn its retail clients, but
instead focused on keeping them invested in Enron securities.
As noted, Enron would not permit any adverse
comments about its stock. Heritage Branch Manager
Patrick Mendenhall, Heritage Branch Sales Manager
Willie Finnigan, and Rocky Emery warned brokers in
the branch on various occasions that if they communicated “any adverse information about Enron to Enron
employees, they would be reprimanded, sanctioned,
yanked from the Enron account, or even terminated.”
#122 ¶ 80. Whenever someone crossed that line, the
brokers were told about the incident and the person
was exposed. The brokers were given a blunt notice:
“If you ‘piss off ’ Enron, ‘you’re done.’ ” Id. During the
summer of 2000, David Loftus, an employee in management, raised questions about Enron’s business decisions to another passenger on a plane and was
subsequently criticized for doing so and admonished
not to say anything negative about Enron. Id. ¶ 78. In
2001 Craig Ellis, a consultant to help PW’s sales force
with various investments, at a sales meeting characterized the company as “ ‘cook the books’ Enron”; Ken
Logsdon, one of Rocky Emery’s right-hand men and an
elite member of the Emery Group, told Patrick
Mendenhall, who then “silenced Ellis.” Id. ¶ 81.
As an extreme example of Enron’s repression of
broker communications to clients, the complaint also
goes into great detail about a PW broker, Chung Wu

App. 133
(“Wu”), who worked with the Emery Group at PW and
whose client base was largely comprised of Enron employees and former employees who had opened their
accounts when exercising their Enron stock options
and whose wealth, he realized, was overly and dangerously concentrated in Enron stock and unexercised Enron stock options. #122 ¶¶ 78-79, 82-110. After intense
due diligence, Wu was concerned that expectations for
Enron stock were far too optimistic. By March 1990, in
spite of PW/UBS’s “Strong Buy” recommendation for
Enron stock, Wu warned his clients of Enron’s “worsening condition.” Meanwhile between December 2000
and March 2001 PW sold more than $65,000,000 worth
of Enron common stock for four top Enron executives:
Ken Lay ($20,604,300), Jeff Skilling ($12,382,100),
Ken Rice ($20,604,300), and Cliff Baxter ($13,694,751).
Wu continued to warn his clients, including Plaintiff
Janice Schuette’s husband, about Enron’s deteriorating P/E ratio, problems with its India plant, and silence
about its increasing losses. In April and May 2001, PW
continued its extensive stock sell-off for Enron executives: Lay ($4,144,380), Skilling ($5,216,400), Rice
($1,096,465) and Lou Pai ($45,833,700). In June and
July 2001, as Wu sent more warnings to his clients,
UBS continued to facilitate the executives’ liquidation
of Enron stock: Lay ($6,808,155), Skilling ($1,034,200),
Rice ($18,993,991), and Pai ($2,215,605). In sum, while
publishing “Strong Buy” recommendations and touting
Enron stock to Enron’s rank-and-file employees, including putative Class Members, PW liquidated over
$150,000,000 in Enron stock for five Enron executives.
#122 ¶¶ 87-91.

App. 134
Wu continued to follow Enron’s deteriorating financial position and in a [sic] August 21, 2001 final report to his clients he urged them to divest themselves
of Enron stocks and vested options. Several of Wu’s clients who were also Enron officers51 in anger reported
the correspondence to higher officers, and Wu was immediately terminated from PW. #122 ¶¶ 93-104. With
Enron’s approval, PW sent out by email a retraction
letter from Patrick Mendenhall to all of Wu’s clients
stating that Wu’s email was not approved by PW and
its contents were in violation of PW’s policies and contrary to Barone’s “Strong Buy” recommendation. #122
¶¶ 105-06, 108-10.
PW also purportedly immediately implemented a
written policy requiring compliance with the secret
“gentlemen’s agreement” to prevent another such incident. PW management forbade its financial advisors
from giving any advice to their retail clients regarding
stock option issuers like Enron after August 21, 2001,
and instead ordered them to refer the clients to UBS’s
current research report and rating on the stock. #122
¶ 111. Not only did Barone’s deceptive “Strong Buy”
rating remain unchanged until November 28, 2001,
when it was merely downgraded to “Hold,”52 but even
 Specifically, Jeff Donahue, Enron’s Senior Vice President
of Corporate Development; Joan Amero, who worked for Enronowned PGE in Portland Oregon; and Mary Joyce, Senior Vice
President of Executive Compensation.
52
 The complaint points out that beginning in June 2001,
UBS eliminated virtually all of its trading and credit exposure to
Enron by the time Enron filed for bankruptcy on December 2,
2001. At the same time it continued to sell Enron securities and
51

App. 135
“the Chief Executive Office of UBS’s retail brokerage
business, the man who was responsible for the corporate gag policy on UBS brokers,” like the clients, misinterpreted it to mean he should buy Enron stock. #122
¶ 112, 115.
In addition to “highlight[ing] UBS’s subordination
of its retail clients’ interests to its own and those of Enron,” Plaintiffs claim that Wu’s termination illustrates
“UBS’s coordination of its entire structure to accomplish a common goal,” as well as “the control Enron was
able to exert over UBS, even during a period of time
when UBS had its hands full moving heaven and earth
to rid itself of liability and exposure to Enron.” #122
¶ 115.
UBS allegedly used its extensive information
about Enron’s financial status, gained in part through
its active participation in Enron transactions and financial manipulations53 in which UBS played significant parts (1) to maximize its Enron-derived income at
the expense of and in conflict with the interests of PW’s
retail customers and (2) to limit UBS’s own exposure
to Enron. The complaint describes in substantial detail

debt to uninformed investors, including its retail clients. #122
¶ 174-75. By the first week of September UBS had begun its review to downgrade Enron’s internal rating and determined by October that such a downgrade would take place. #122 ¶ 174.
53
 Including 1999 and 2000 amendments of existing Equity
Forward Contracts, the Osprey and Yosemite IV financial structures, and the Enron E-Next Generation loan.

App. 136
certain transactions54 and UBS’s unwinding in which
UBS’s active participation gave it material, nonpublic
information about Enron’s deteriorating financial condition and manipulations that provide the basis for
Plaintiffs’ securities fraud claims and which Plaintiffs
contend UBS had a duty, which it breached, to disclose
to its investor clients,55 who purchased, acquired,
and/or held Enron securities through UBS. UBS’s involvement with Enron in these transactions, was designed to create a false appearance of Enron’s financial
position by concealing significant losses, as well as to
generate income and conceal secret loans to Enron,
hidden by off-balance sheet and mark-to-market accounting, in other words, actions in which UBS aided
and abetted Enron in its fraud on the investing public
generally, claims now invalidated as primary violations
of the 1934 Exchange Act and of Rule 10b-5 by Central
Bank and Stoneridge. Because UBS’s participation in
 UBS Defendants identify and describe in detail (1) the
1999 and 2000 amendments to existing Equity Forward Contracts to effect two undocumented and undisclosed loans to Enron
(#122 ¶ 119-146, 176-80), (2) the Osprey transaction (id. ¶¶ 147155), (3) the Yosemite IV structures (id. ¶¶ 156-160), and (4) the
Enron E-Next Generation loan (id. ¶¶ 161-66). The complaint
also lists other transactions on which UBS worked through which
it purportedly gained additional nonpublic information about Enron’s deceptive acts: “Project Wiamea” or “Project Kahuna”; “Project Summer” or “Enigma”; and “Enigma II.” #122 ¶¶ 167-73.
55
 The nondisclosure of material information in violation of a
duty to disclose is a “deceptive” act prohibited by Section 10(b)
and Rule 10b-5. In re Enron Corp. Sec., Derivative & “ERISA
Litig., 235 F. Supp. 2d 549, 569 n.9 (S.D. Tex. 2001), citing Santa
Fe, 430 U.S. 462 (1977). At issue here is whether UBS owed a duty
to disclose to these investors.
54

App. 137
these allegedly illegal acts does not constitute a primary violation of the 1934 Act as to Enron, the Court
does not summarize them, but refers the parties to the
complaint’s descriptions. Instead the Court focuses on
allegations that, having gained substantial knowledge
of Enron’s deceptive acts by its involvement in these
deceptive transactions, PW breached its duty as broker
to disclose to its own retail investor clients, in violation
of § 10(b) and Rule 10b-5, material information that it
gained about Enron’s fraudulent activities and deteriorating financial condition. #122 ¶¶ 116-73.
Starting in June 2001, Enron’s financial image began to disintegrate rapidly, with Enron filing for bankruptcy on December 2, 2001. As part of its plan to
transfer its Enron credit exposure, in June and July
UBS issued and sold $163 million worth of notes to a
Japanese investor with the payment obligation structured so that if Enron filed bankruptcy or otherwise
defaulted on an obligation to UBS, UBS would not have
to repay the notes. In July 2001 UBS commenced selling Enron debt securities held by UBS to a wider group
of similarly unknowing investors, including its retail
clients. UBS had also purchased from initial purchasers Enron Zero Coupon Convertible Senior Notes Due
2021, which Enron had issued and sold in a private
placement in February 2001 and which UBS began
selling while using its “Strong Buy” rating on Enron
equity securities even though UBS had a “Sell” and
“Hold” rating on Enron debt securities. It was in August 2001 that Wu sent his warning email to his clients
about Enron, leading to his swift termination.

App. 138
Furthermore, UBS had approximately $390 million of notational trading exposure with Enron on the
Equity Forward Contracts. The Equity Forward Contracts were derivative financial instruments whose
value fluctuated with the market price of Enron stock:
on a specific future date, known as the “Settlement
Date,” Enron was contractually obligated to purchase
from UBS, and UBS was contractually obligated to deliver to Enron, a specified number of Enron shares at
a specific price, known as the “Forward Price.” If at a
given time the market price of Enron stock was higher
than the Forward Price, the contracts were “in the
money” for Enron, i.e., UBS owed Enron value in excess of the value Enron owed UBS. If the market price
of Enron stock was below the Forward Price, the contracts were “out of the money” for Enron, i.e., Enron
owed UBS value in excess of the value UBS owed
Enron. The contracts would be settled in two ways:
(1) they could be “physically settled,” meaning that
UBS would deliver shares to Enron and Enron would
deliver cash to UBS or vice versa; or (2) they could be
“net share settled.” Under the latter method, if the contract net share settled when the contract was “in the
money” for Enron, UBS would deliver to Enron the
number of shares required at the current market price
to equal the net value of the Contract to Enron; if the
contract was “out of the money for Enron, Enron would
deliver to UBS the number of shares at market price
required to equal the net liability of Enron under the
contract. The new value Enron promised to pay or to
give up was subject to an interest component as expressed in the amendments. Furthermore Enron had

App. 139
the contractual right to terminate the Forward Contracts at any time. In 1999 and 2000 UBS allegedly
used these Equity Forward Contracts to effect what in
essence were two undocumented and undisclosed loans
to Enron that were not reported as debt and to support
manufactured hedge transactions between Enron and
two related party entities to allow Enron improperly to
manipulate its income in violation of tax and accounting principles. The two loan transactions kept more
than $260,000,000 in debt off Enron’s balance sheet
and net losses associated with merchant investments
off its income statement. #122 ¶¶ 119-23. Moreover
Enron used the value to fund LJM, a special purpose
vehicle that Enron could use to hedge stocks that it
could not sell (“Illiquid Positions”) and to avoid prohibitions under GAAP and § 1032(a)56 of the Internal
Revenue Code against a company (here Enron) from
recognizing as gain or loss what it received in exchange
for the issuance of its own stock. #122 ¶¶ 127-29. UBS
subsequently devised a transaction to allow LJM to
“purchase” Enron stock directly from UBS to avoid
GAAP and accounting restrictions.
Amendments in 1999 and 2000 to the Equity
Forward Contracts permitted Enron and UBS to devise a largely similar structures [sic] that allowed
 Section 1032(a) states, “Nonrecognition of Gain or Loss-No gain or loss shall be recognized to a corporation on receipt of
money or other property in exchange for stock (including treasury
stock) of such corporation. No gain or loss shall be recognized by
a corporation with respect to any lapse or acquisition of an option,
with respect to a securities futures contract (as defined in section
1234B), to buy or sell its stock (including treasury stock).”
56

App. 140
Enron maximum accounting benefit of the value in the
Equity Forward Contracts by circumventing Section
1032 of the Internal Revenue Code and GAAP and by
avoiding “early settlement” of the original Equity Forward Contracts (making the transaction an undocumented, undisclosed loan) and making the
Amendments the effective Forward Contracts as of the
amendment date. The amendment to the first Forward
Contract divided each contract into two, and the same
number of shares of Enron stock were transferred but
with new value, in return for Enron’s new promise to
pay or forgo more in the future. UBS was to sell, transfer and assign directly to LJM all of its rights, title and
interest in the assigned shares, leaving Enron out of
the loop, as required to achieve a hedge against the Illiquid Positions. In addition to providing Enron with a
hedge for assets that could not otherwise be hedged,
the two restructurings of the Forward Contracts provided Enron with hundreds of millions of dollars in
capital for LJM and a newly formed entity, Harrier,
which Enron later used for numerous illicit accounting
and corporate purposes.
In June 2001 when Enron’s stock price was sinking to near $50.00, UBS agreed to lower the trigger
price on the Equity Forward Contracts to $40.00. A
provision in these Forward Contracts gave UBS the
right to force Enron to settle the Contracts before their
Settlement Date if the price of Enron stock closed at or
below a set trigger price for two consecutive days. On
August 14, 2001 Enron announced the resignation of
its CEO, Jeff Skilling. The next day Enron’s stock price

App. 141
closed at $40.25, causing an uproar in UBS’s corporate
finance, equity risk management, credit, trading and
legal departments. After requiring Enron to provide
nonpublic information on the number, amounts, and
trigger prices of equity forward contracts with other
parties, as well as information about Enron’s recent
trading in its own shares, UBS finally agreed to lower
the trigger price on stringent conditions, including a
commitment that Enron settle the large equity forward contract at its October maturity, that Enron increase the number of shares with which it could net
share settle the contracts, and that Enron provide UBS
with “Most Favored Nation” status, meaning that Enron would not allow its other equity forward trades to
have a higher trigger price or more favorable unwind
conditions than were permitted to UBS contracts. Matters only got worse. In response to Enron’s request for
a lower trigger price, UBS required Enron to settle the
smaller contract at maturity and continued to address
the larger. As the risk increased, the stock continued to
drop in value, and in late October UBS finally exercised its early termination rights, received a cash payment to settle an equity swap and the remainder of the
forward contract, and immediately sold 2.2 million
shares of Enron stock that it held as a hedge to obligations under these contracts. Because UBS understood
the default risk Enron posed throughout the period,
UBS managed to unwind its positions timely, leaving
it little exposure to Enron before Enron declared bankruptcy.

App. 142
In contrast to Barone, Stewart Morel (Morel”),
debt/credit analyst for Warburg, reported on Enron
bonds and the company’s ability to pay its debts. Anyone at UBS could have a copy of Morel’s opinions. In
his analysis of Enron’s public filings, Morel observed
an increase in debt consistently over the period from
the third quarter of 2000 until Enron went out of business. Morel knew that Enron’s deteriorating credit and
possible loss of investment grade status would cause
acceleration of its debt obligations, which in turn
would require Enron to have more short-term money
to meet its debts. Until November 2000, Morel listed
Enron debt as a “Buy”; after November 2000, as Enron’s debt increased, he lowered it to “Hold”; and in
early 2001, he changed it to “Sell.”57 On June 20, 2001,
he produced a report downgrading Enron bonds to
“Reduce,” i.e., reduce one’s holdings, sell.58 But unlike
Barone’s “Strong Buy” rating on stock, Morel’s “Sell”
opinion on bonds was not circulated to retail investors,
 In their response to the motion to dismiss, #148 at p. 32,
Plaintiffs explain that “ ‘Buy’ meant that a bond was expected to
outperform other investments, a ‘Hold’ meant the bond was expected to track the market and a ‘Sell’ meant the bond was expected to under perform.”
58
 Defendants challenge Plaintiffs’ allegations as false and
maintain that Morel’s opinion was not at odds with Barone’s, as
evidenced by the same reports that Plaintiffs cite. They contend
that Morel’s June 2001 research report actually recommended reducing exposure to Enron and buying ENE structured offerings.
#126 at pp. 44-45. Defendants argue that the falsity of Plaintiffs’
allegations about Morel’s research and recommendations is evidenced by the reports that Plaintiffs rely on. #130, Lomuscio
Decl., Ex. 19 (Morel June 21, 2001 research report, UBS/LAM
069845-96) at 10.
57

App. 143
even those encouraged by UBS to buy Enron bonds after Morel downgraded Enron’s debt.
Plaintiffs allege that the ways UBS actively used
Barone’s research and hid Morel’s was part of the
scheme and artifice to deceive its retail clients. While
UBS’s policy required financial advisors to provide
Barone’s research to retail clients and touted its equity
research as objective, fair, sound, and founded on a reasonable basis, UBS did not reveal the material information that its analysts received substantial amounts
of money for, at the request of, the Bank, covering companies and cozying up to corporate management to
obtain investment banking business. #122 ¶ 224. The
industry standard, according to Brian Barefoot, requires
that a bank that discovers corporate malfeasance
should stop analyst coverage on the stock, suspend the
stock and the research activity, and investigate. #122
¶ 226. According to the complaint, UBS took none of
these steps, but instead relentlessly hawked Barone’s
“strong Buy” opinion to deceive the investing public for
UBS’s own gain. Even though the UBS analyst research note containing the recommendation specifically stated that the rating was intended to be
distributed only to major institutional investors, PW
required its brokers to send it to their retail clients
across the board, regardless of the suitability of the
Enron securities for a particular retail client. #122
¶¶ 263-64. Any broker that refused to promote Enron
securities aggressively and rapidly, like Wu, was quickly
terminated. Id. ¶ 264-65. No negative comments about
Enron were tolerated and any advice to sell had to be

App. 144
characterized as for diversification purposes. Id. at
265.
Lampkin, Ferrell, and Swiber’s claims under the
1933 Act’s Section 12(a)(2) against PW arise out of the
alleged misrepresentations and omissions identified
on the restatement of the Enron financials before November 8, 2001 in Enron’s formal notice, filed Form 8-K,59
 The complaint, #122 ¶ 236 asserts that this Form 8-K
stated that Enron would be providing material information to investors about the following matters:
* A required restatement of prior period financial
statements to reflect: (1) recording the previously announced $1.2 billion reduction to shareholders’ equity
reported by Enron in the third quarter of 2002; and
(2) various income statement and balance sheet adjustments required as the result of a determination by
Enron and its auditors (which resulted from the information made available from further review of certain
related-party transactions) that three unconsolidated
entities should have been consolidated in the financial
statements pursuant to generally accepted accounting
principles.
* Enron intended to restate its financial statements
for the years ended December 31, 1997 through 2000
and the quarters ended March 31 and June 30, 2001.
As a result, the previously-issued financial statements
for these periods and the audit reports covering the
year-end financial statements for 1997 to 2000 should
not be relied upon.
* The accounting basis for the $1.2 billion reduction
to shareholders’ equity.
* The Special Committee appointed by Enron’s Board
of Directors to review transactions between Enron and
related parties.
* Information regarding the LJM1 and LJM2 limited
partnerships formed by Enron’s then Chief Financial
59

App. 145
and subsequently Enron’s restatement of financials in
Enron’s November 19, 2001 Form 10Q for Quarter
Ended September, 30, 2001. Identifying the date, file
numbers, number of shares, relevant benefit plan and
total value, Plaintiffs list the Registration Statements
(#122 ¶ 230) accompanying the Prospectuses pursuant
to which they acquired options to purchase Enron equity securities and the exercise of those options to receive Enron common stock. That the Prospectuses60
and Registration Statements undisputedly contained
inaccurate financial statements and other information
and omitted material information is evidenced by
the fact that they had to be restated. #122 ¶ 235. The
Form 8-K revealed what years and areas had to be restated, what had to be disclosed; it further disclosed
that Enron’s financial restatement would include a reduction to reported net income of about $96 million in
1997, $113 million in 1998, $250 million in 1999, and
$132 million in 2000, increases of $17 million for the
first quarter of 2001, and $5 million for the second
quarter, and a reduction of $17 million for the third
quarter of 2001. The Form 8-K explained that these
changes to net income were caused by the retroactive
Officer, the former CFO’s role in the partnerships, the
business relationships and transactions between Enron and the partnerships, and the economic results of
those transactions as known thus far to Enron, which
are outlined [in the attached Tables to the report].
* Transactions between Enron and other Enron employees.
60
 The complaint asserts that copies were provided of the
Stock Option Plans of 1991, 1994, and 1999, along with any restatements or amendments to them.

App. 146
consolidation of JEDI and Chewco, commencing in November 1997, which increased Enron’s debt by approximately $711 million in 1997, $561 million in 1998,
$685 million in 1999, and $628 million in 2000. The
Prospectuses were false and misleading in part because they incorporated by reference all of Enron’s
10-Ks from 1997-2001, which misrepresented Enron’s
financial results for all those years. On November 8,
2001 Enron’s restatments [sic] reflected a charge to
earnings of approximately $500 million, or about
twenty percent of earnings during that period. On November 19, 2001 Enron filed a Form 10-Q, showing for
the first time a November 9, 2001 downgrade to BBB,
which triggered a demand for $690 million from Enron,
associated with Whitewing, in which UBS was involved,61 which sum Enron was unable to pay it [sic].
#122 ¶¶ 238-40.
Regarding Section 12(a)(2), Plaintiffs allege that
PW qualifies as a “seller” under the statute because
PW successfully promoted or solicited the purchase of
securities to serve its own financial interests or the
interests of the securities owner. “Brokers and other
solicitors are well positioned to control the flow of information to a potential purchaser, and, in fact, such
persons are the participants in the selling transaction
who most often disseminate material information to investors.” Crawford v. Glenns, Inc., 876 F.2d 207, 510-12
 Plaintiffs state that the Whitewing structure was discussed in #122, but the Court is unable to find any mention of
Whitewing other than a single, unexplained reference to Osprey/
Whitewing in ¶ 258 of #122.
61

App. 147
(5th Cir. 1989) (“The Court has recently reformulated
the test for ‘seller’ status in light of the Supreme
Court’s decision in Pinter v. Dahl. . . . [T]he seller [is]
either one who owns a security and transfers it for consideration or one who successfully promotes or solicits the purchase ‘motivated at least in part by a
desire to serve his own financial interests or those of
the securities owner.’ ”), cited by In re Azurix Corp., 198
F. Supp. 2d 862, 892 (S.D. Tex. 2002) (“For potential
§ 12(a)(2) liability to exist, defendants must have
passed title to the plaintiffs as a ‘direct seller’ (such as
an underwriter) or solicited the transaction in which
title passed to them,”), aff ’d, 332 F.3d 854 (2003) [sic].
PW was a “seller” under Section 12(a)(2) “(1) because
of its direct participation in the timing and exercise of
Enron employees’ stock options on Enron’s behalf and
its active solicitation and promotion of Enron securities during these transactions; and (2) because [PW’s]
direct participation and active solicitation/promotion of
Enron securities was motivated by and resulted in unprecedented amounts of collateral enrichment to
[PW].” #122 ¶ 267. Its function was greater than as
simply a conduit for Enron employees’ receipt of Enron
securities. Id. Using the Agreement between PW and
Enron to administer exclusively Enron’s stock option
plans for more than 27,000 individuals for over five
years provided PW with a three-pronged approach to
capture great wealth: (1) PW required Enron employees to open an account with PW before they could exercise their stock options, after which they were guided
to PW’s phone bank of advisors and instructed how to

App. 148
exercise the options62; (2) the employees were given
printed materials, including a copy of Guide to Exercising Your Stock Options Online about PW’s services, to
convince them of the need for assistance from a PW financial advisor in investing in matters purportedly too
complicated for them to navigate alone; and (3) they
were given stock option analysis and financial planning services free of charge. As permitted by the Agreement, PW would then aggressively pursue further
investment business with the employees and enrich itself collaterally. PW did not confine itself to simple administrative services in exercising stock options, but
sought to provide voluminous free financial services to
these customers, such as the Guide to Exercising Your
Stock Options Online publication, including UBS’s equity research analyst reports and ratings. It also made
millions of dollars from the insider trading of controlling officers and directors at Enron when it sold over
$550,000,000 in the insiders’ Enron stock in the latter
part of 2000 and first half of 2001, and would then
strive to control the funds generated from these sales.
Thus PW enriched itself directly and collaterally
through the administration of the stock option plans.
#122 ¶¶ 255-62.
Finally, regarding the § 12(a)(2) claims against
PW, Plaintiffs Lampkin, Ferrell, and Swiber insist they

 The advisors were frequently reminded that they were not
to provide any opinion regarding the exercise of the stock options
until the employee had set up an account with PW.
62

App. 149
are grounded entirely in negligence and/or strict liability, and not in fraud.
The same Plaintiffs, themselves, and on behalf of
the putative class, also sue PW as underwriter for untrue statements of material fact or omissions in the
S-8 Registration Statements filed with the SEC, identified in ¶ 230 of #122, under Section 11(a)(5), 15 U.S.C.
§ 77k(a)(5),63 of the 1933 Act. The same untrue statements of material fact or omissions that are the basis
of Plaintiffs’ § 12(a)(2) claims are also the basis of their
§ 11(a) claims. The expansive statutory definition of
“underwriter,” § 2(a)(11) of the 1933 Act, covers any
person who participates directly or indirectly in the
distribution of securities. Citing Louis Loss and Joel
Seligman, Securities Regulations 3d, § 2-A (2001),
Plaintiffs list five basic underwriting techniques, some
with variations: “[1] strict or ‘old fashioned’ underwriting, [2] firm commitment underwriting, [3] best efforts
underwriting, [4] competitive bidding, and [5] shelf [sic]
registration.” Traditionally, functioning as a gatekeeper between the United States securities markets
and issuers, the underwriter provides the issuer with
 Section 77k(a)(5) states in relevant part,
In any case any part of the registration statement,
when such part became effective, contained an untrue
statement of a material fact or omitted to state a material fact required to be stated therein or necessary to
make the statements therein not misleading, any person acquiring such security (unless it is proved that at
the time of such acquisition he knew of such untruth or
omission) may, either at law of [sic] in equity, in any
court of competent jurisdiction, sue--every underwriter
with respect to such security.

63

App. 150
a strong advocate in the secondary market and sponsorship of the stock, and it ensures that the issuer provides truthful and adequate information upon which
the investing public can make an informed investment
decision. After investigation of the issuer, performing
due diligence, and approving the issuance, the underwriter often metamorphoses into a “market maker” to
distribute the shares among private individuals and
institutional purchasers to insure [sic] a good price in
the offering and adequate trading in the shares. Essential to the issuer, the underwriter makes a market for
the stock by providing research and analysis on the
company for investors, organizing communications
with investors and potential investors, and helping the
company to create or maintain a following in the investment community. It times purchases and sales of
the company’s stock in the market to give the company’s stock necessary liquidity and thus stabilizes
trading prices. The investing public depends upon underwriters to protect them from the Enrons of the
world. PW served as a market maker for Enron. #122
¶¶ 276-78.
As noted, under Section 2(11), 15 U.S.C. § 77b(11), a
statutory underwriter is defined functionally on the
basis of its relationship to a particular offering and
reaches “any person who has purchased from an issuer
with a view to, or offers or sells for an issuer in connection with, the distribution of any security, or participates or has direct or indirect participation in
any such undertaking, or participates or has a participation in the direct or indirect underwriting of any

App. 151
such undertaking. . . .” #122 ¶ 279. PW has promoted, offered, and sold for Enron and has had a direct or indirect participation in the offer and sale and the
distribution of securities at issue into the initial and
secondary security markets. PW meets both the seller
aspect of an underwriter (Section X of #122, pp. 87-107)
and the participation aspect of the statutory definition
of “underwriter” (Section XII). The SEC construes the
words “participates” and “participation” as covering
any person “enjoying substantial relationships with
the issuer or underwriter, or engaging in the performance of any substantial functions in the organization
or management of the distribution.” Op. of Gen. Counsel Securities Act Release No. 33-1862 (Dec. 14, 1938).
PW, in consideration for the exclusive right to broker
Enron employees’ exercise of stock options under the
Stock Option Plans, took on the administration of the
Stock Option Plans. In essence Enron “outsourced the
organization and management of its [Stock Option
Plans] to PW, which, as a licensed and registered broker-dealer, could be a market maker providing sponsorship in the financial markets to support the value
of the Enron securities. PW took on the task of selling
the stock to the investor, giving him advice and an explanation of his plan, explaining how the exercising of
his options fit in with overall investment goals,
whether and when to exercise and sell or exercise and
buy, or not exercise their stock options at all and timing
large blocks of exercises into the market to avoid price
fluctuations despite the huge amount of insider stock
being sold on the market in late 2000 and early 2001.
Exhibiting another traditional underwriter role, PW

App. 152
initially financed Enron employees’ exercise of stock
options through a broker-financed exercise pursuant to
provisions of Regulation T of the Federal Reserve
Board (explained in #122 ¶¶ 283-84).
Plaintiffs also allege that because PW contractually arranged to be the exclusive conduit for Enron
securities being placed into the hands of Enron employees and Enron affiliates’ employees through the
Stock Option Plans, meant that PW was the sole gatekeeper to the initial and secondary markets for the
100,000,000 securities issued via the process registered by the Registration Statements. A contractual
arrangement with an issuer whereby a broker-dealer
becomes the administrator, organizer, manager, and
exclusive conduit for the distribution of hundreds of
millions of securities clearly falls within the statutory
definition of an underwriter under section 2(a)(11), 17
U.S.C. § 77b(a)(11),64 insist Plaintiffs. Statutory underwriters include any person who is “engaged in steps
 Section 2(a)(11) states,
The term “underwriter” means any person who has
purchased from an issuer with a view to, or offers or
sells for an issuer in connection with, the distribution
of any security, or participates or has a direct or indirect participation in any such undertaking; but such
term does not include a person whose interests is limited to a commission from an underwriter or dealer not
in excess of the usual and customary distributors’ or
sellers’ commission. As used in this paragraph the term
“issuer” shall include, in addition to an issuer, any person directly or indirectly controlling or controlled by
the issuer, or any person under direct or indirect common control with the issuer.

64

App. 153
necessary to the distribution of security issues.” SEC
v. Chinese Consol. Benevolent Ass’n, 120 F.2d 738, 741
(2d Cir. 1941); SEC v. Kern, 425 F.3d 143, 152 (2d Cir.
2005). The Agreement evidences that PW is a “necessary step” in the registered transactions. Furthermore,
the statutory definition of underwriter includes an exemption from that designation for “a person whose interest is limited to a commission from an underwriter
or dealer not in excess of the usual and customary distributors’ or sellers’ commission.” PW cannot argue
that it is so exempt because it received only the usual
and customary commission in connection with the distribution of the securities covered by the Registration
Statements directly from an underwriter or dealer
since PW received its compensation for being the exclusive conduit into the market for the subject securities from the investor, not from the underwriter or
dealer.
In sum, argue Defendants, under § 2(11) of the
1933 Act PW qualifies [sic] an “underwriter” of securities issued pursuant to Registration Statements and is
subject to liability under Section 11 for untrue statements of material facts and omissions of material facts
in the Registration Statements. PW offered and sold
securities for Enron and it participated directly and indirectly in the sale and distribution of Enron stock to
Lampkin, Ferrell and Swiber and other employees of
Enron or its affiliate companies by and through their
employee stock option plans. PW asserts its Section 11
claims, too, are grounded in negligence and/or strict
liability and disclaims any allegation that may be

App. 154
construed as fraudulent and/or knowing or reckless
conduct.
Defendants’ Motion to Dismiss (#125 and 126)65
Defendants contend that Plaintiffs’ Third Amended
Complaint alleges claims of a scheme under § 10(b) of
the 1934 Act that is no different from, and even weaker
than, the scheme claims in Newby asserted against
Deutsche Bank and Barclays, which were dismissed by
this Court in the Newby litigation. See Newby v. Enron
Corp. (In re Enron Corporation Securities, Derivative &
“ERISA” Litig.), H-01-3624, #4735.
First, Warburg allegedly participated in transactions that misrepresented to the public Enron’s financial status and damaged Plaintiffs (i.e., PW’s retail
customers) in five ways, none of which, Defendants contend, stated a viable primary liability claim under § 10(b):
by underwriting a follow-on offering66 of Osprey notes;
 Because the Court has not considered the Enron Bankruptcy Examiner’s Report, the results of two NASD Arbitrations,
regulatory activity against UBS and the fact that other counsel
have not sued UBS in connection with Enron litigation, since
none of these challenged factors control the determinations of this
Court in this case, the Court does not address Plaintiffs’ objections to them.
66
 “Follow-on offering” is defined at http:// www.investopedia.
com/terms/f/followonoffering.asp as follows:
A follow-on offering is an issue of stock that comes after
a company has already issued an initial public offering
(IPO). A follow-on offering can be diluted, meaning
that the new shares lower a company’s earnings per
share (EPS), or undiluted, if the additional shares are
65

App. 155
underwriting a follow-on offering of Yosemite IV creditlinked notes; extending credit to E-Next Generation
LLC; and twice settling existing equity forward contracts by delivering stock to newly created special purpose entities (“SPEs”). Warburg purportedly not only
participated in transactions that were used by Enron
to distort Enron’s financial statements, but its involvement revealed to “a score of UBS officers . . . significant
amounts of information regarding Enron’s questionable business activities” and allowed UBS to “undert[ake]
trading activities to eliminate its own credit exposure
to Enron for its own benefit. #122 ¶ 52. UBS did not
give its own retail investor clients this information nor
inform them of the conflicts under which it operated its
brokerage business. Id. at ¶ 25. Second, Warburg limited its financial exposure to Enron in late 2001 based
on material nonpublic information. In addition, Warburg did not attempt to prevent Barone from rating
Enron stock a “Strong Buy” even when Warburg knew
that the actual condition of the company was the opposite. Moreover PW did not disclose to its retail investing customers the material, nonpublic, negative
information about Enron and the manipulation of Enron’s public financial appearance, partly accomplished
preferred. A company looking to offer additional shares
registers the offering with regulators, which includes a
prospectus of the investment.
  Unlike an IPO, which includes a price range that
the company is looking to sell its shares, the price of a
follow-on offering is market-driven. . . . The price of a
follow-on offering is usually offered at a small discount
from the closing market price on the day of the transaction.

App. 156
by UBS and allegedly known by Warburg bankers.
Last, PW chose not to disclose the conflicts of interest
it had, originating from PW’s administration of Enron’s employee stock option program.
Second, Defendants maintain that Plaintiffs’ claims,
listed above, constitute aiding and abetting and are
thus not cognizable under § 10(b) and Rule 10b-5. As
in Newby, Plaintiffs in this action allege that Warburg
defrauded investors by extending “disguised loans” to
Enron and participating in concealed off-balance-sheet
financings. When addressing claims in Newby against
Deutsche Bank and Barclays, this Court has already
ruled that such claims constitute aiding and abetting
and cannot give rise to a primary violation of the 1934
Act under the Supreme Court’s decisions in Central
Bank and Stoneridge.
Third, for the required element of scienter, even
though Plaintiffs recognize that Warburg and PW were
separate and distinct entities during the putative
Class Periods, with no ownership interests in each
other, Plaintiffs fail to plead with the required specificity which individual employee at which defendant had
what knowledge of wrongdoing or wrongful intent for
1934 Act and the PSLRA claims. Southland, 365 F.3d
at 365. The few times the complaint does identify an
employee who knew something about Enron, the allegations of knowledge that were made were impermissibly general and vague. Plaintiffs do not plead specific
misrepresentations or misleading omissions by either
Defendant with the required “who, what, when, where,
and how” of each misrepresentation or omission.

App. 157
Furthermore, since the two entities are corporate Defendants, Plaintiffs are required, but have failed, to
plead facts giving rise to a strong inference that an
identified employee of each Defendant employee acted
with scienter as to each misrepresentation and/or
omission. Southland, 365 F.3d at 366-67. In addition,
only PW, not Warburg, had a “retail brokerage relationship” with Plaintiffs that might give rise to a duty to
disclose.
Nor have Plaintiffs pleaded loss causation, Defendants charge. While they plead that Enron’s “financial collapse” was caused by its inability “to service its
debt,” Defendants point out that the alleged fraudulent
brokerage practices at PW relating to purchases or
sales of Enron stock by PW’s retail brokerage customers had no relation to Enron’s purported fraudulent financial statements and were disclosed only after
Enron’s stock price had plummeted to zero.
Finally, regarding the 1933 Act claims against PW
under Sections 11 and 12 on behalf of persons who acquired Enron stock options and common stock through
the exercise of those options (¶¶ 16(iii)-(iv) and 230),
there was no “sale” involved in Enron options. The purported false Forms S-8 targeted by the Third Amended
Complaint registered only Enron stock, not employee
stock options, and therefore could not have constituted
“registration statements” or “prospectuses” offering
Enron employee options for which PW is an alleged
underwriter. Moreover, an employer’s grant of stock
options to its employees is not a “sale” of securities, so
PW could not have been an “underwriter” of options

App. 158
triggering Section 11 liability, nor liable for “offering or
selling” options under Section 12(a)(2). Last, there are
no facts alleged showing that any named Plaintiff has
standing to assert 1933 Act claims based on shares acquired by exercising an employee stock option.
While Warburg and PW are separate legal entities
with no ownership interests in each other, throughout
the complaint Plaintiffs do not distinguish between the
two, often using “UBS” to not only refer to both, but
also to nonparty parent corporation UBS AG, and the
term “Defendants” to include both Warburg and PW.
#122 ¶ 15.
Defendants emphasize that in opinions in Newby,
this Court detailed the legal duties owed by banks
to Enron investors, like Plaintiffs here. Defendants
charge that because Plaintiffs here allege no facts distinguishing their claims against Warburg from those
dismissed against banks in Newby, Plaintiffs’ “banking” claims against Warburg must be dismissed for the
same reasons. Plaintiffs fail to plead primary scheme
liability against Warburg. For example, in Enron, H01-3624, slip. op. (#4735), at 180 (S.D. Tex. 2006), this
Court wrote,
The . . . allegations that Deutsche Bank provided standard [banking] services, i.e., underwrote billions of dollars of Enron-related
securities, lent money to Enron, provided commercial banking and investment banking services to Enron, and earned a lot of money in
fees from Enron, or that its employees who performed due diligence on Enron projects had an

App. 159
obligation to ensure that statements in offering memoranda are full, fair and accurate, in
an effort to plead scheme liability under
§ 10(b), are too general and clearly lack the
kind of specific facts that would support a
strong inference of scienter under the PSLRA.
Moreover, . . . these acts constitute aiding and
abetting and thus are not actionable under
§ 10(b) in this case pursuant to the holding of
Central Bank.
In sum, each of the five transactions in which the
complaint asserts that Warburg participated fail to
state a claim for two reasons: none states a primary
violation of Section 10(b) and Rule 10b-5 and Plaintiffs
fail to plead particular facts giving rise to a strong inference that Warburg acted with scienter.
In the same Opinion and Order (#4735 at 183 &
n.158), this Court dismissed claims that Deutsche
Bank violated Section 10(b) and Rule 10b-5 by underwriting debt issued by the Osprey Trust or Enron, that
Deutsche Bank structured Osprey to fund Whitewing
while knowing that Enron sold assets to Whitewing at
inflated values to falsify Enron’s earnings, and that
Deutsche Bank designed Osprey to transfer billions of
dollars of debt off Enron’s balance sheet. Noting that
Lead Plaintiff in Newby did “not explain specifically
what was inherently deceptive in these structurings
created by Deutsche Bank,” this Court concluded,
“Once again, without specific facts demonstrating that
Deutsche Bank established an innately illicit deceptive entity or device, Deutsche Bank was at most
merely aiding and abetting any subsequent deceptive

App. 160
use of these entities by Enron, the trustees, and Enron’s auditor.” Id. The Court also rejected allegations
that Deutsche Bank’s underwriting of various securities violated Section 10(b) and Rule 10b-5. Id.
Similarly in the instant action, in its services as
one of several co-managers in a follow-on offering of
Osprey notes, Warburg did not “structure” Osprey. Not
only have Plaintiffs failed to identify any “innately deceptive entities or devices” employed by Warburg in the
Osprey offering, but they did not allege that they purchased any notes in the Osprey offering, nor could they,
since the Osprey notes were sold in private placements
to qualified institutional buyers. Newby, H-01-3624,
#4735 at 23. Even if a bank structured and led the underwriting syndicate of the Osprey offering, it would at
most be aiding and abetting of Enron’s fraud. Warburg’s lesser role as a mere co-managing underwriter
of that offering could not be more.
Not only have Plaintiffs failed to allege a primary
violation by Warburg, but they do not plead scienter
with the requisite particularity. No facts are pleaded
showing that Warburg bankers knew a transaction
was fraudulent. Even their claims that Warburg performed such recklessly inadequate due diligence that
it did not discover that “Enron used the Osprey structure to generate income by parking overvalued, nonperforming assets in the structure” (#122 at ¶ 155) “are
too general and clearly lack the kind of specific facts
that would support a strong inference of scienter under the PSLRA” (Newby, H-01-3624, #4735 at 189). In
Newby this Court dismissed the Section 10(b) and Rule

App. 161
10b-5 claims against Deutsche Bank, including the
claim that Deutsche Bank actually knew (not merely
that it acted recklessly in failing to know) that “Enron
sold assets to Whitewing at inflated values to falsify
Enron’s earnings.” Id. at 183 & n.158.
As for Warburg’s alleged trades in Zero Coupon
Notes, in the Newby action, id. Deutsche Bank was the
“selling security holder” of $169 million worth of Zero
Coupon Notes, more than 200 times the amount of Zero
Notes sold by Warburg, while Deutsche Bank was also
one of five initial purchasers in the initial Rule 144 private placement of the Zero Coupon Notes.67 No UBSaffiliated entity participated in that private placement.
In H-01-3624 the Newby Lead Plaintiff asserted that a
bank “provided its services as underwriter of Zero Coupon Notes (#4735 at 183), and in Giancarlo, et al. v.
UBS Financial Services, Inc., et al., H-03-4359, #30 at
42, Plaintiffs claimed that a bank “purchased some of
[this] unsecured Enron debt”: the Court found the allegations “clearly . . . inadequate to sustain a fraud
claim.” Id. That is all that Lead Plaintiffs in this action
assert against Warburg regarding the Zero Coupon
Notes (#122 at ¶ 175), so they also fail to state a fraud
claim against Warburg.
 #127, Declaration of Richard J.L. Lomuscio, Exhibit 4 (Enron Corp. Form 424B3, filed Aug. 17, 2001) at 1 (Warburg listed
as “selling security holder” of $800,000 worth of Zero Coupon
Notes; Nonparty UBS AG, London Branch, listed as a “selling security holder” of $250 million of those notes), and Exhibit 5 (Enron Corp. Form 424B3, filed July 25, 1001 [sic]) at 7 (listing
Deutsche Bank as one of five initial purchasers of Zero Coupon
Notes).
67

App. 162
In addition the complaint fails to plead facts that
even hint than [sic] any alleged trades in the Zero Coupon Notes were based on nonpublic information or
were meant to defraud investors. There is no allegation
of any connection between research reports rating Enron stock a “Strong Buy” and Enron’s SEC filing at the
same time listing UBS AG and Warburg as selling security-holders of these notes other than their proximity in time.
In Newby, H-01-3624, #4735 at 183, Deutsche
Bank was dismissed despite allegations that it underwrote credit-linked debt securities associated with Citibank’s Yosemite transactions. Barclays was dismissed
even though it executed prepay transactions relating
to the Yosemite IV Credit Linked Notes Offering because the Court found the prepays were “not per se illegal.” Id., #4874 at 61. Plaintiffs here do not assert
that Warburg participated in a prepay, but do charge
that Warburg defrauded them by underwriting the
credit-linked notes in Yosemite IV (#122 ¶ 52) when it
knew that “Enron used these Yosemite transactions to
obtain what in economic substance were loans, despite
their public characterization as funds flow from operations” (#122 ¶ 156). The fraud in this case was effected
by Enron, not by the underwriting of the notes, argue
Defendants. Furthermore Defendants insist such conclusory allegations that Warburg was aware of the prepay are, as this Court found in Newby, #4735 at 180,
“too general and clearly lack the kind of specific facts
that would support a strong inference of scienter under
the PSLRA,” and fail to plead a primary violation of

App. 163
§ 10(b) or Rule 10b-5; as this Court again opined regarding Barclays, “prepays are not per se illegal.” In
both suits Plaintiffs fail to explain the mechanics of
Yosemite IV, no less identify anything that made it
improper. Last, #122 at ¶ 160, Plaintiffs allege that
UBS “either knew . . . or was severely reckless in not
knowing about the commodity prepay aspect of the
transaction . . . and that the prepay transaction was
nothing more than yet another disguised loan to Enron.” Defendants respond that this statement, to [sic],
“is conclusory and wholly inadequate to plead scienter.” Id., citing Newby, #4735 at 180.
Defendants point out that the amendments to the
two Equity Forward Contracts between UBS and Enron occurred in mid-1999 and early 2000, long before
the Class Period and before PW was affiliated with Warburg or UBS AG. The complaint asserts the contracts
were actually undocumented and undisclosed loans
to Enron, which were used “to support manufactured
hedge transactions between Enron and two related
party entities, which Enron used improperly to manage its income” and to keep more than $260,000,000 in
debt from its balance sheet. #122 ¶¶ 121-22. The complaint alleges that UBS entered into these loans knowing that they would not be reported as debts and that
the manufactured hedge positions would be employed
to shore up MTM accounting of income by denying the
possibility of losses in connection with those assets. Id.
¶ 122. Defendants insist that the allegations that Warburg helped Enron by extending disguised loans of any

App. 164
kind at most constitute allegations of aiding and abetting Enron’s fraud.
After explaining the two restructurings in detail,
Defendants conclude that the “Complaint’s factual allegations were a form of ‘net settlement’ that discharged Warburg’s pre-existing obligations to Enron
and struck new forward contracts.” #122 ¶ 120. Contrary to Plaintiffs’ claims, the two Equity Forward Contracts were no more loans than any other forward
contract. The complaint correctly states that “the value
of the contracts, but not their terms, fluctuated with
the market price of Enron stock.” #122 ¶ 212. While
Plaintiffs highlight the “interest component in the two
Equity Forward Contracts,” Defendants note that such
contracts typically incorporate an “interest component”
in that the forward price is higher than the market
price. See David F. Levy, Towards Equal Tax Treatment
of Economically Equivalent Financial Instruments:
Proposals for Taxing Prepaid Forwards, Equity Swaps,
and Certain Contingent Debt Instruments, 3 Fla. Tax.
Rev. 471, 481 (1997) (to determine a forward contract
price, “the parties add to the current spot price of the
underlying property . . . the costs that the seller will
incur in holding the underlying property (i.e., insurance, storage, and interest.)”). Levy describes forward
contracts, id. a [sic] 478-79, as having “fixed price
terms” such that one party can “benefit economically
from a downward movement” in the price of the underlying asset and the other “benefit[s] economically from
an increase in the price” of the asset. Accordingly, Warburg transferred to the SPE Harrier Enron stock

App. 165
worth $254 million in April 2000 after the stock increased in value since June 1999; in October 2001 Enron paid Warburg $153 million after Enron’s stock
price fell after April 2000. #122 ¶¶ 145, 185-86. The restructurings were not disguised loans, but a form of
“net settlement” that discharged Warburg’s pre-existing obligations to Enron and struck new forward contracts, i.e., “reset Warburg’s obligations to Enron to
zero, allow an Enron SPE to receive Enron stock, and
put in place new equity forward contracts reflecting
the then-current market price of Enron stock.” #122
¶ 120; #126 at 22-23 (detailing the two restructurings).
Furthermore, even if the amendments to the Equity Forward Contracts had been undisclosed loans,
the complaint still fails to state a claim against Warburg because Plaintiffs’ allegations constitute at most
aiding and abetting Enron in concealing its debt and
falsely representing its financial condition to potential
investors. Furthermore there is nothing innately illicit
about equity derivative transactions, which are common and legitimate transactions used by the world’s
largest companies. #129, Lomuscio Decl Ex. 11 (International Swaps and Derivatives Association, Securities Industry Association, and The Bond Market
Association, amicus brief in Enron Corp. v. UBS AG,
Adv. Proc. No. 03-93373 (Bankr. S.D.N.Y.) at 1 and 12.68
 “Equity derivative transactions may be settled with cash
payments, the physical exchange of cash for securities, or by delivering ‘a sufficient quantity of a designated security in lieu of
cash’ – i.e., net share settlement. Id. at 2 & n.2.” #126 at 27 n.28,
citing id., Ex. 11.
68

App. 166
And while Plaintiffs allege that these restructurings
gave Enron seed money to create the LJM Cayman and
Harrier SPEs and that Warburg designed them (#122
¶ 122 and ¶ 127), the claim still fails to state a claim
because it was not the creation of such an entity that
violated § 10(b), but Enron’s alleged use of it to achieve
off-balance-sheet treatment of debt that violated the
law.
Plaintiffs claim that Warburg knew that the
E-Next Generation LLC Credit Facility was intentionally kept off Enron’s balance sheet to present a false
picture of Enron’s financial conditions to conceal a
$600 million loan to Enron. Defendants respond that
again Plaintiffs fail to plead a primary violation of
Rule 10b-5. As this Court wrote in Newby, H-01-3626,
#4735 at 181, “[A] bank making a loan to a borrower,
even where it knows the borrower will use the proceeds
to commit securities fraud, is aiding and abetting,” and
“ ‘[f ]inancings and investments are not sham transactions if there is no suggestion that the transactions
were something other than what they purported to
be.’ ” Citing In re Parmalat Sec. Litig., 376 F. Supp. 2d
472, 505 (S.D.N.Y. 2005). The E-Next facility was not a
sham: a number of banks lent money for its legitimate
business purposes of purchasing turbines and other
equipment during the first of its three phases and finding locations and constructing gas-fired electric generating plants during its second. Plaintiffs do not claim
that Enron used the funds for anything else, not to
mention that anyone at Warburg knew about such.
The primary violation was in Enron’s auditing and

App. 167
concealing the transactions. Nor do Plaintiffs allege
scienter as to Warburg. Even if Warburg employees
knew that E-Next would be illegally kept off Enron’s
balance sheet by Enron, “the creation of an unqualified
SPV [does not] violate § 10(b), but the use of it to obtain
that unwarranted off-balance-sheet treatment [constitutes] a primary violation.” H-01-3624, #4874 at 62.
As noted Warburg and PW are legally separate entities, Warburg is not a broker, and Warburg owes no
duty to disclose to PW’s retail investor clients.
Defendants also insist that the complaint fails to
plead with particularity what material, nonpublic information about Enron who at Warburg possessed and
when.
Finally, Defendants insist, Warburg did not unlawfully trade on insider information. Plaintiffs’ allegation
that “UBS undertook trading activities to eliminate its
credit exposure to Enron for its own benefit, while in
possession of . . . material, non-public information
[learned during various transactions with Enron and
regarding ‘Enron’s questionable business practices’],
while simultaneously allowing its retail clients to purchase and hold Enron equity securities with the same
benefit of UBS’s institutional knowledge,” also fails.
The complaint does not identify what material, nonpublic information was possessed by which Warburg
employee at what time. Nor does it identify any trades
with particularity with the possible exception of its
settlement of Warburg’s equity forward contracts in
late 2001. Defendants maintain that because Enron

App. 168
voluntarily provided Warburg in September 2001 with
the specific information on which Warburg supposedly
traded in order to persuade Warburg to extend the equity forwards, Warburg did not violate Rule 10b-5 under either the misappropriation or classical theories of
insider trading. U.S. v. O’Hagan, 521 U.S. 642, 651-54
(1997).69 There was no misappropriation because, as
Defendants point out, Warburg sold its hedge shares
after Enron and Warburg settled the equity derivative
contracts; thus Warburg did not deceive Enron by selling stock held to hedge transactions which Enron knew
were concluded. Nor did the classical theory of insider
trading apply. Outsiders, such [sic] underwriters, accountants, lawyers or consultants, “may become temporary fiduciaries to shareholders by entering into a
 Under the classical theory of insider trading, a corporate
insider violates § 10(b) and Rule 10b-5 when he trades in the securities of his own corporation based on material, nonpublic information, i.e., conduct which constitutes a “deceptive device”
under the statute because there is a relationship of trust and confidence between the shareholders of a corporation and those insiders who have gained confidential information because of their
position within the corporation. Id. at 651-52. That relationship
gives rise to a duty either to disclose or to abstain from trading to
prevent the corporate insider from taking advantage of the unknowing stockholders. Id. at 652.
Under the misappropriation theory, a person who is a corporate outsider violates the statute and the rule by committing
fraud in connection with a securities transaction when he misappropriates confidential information to trade in securities in
breach of a duty owed to the source of the information. In other
words, “a fiduciary’s undisclosed, self-serving use of a principal’s
information to purchase or sell securities in breach of a duty of
loyalty and confidentiality, defrauds the principal of the exclusive
use of that information.” Id.
69

App. 169
special confidential relationship in the conduct of the
business of the enterprise and [receiving] access to information solely for corporate purposes” and thus also
have a duty “to forgo actions based on material, nonpublic information.” Dirks v. S.E.C., 463 U.S. 646, 655
& n.14 (1983). “[C]ounterparties to a bilateral derivatives trade--where one party’s gain is the other’s loss-do not have a ‘special confidential relationship.’ ” #126
at 36, citing #122 ¶ 119. Even if Warburg did assume a
duty to assist Enron in the “conduct of the business of
the enterprise” by extending the equity forward contracts, plaintiffs do not plead any reason why that duty
would survive the termination of the equity forward
contracts, only after which did Warburg sell its hedge
shares. #122 ¶ 186. At most, again Plaintiffs charge
Warburg with aiding and abetting Enron’s fraud.
Defendants also argue that PW’s failure to provide
its retail customers with information about Enron’s
“true” financial condition does not qualify as securities
fraud. PW’s only agreement with Enron was to administer Enron’s employee stock option plan. Plaintiffs do
not allege that this agreement aided Enron in concealing anything or that the administration of the plan
gave PW any knowledge of Enron’s actual financial
condition. Instead Plaintiffs plead a secret “gentleman’s agreement between PW and Enron that barred
PW brokers from advising its customers to sell or to
say anything negative about Enron. Plaintiffs provide
no details of the agreement or how it defrauded those
PW clients who held Enron stock in their PW accounts.

App. 170
Moreover a party is not a primary violator if it only
engaged in routine business transactions or failed to
disclose another party’s fraud if it had no duty to do so.
Newby, # 4735 at 47-49.70 Plaintiffs do not claim that
PW participated in any banking or other transactions
employed by Enron to hide its actual financial state or
that it used the employee stock option plan to defraud
investors. Even [sic] it had, such claims would only be
for aiding and abetting.
Defendants also maintain that PW had no duty to
disclose material omissions to retail clients and participants in the Enron stock option plan because the clients’ brokerage accounts were nondiscretionary and
the clients retained the ability to make investment decisions. Martinez Tapia v. Chase Manhattan Bank,
N.A., 149 F.3d 404, 412 (5th Cir. 1998) (“[W]here the
investor controls a nondiscretionary account and retains the ability to make investment decisions, the
scope of any duties owed by the broker will generally
be confined to executing the investor’s order.”); Hand
v. Dean Witter Reynolds, Inc., 889 S.W. 2d 483, 492-93
& n.5 (Tex. App.--Houston [14th Dist.] 1994, writ denied) (under Texas law “the fiduciary duty owed to the
 In their response to UBS’s argument that there is no basis
for a strong inference that UBS acted with scienter, #148 at pp.
20-21, Plaintiffs insist that UBS’s undertaking of these transactions, which its own (but very vaguely mentioned) banking standards, protocols, and regulations made to be improper attempts to
achieve particular tax, legal, accounting and regulatory treatments where conventional structures could achieve the same alleged commercial purpose, in itself gives rise to a strong inference
of knowledge or severe recklessness.
70

App. 171
customer [holding a non-discretionary account] is very
narrow--primarily not to make unauthorized trades).
In ¶ 223 of the complaint (#122) Plaintiffs allege,
This is not an “analyst” case. Plaintiffs do
not sue UBS because Barone’s research was
wrong or because Morel’s research was right.
However, the manner in which UBS actively
used Barone’s Research notes, and hid Morel’s, was part of the scheme and artifice to deceive its retail clients.
Thus Plaintiffs have not asserted, but had no obligation to, that Barone acted with scienter. As noted, the
Fifth Circuit does not permit group pleading of securities fraud. “ ‘It is not enough to establish fraud on the
part of a corporation that one corporate officer makes
a false statement that another knows to be false. A defendant corporation is deemed to have the requisite
scienter for fraud only if the individual corporate officer [accused of fraud] has the requisite level of scienter. . . . ’ ” Southland, 365 F.3d at 366, quoting In re
Apple Computer, Inc. Sec. Litig., 243 F. Supp. 2d 1012,
1023 (N.D. Ca. 2002). Plaintiffs fail to identify who
knowingly and wrongfully failed to stop Barone from
publishing his “Strong Buy” rating.
Plaintiffs assert that UBS failed to disclose to PW
customers’ conflicts of interest between PW’s brokerage business and options-administration contract with
Enron and the nonpublic information about Enron’s financial status and “questionable business practices”
obtained by Warburg bankers. Defendants highlight

App. 172
the fact that Plaintiffs do not allege that PW’s conflicted internal business practices caused Enron to
collapse nor facts showing scienter regarding any
omissions involving Enron’s financial condition.
Nor does the complaint provide facts giving rise to
a strong inference that any PW employer possessed
nonpublic information about Enron or “questionable
business practices” allegedly known to Warburg bankers. The complaint references a conversation between
Warburg banker Jim Hunt and PW branch manager
Pat Mendenhall on August 24, 2001 about Wu, three
days after Wu was fired. #122 ¶¶ 93-94, 102, 110.71
There is no allegation that they discussed Enron’s financial status. There is a vague allegation that an outside consultant, Craig Ellis, once used the phrase,
“cook the books Enron,” during a meeting of PW brokers, but the statement does not give rise to a strong
inference that any PW employee knew any specific
facts about Enron’s financial condition. #122 ¶ 81.
There is no assertion that this consultant ever told any
PW broker even one fact about Enron’s finances; instead
the complaint states that Craig Ellis was “silenced.” Id.
 For purposes of the motion to dismiss only, Defendants
concede that Wu was wrongfully fired by Pat Mendenhall solely
to curry favor with Enron’s human resources executives, but emphasize that Plaintiffs provide no logical link between Wu’s termination and their securities fraud claim that someone at PW
knew something about Enron’s “true” financial condition but
failed to disclose that information to PW customers despite a duty
to do so. #126 at pp. 41-42. Even though he had no duty to disclose
to his non-discretionary-account clients, Wu did disclose to them
what his own independent research found about Enron’s precarious financial condition.
71

App. 173
Moreover the pages addressing publicly disclosed sales
of Enron stock by Enron insiders do not show knowledge by PW, a third party, of Enron’s risky financial
condition. They also fail to state how many shares of
Enron stock were retained by each [sic] these insiders
to allow a determination of whether any executive sold
most of his holdings or kept a substantial exposure to
Enron. Newby, H-01-3624, #1269 at 18-22 (“Whether
there is an unusual or suspicious pattern of insider
trading may be gauged by such factors as timing of the
sales (how close to the period’s high priced [sic]), the
amount and percentage of the seller’s holding sold, the
amount of profit the insider received, the number of
other insiders selling, or a substantial change in the
volume of insider sales. There is no per se rule for what
constitutes illicit insider trading, and each case must
be decided on its own facts. ‘[M]ere pleading of insider trading without regard to either context or the
strength of the inferences to be drawn, is not enough.’
Context is critical to the analysis. For example, sudden
and substantial trading may not be suspicious where
the seller was legally prohibited from trading during
the period before the alleged insider trading.”). Allegations of sales of a corporation’s stock by insiders, without more, are not sufficient to plead knowledge of that
corporations’s [sic] financial health even by those insiders. See, e.g., Tellabs, 551 U.S. at 323 (“[I]n determining whether the pleaded facts give rise to a ‘strong’
inference of scienter, the court must take into account
plausible opposing inferences.”).

App. 174
Nor have Plaintiffs alleged facts showing that
PW employees were severely reckless for not obtaining
nonpublic information about Enron. Retail brokers
have long been barred from seeking material nonpublic information from another division of a financial institution to assist their clients in investment decisions;
indeed they must erect Chinese Walls to prevent the
flow of information in a multi-service financial institution and stop their employees from illegally obtaining
and trading on nonpublic information.
As for those Plaintiffs who claim to have held their
options or Enron securities without trading during the
Class Period, under the 1934 Act they must be dismissed. Krim, 989 F.2d at 1443 & n.7, citing Blue Chip
Stamps, 421 U.S. 723. See also Merrill Lynch, Pierce,
Fenner & Smith, Inc. v. Dabit, 547 U.S. 71, 79 (2006)
(private remedy under section 10(b) and Rule 10b-5 is
limited by the “in connection with the purchase or sale
of any security” to purchasers and sellers of securities
and does not extend to holders of securities over the
class period for policy reasons, including the danger of
vexatious litigation); in accord Roland v. Green, 675
F.3d 503, 511-12 (5th Cir. 2012), aff ’d sub nom. Chadbourne & Parke LLP v. Troice, 134 S. Ct. 1058 (2014)
(“a fraudulent misrepresentation or omission is not
made ‘in connection with’ a purchase of [sic] sale of a
covered security unless it is material to a decision to
buy or to sell a covered security”).
Furthermore Plaintiffs fail to plead that any acts
or omissions by Warburg or PW caused Plaintiffs’ losses.
Dura Pharmaceuticals, 544 U.S. at 342 (a plaintiff must

App. 175
prove that the defendant’s misrepresentation or other
fraudulent conduct proximately caused the plaintiff ’s
economic loss). The complaint’s allegations of loss causation do not distinguish between PW and Warburg
even though they are required to separately plead each
act or omission alleged to violate Rule 10b-5 as to each
separate defendant. 15 U.S.C. § 78u-4(b)(4); Southland, 365 F.3d at 364-65. Thus they fail to allege loss
causation against both entities. Plaintiffs do not make
any allegations of public disclosures of business practices or conflicts of interest at any time while Enron’s
stock was trading nor allegations that PW’s brokerage
practices affected Enron’s stock price in any way prior
to its bankruptcy. As noted earlier, in Public Employees
Retirement System of Mississippi, Puerto Rico Teachers
Retirement System v. Amedisys, Inc., 769 F.3d 313, 32021 (5th Cir. 2013) (citations omitted), the Fifth Circuit
held,
To establish proximate causation, the plaintiff
must allege that when the “relevant truth”
about the fraud began to leak out or otherwise
make its way into the market, it caused the
price of the stock to depreciate and, thereby,
proximately caused the plaintiff ’s economic
harm. Loss causation in fraud-on-the-market
cases can be demonstrated circumstantially
by “(1) identifying a ‘corrective disclosure’ (a
release of information that reveals to the market the pertinent truth that was previously
concealed or obscured by the company’s fraud);
(2) showing that the stock price dropped soon
after the corrective disclosure; and (3) eliminating other possible explanations for this

App. 176
price drop so that the factfinder can infer that
it is more probable than not that it was the
corrective disclosure--as opposed to other possible depressive factors--that caused at least a
‘substantial’ amount of the priced drop.”
Defendants observe that the complaint fails to identify
any public disclosures about PW’s business practices
or conflicts of interest at any time when Enron’s stock
was trading and thus Plaintiffs fail to plead loss causation. Glaser v. Enzo Biochem, Inc., 464 F.3d 474, 47980 (4th Cir. 2006) (claim was properly dismissed where
the complaint established that the defendants alleged
misrepresentations were not revealed to the market
until after the company filed bankruptcy), cert. denied,
549 U.S. 1304 (2007); D.E. & J. Ltd. Partnership v. Conaway, 133 Fed. Appx. 994, 1000 (6th Cir. June 10, 2005)
(affirming dismissal where complaint failed to allege
that K’Mart’s bankruptcy announcement disclosed
any prior misrepresentations to the market). Since
Plaintiffs here do not allege any drop in the price of
Enron’s stock during the class period that they claim
was based on the market’s learning of PW’s brokerage
practices or conflicts of interest, their 1934 Act claims
against PW fail.
Last of all, Defendants maintain that Plaintiffs’
claims, expressly brought on behalf of all persons who
purchased or acquired Enron employee options or acquired Enron common stock through the exercise of such
an option (#122 ¶ 16(iii), (iv)) fail to allege that PW violated Section 11 or 12 of the 1933 Act. Defendants
agree with Plaintiffs that Enron employees did not

App. 177
“purchase” or “sell” stock options received from Enron;
both Sections 11 and 12 “are by their terms expressly
limited to purchasers or seller of securities.” Blue Chip,
421 U.S. at 735-36; 15 U.S.C. § 77k(a) (any person
“acquiring” a security may sue under Section 11); 15
U.S.C. § 1 (any person “purchasing” a security may sue
under Section 12). To qualify as an underwriter of Enron employee options under Section 11, PW would have
had to purchase options from Enron, “offered” or “sold”
options for Enron in connection with the distribution
of employee options by Enron. 15 U.S.C. § 77b(11).
Because a corporation’s grant to employees of an involuntary, noncontributory employee benefit plan, such as
an employee stock option plan (17 C.F.R. § 230.405),
does not constitute a “sale” under the 1933 Act, PW
cannot be liable for any losses arising out of Enron’s
grants of options to its employees. They also agree that
after the issuance of Daniel, 439 U.S. 551 (holding that
a compulsory, noncontributory pension plan did not
constitute an “investment contract” and was therefore
not a “security” within the meaning of the 1933 and
1934 Acts), the SEC’s “1980 release,” 45 F.R. 8962,
made clear that for the registration and antifraud provisions of the 1933 Act to apply, there must be an offer
or sale of a security. It observed that although stock
bonus plans or “plans under which an employer awards
shares of its own stock to covered employees at no direct cost to the employees,” did provide employees with
a security (corporate stock), “there is no ‘sale’ in the
1933 Act sense to employees, since such employees do
not individually bargain to contribute cash or other
tangible or definable consideration to such plans.”

App. 178
Id. at 8968. The “no-sale” doctrine applies to grants of
employee stock options, which are a type of employee
benefit plan. See, e.g., SEC Release No. 33-6455, Interpretive Release on Regulation D, 48 F.R. 10045 (Mar.
10, 1983) at Question 78 (“In a typical plan, the grant
of [employee stock] options will not be deemed a sale of
a security for purposes of the Securities Act.”).
Defendants point out that the Enron plans expressly indicate that Enron’s grants of options to employees were noncontributory: they state that “any
employee” was eligible to receive awards of Enron
stock options, that “awards shall be granted for no cash
consideration or for such minimal cash consideration
as may be required under applicable law,” that no employee or other person eligible to participate in the
plan had any right to be awarded stock options, and
that grants of options could be made to discharge Enron’s contractual obligations or “in payment of any
benefit or remuneration payable under any compensatory plan or program.” Lomuscio Decl. Ex. 20 (Enron
Corp. 1994 Stock Plan) at § 4.1 (cited at Complaint
¶¶ 230, 234), § 5.3(i) (id. at § 7.1), and § 5.3(vii). See
also Lomuscio Decl. Ex. 21 (Enron Corp. 1999 Stock
Plan) at §§ 4.1, 5.3(i), 5(3)(vii), 7.1, cited at Complaint
¶¶ 230 and 233); and Ex. 22 (Enron 1991 Stock Plan at
§§ 4.1, 5.4(I), 8.1, cited at Complaint ¶ 230, 233). In
sum, because there was no “purchase or sale” when Enron granted stock options to its employees, Lampkin,
Ferrell, Swiber and Nelson’s 1933 Act claims must be
dismissed. Complaint (#122) at ¶¶ 5,7,9,10.

App. 179
These claims, however, must also be dismissed because Enron’s grant of stock options to its employees
was not a registered offering. As noted, the 1980 Release required an offer or sale of a security for the registration and antifraud provisions of the 1933 Act to
be applicable. The Enron Forms S-8 cited by Plaintiffs
demonstrate that they registered only Enron common
stock that could be acquired by optionees upon the
exercise of their options. Lomuscio Decl., Exs. 23, 24, 25
(Enron Corp. Forms S-8 filed Jan. 26, 2001 in connection with the 1991, 1994, and 1999 Stock Plans), at 1.
Enron’s Plan documents also state, “The Company intends to register . . . the shares of Stock acquirable pursuant to Awards under the Plan.” Lomuscio Decl. Exs.
22, 20, and 21. (Enron 1991, 1994, and 1999 Stock
Plans) at § 5.3(v). The General Instructions to Form
S-8 demonstrate that the form is available for registration of securities to be offered under any employee benefit plan,” e.g., “the exercise of employee benefit plan
options and the subsequent resale of the underlying
securities.” Lomuscio Decl. Ex. 26 (SEC Form S-8, General Instructions) at § 1(a). #126 at p. 56.
Finally Defendants insist that no named Plaintiff
has standing to assert a 1933 Act claim based on the
acquisition of Enron stock by exercising Enron options
because the complaint and the affidavits attached to
the complaint fail to state that any named plaintiff
ever exercised his stock options and acquired Enron
stock, not to mention that he or she lost money on such
shares, or to plead facts tracing those shares to any
registration statement or prospectus identified in the

App. 180
complaint. Thus the named Plaintiffs cannot represent
a class of persons who hypothetically could bring viable 1933 Act claims.
Plaintiffs’ Response (#148; Index of Authority
#149-164)
As in a similar MDL 1446 case with respect to the
1934 Act claims against the same UBS Defendants,
Giancarlo, et al., v. UBS Financial Services, et al., H03-4359, #175, Plaintiffs here distinguish their claims
from those in Newby by explaining that their claims
arise from UBS’s relationship to Plaintiffs as their securities broker, as a U.S. broker-dealer, and as a member of self-regulated securities organizations, which
owed Enron investors an admitted duty72 “to comply
with the associated regulations establishing the practices and standards of care such broker-dealers are required to follow in connection with their retail
customers.” #148 at pp. 4-5, citing Complaint (#122) at
¶¶ 118 43-44, 117-18, 226-27. UBS also served as some
Plaintiffs’ stock options plan’s statutory underwriter
and sales conduit for securities distributed under the
plans for claims under Section 11. #122 ¶¶ 279-88.
UBS allegedly recklessly elevated Enron’s business interests and UBS’s own profits above its retail Enron
investors’ interests, in a conflict of interest in which
UBS breached its brokerage duties to Plaintiffs. #122
 See Declaration of David L. Augustus (“Augustus”), #109123, “Attachment 1,” UBS Form F-1 Registration Statement at
42-45; id. “Attachment 2,” UBS Compliance Sales Practice Policy
Manual at pp. 215-21.
72

App. 181
¶¶ 119-73. UBS also planned and participated with
Enron in the five transactions identified in the complaint and other investment banking activities, which
provided UBS with the knowledge that Enron’s public
financials were misstated. Id. In violation of its duties
to its retail investor clients, UBS (1) made undisclosed
agreements with Enron not to fulfill UBS’s duty to its
retail investor customers, who were acquiring, purchasing and/or holding Enron securities during the
Class Period (id. at ¶¶ 74-81, 111-19, and 223-24;
(2) secretly allowed Enron to exercise control over
UBS’s retail operations (id. at ¶¶ 92-110); (3) did not
follow UBS’s own established protocols and procedures
to protect its Enron-owning retail customers from the
Enron fraud and accounting violations, of which UBS
was aware (id. at ¶¶ 223-27; and (4) failed to disclose
its substantial conflict of interest when it was rapidly
minimizing its own Enron default exposure in the public securities market while promoting the purchase of
Enron securities to its retail customers (id. at ¶ 187).
UBS’s actions “violated [its] communications duties
and created additional duties of care, full disclosure,
and fair dealing, arising from UBS’s own policies and
industry regulations implementing the federal securities laws.”73 #148 at p. 6.
 See GMS Group, LLC v. Benderson, 326 F.3d 75, 81-82 (2d
Cir. 2003) (Although there is no right of action for simply violating
NASD rules, violation of NASD Rules 2860(19) and 2310, which
govern the conduct of NASD members and address the suitability
of securities recommendations, are relevant for purposes of § 10(b)
unsuitability claims); Hoxworth v. Blinder, Robinson & Co., 903
F.3d 186, 200 (3d Cir. 1990) (violations of NASD rules may be
73

App. 182
As for the structure of UBS, although Defendants
attempt to distinguish the three separate entities comprising UBS, Plaintiffs argue that the complaint (#122
at ¶¶ 27, 32, 35-36, 38, 44 and 94) asserts, and the
Court must accept as true for purposes of the motion
to dismiss, that UBS is an “integrated business enterprise,” with Warburg and PW under UBS AG, as evidenced by its business operations during the Class
Period. #148 at p. 7. See also Augustus Decl., #109, “Attachment 3,” p. 18, The Making of UBS (3d ed. March
2006); Attachments 4-11; Attachment 1 at pp. 11-12.74
The Lampkin Plaintiffs challenge the same five
transactions as the Giancarlo Plaintiffs: (1) the two
restructurings of the equity forward contracts as disguised loans, not as net share settling of existing contracts and new replacement contracts; (2) the E-Next
Generation facility, allegedly structured to keep the
facility off Enron’s balance sheet and to provide Enron
with a $600 million loan in direct violation of UBS’s
investment banking, tax, legal, and accounting or regulatory protocols; (3) the Yosemite IV prepay transactions, with Plaintiffs arguing that UBS’s issuance of
the credit linked notes and the prepay commodity forward arrangement were not independent transactions,
probative in demonstrating a course of conduct amounting to
fraud); Declaration of Augustus, #109, “Attachment 2,” at pp. 10,
12, 29-33, and 55-57. Plaintiffs ignore Fifth Circuit cases rejecting
these as independent bases for primary violations of the securities
statutes.
74
 The Court notes that these publications are not subject to
the pleading requirements of the PSLRA; Plaintiffs’ complaints
are.

App. 183
but interdependent pieces of a single integrated transaction in which UBS participated, contrary to Defendants’ claims75; and (4) the issuance of Osprey notes and
the allegations that all the banks were aware that specific disclosures were removed from the offering memorandum (#122 at ¶ 154), to which UBS has not offered
any disagreement.
Regarding the ratings of UBS energy sector debt
analyst Stewart Morel, Plaintiffs, citing to Morel’s deposition,76 point out that Morel published his research
reports on Enron bonds for the UBS fixed-income
group, which provided them to UBS institutional clients for investment decisions, and that Morel as well
sent them directly to UBS personnel and clients and to
anyone in UBS that wanted them. Morel’s reports were
not “hidden.”
Plaintiffs claim that Rule 10b-5’s requirement
that a primary violator directly or indirectly engage in
a manipulative or deceptive, nonrepresentational act,
which is at the center of this case,77 is satisfied by
 To Defendants’ contention that Plaintiffs’ pleadings about
the mechanics of Yosemite IV are conclusory and vague, Plaintiffs
respond that they have alleged facts showing that UBS knew the
Yosemite structures used a circular commodity swap to give Enron upfront cash and eliminate price risk exposure between the
parties, thus constituting a loan to Enron. #148 at p. 29, citing
Complaint, #122 at ¶¶ 156-59.
76
 Augustus Decl., Ex. 30.
77
 As opposed to Newby, in which the theory of liability centers around allegations that various financial institutions worked
together with Enron to create a false financial appearance. #148
at p. 35.
75

App. 184
allegations of UBS’s continuous failure to disclose to
its retail investing clients, to whom UBS, operating as
a single, fully integrated entity comprised of Warburg,
PW and their corporate parent UBS AG, owed duties
of disclosure. Those duties of disclosure distinguish
this case from Newby, as does UBS’s institutional material knowledge (gained through participation with
Enron mainly in the five transactions) that Enron’s
public financial appearance was unreliable and materially misleading and that UBS failed to act in accordance with its own established guidelines to suspend
analyst coverage and restrict sales. Complaint, #122
¶¶ 25, 42, 52, 116-18, 173, 188-90, 226-27. See In re
Enron, 235 F. Supp. 2d at 569 n.9 (“In Santa Fe [Industries, Inc. v. Green, 430 U.S. 462, 470 (1977)] the Supreme Court defined ‘deception’ as used in § 10(b) as
the making of a material misrepresentation or the nondisclosure of material information in violation of a
duty to disclose. . . . Thus the statute prohibits only the
making of a material misstatement (or omission) or
the commission of a manipulative or deceptive act.”).
Plaintiffs agree with Defendants that the regulatory
duty of disclosure in a nondiscretionary account is
limited to executing an investor’s order, but Plaintiffs
also emphasize as a matter of law that “anyone in possession of material inside information must either
disclose it to the investing public, or, if he is either disabled from disclosing it in order to protect a corporate
confidence, or if he chooses not to do so, must abstain
from trading in or recommending the securities concerned while such inside information remains undisclosed.” SEC v. Texas Gulf Coast Sulphur Co., 401 F.2d

App. 185
833, 848 (2d Cir. 1968) (en banc), cert. denied sub nom.
Coates v. SEC, 394 U.S. 976 (1969). This rule applies
not only to corporate insiders, but also “to one possessing the [material inside] information who may
not be strictly termed an ‘insider.’ ” Id. UBS had both
greater access to information concerning Enron’s financial manipulations and a special financial advisor/
client relationship with Plaintiffs that gave rise to specific duties of disclosure, but failed to disclose material
information to its retail clients or the public at large,
nor did it abstain from trading or recommending Enron securities.
Plaintiffs also object that they have not engaged
in group pleading, but have identified specific officers
of UBS who had knowledge that Enron’s public financial statements were materially misleading, when
these officers had this knowledge, and what they knew.
Complaint, #122 ¶¶ 124, 130, 137-44, 150, 152, 157-59,
161, 164, 165, 170, 176, 179, and 187.78 Plaintiffs claim
 The Court observes that ¶ 124 merely states, “On May 17,
1999 Fastow approached Jim Hunt with a proposition that would
allow Enron to extract value from the ‘Equity Forward] contracts
by using the UBS hedge shares . . . in the amount of the difference
between the Forward Price and the increased market value of the
shares, which was approximately $30 per share.” As the Court
explained on pages 11-12, this is the way the contracts were supposed to work and there was nothing deceptive or fraudulent
about them. Paragraph 130 simply names officers for UBS and
Enron on a conference call discussing the restructuring of the Equity Forward Contracts, again a matter not innately deceptive or
illegal. The same appears to be true of the substance of all of the
listed paragraphs. At most the allegations once again amount to
aiding and abetting Enron in effectuating a fraud on investors
and the public.
78

App. 186
that the information was not a series of disconnected
facts, but an interrelated universe of facts [that] was
communicated through out a substantially unchanged
group of top UBS officers during a relatively short period of time and eventually even made its way to the
apex of the global organization.” #122 ¶ 176. The core
group of UBS top executives that managed UBS’ relationship with Enron included Jim Hunt, Kimberly
Blue, Michael Collins, Karsten Berlage, and Wendy
Field. #122 ¶¶ 49-50, 130, 139-42, 150, 157-58, 161,
163-65. In addition the executive credit team composed
of Bill Glass, Bob Verna, Roger Bieri, Chris Glockler,
and Steve Landowne served as a center for information
about Enron and the risk Enron posed. #122 ¶¶ 130,
163-65, 176-77.
Scienter can be shown in part by pleading facts indicating a defendant’s regular pattern of related and
repeated conduct, involving an appreciation by UBS of
the situation and a severely reckless failure to take action consistent with the standard of ordinary care to
address such danger. For example, UBS mandated that
Enron pay it $375 million in cash in September and
October 2001 (#122 ¶¶ 182-86), virtually immunizing
itself from Enron’s creditors in bankruptcy because in
early April 2001 a UBS risk committee, including Bill
Glass, had identified Enron as one of only three companies that UBS did “not like” (#122 ¶ 164). Subsequent
transactions that closed and created credit exposure to
Enron had to be approved and the exposure had to be
sold or hedged (#122 ¶ 164). UBS also took steps increasingly to eliminate its credit exposure to Enron

App. 187
(#122 ¶ 187). For example in June-July 2001, UBS issued and sold JPY (Japanese Yen) 20 billion (approximately $163 million) worth of UBS securities to a
foreign investor, pursuant to which UBS’s repayment
obligations were linked to Enron creditworthiness.
#122 ¶ 174. If Enron filed bankruptcy or defaulted on
its payment obligations to UBS, UBS could avoid repayment of its debt to this institutional investor. Id.
UBS used this issuance to obtain essentially a $163
million credit default sway from the unknowing investor. Another example, in July 2001 UBS held a cumulative face value at maturity of $261,800,000 worth of
Zero Coupon Convertible Senior Notes Due in 2011,
which UBS had Enron register for public sale; UBS
then sold the notes into the market and reduced its exposure to Enron. #122 ¶ 175. The outstanding equity
forward contracts constituted UBS’s most significant
exposure to Enron in 2001. UBS negotiated specific
concessions from Enron that would allow UBS to unwind its position fully with a stock price as low as $9.93
per share and stop Enron from offering better terms to
any other bank before UBS agreed to amend the early
termination provisions of the contracts. #122 ¶¶ 17778. It ultimately managed to settle part and terminate
part of the contracts, forcing Enron to pay the remaining
balance of $153,453,776.44 and another $22,347,457.54
on a separate entity swap contract maturing on October 24, 2001, then sold 2.2 million shares of Enron common stock into the market, and ended its relationship
with Enron.

App. 188
Lampkin, Ferrell and Swiber’s 1933 Act claims
against UBS under Sections 11 and 12 are solely
against PW, as a statutory underwriter and seller. UBS
makes only two arguments to support its motion to
dismiss these claims: (1) Plaintiffs did not “purchase”
registered securities through the Enron stock plans because a corporation’s grant to employees of an interest
in an involuntary, noncontributory employee benefit
plan, such as an employee stock option plan, does
not constitute a “sale” under the 1933 Act, and (2) the
Plaintiffs lack standing to assert claims under the
1933 Act. #126 at pp. 53-55 and n.33.
Plaintiffs contend that the “no sale” doctrine does
not apply to Enron’s employee stock option plans. See
Int’l Brotherhood of Teamsters, Chauffeurs, Warehousemen, and Helpers of America v. Daniel, 439 U.S. 551,
570 (1979) (holding that “the Securities Acts do not
apply to a noncontributory, compulsory pension plan”
because an employee’s participation in such a plan
does not involve an “investment contract” under Section 21(1) of the Securities Act; for the registration and
antifraud provisions of the Securities Act to be triggered there must be an offer of sale of a “security.”79);
SEC Release No. 33-6188, Employee Benefit Plans: Interpretations of Statute, 45 F.R. 8960 (Feb. 11, 1980),
codified at 17 C.F.R. 231 (the “1980 Release”) (seminal

79

 Decl. of Augustus, Attachment 36 at p. 467.

App. 189
document on the “no sale” doctrine) (available at 1980
WL 29482 (Feb. 1, 1980).80
 In In re Enron Corp. Securities, Derivative & ERISA Litigation, 284 F. Supp. 2d 511, 639-40 (S.D. Tex. 2003), since only
the purchaser or seller of securities may bring a private action for
damages under § 10(b) and Rule 10b-5, this Court explained,
Whether an employee’s interest in an employment retirement (pension) benefit plan constitutes as “security”
within the meaning of the Securities Act of 1933 and
the Securities Exchange Act of 1934 . . . depends on
whether the plan is “voluntary or involuntary, and contributory or noncontributory.” The S.E.C. defined a “ ‘voluntary’ plan [as] ‘one in which the employees may elect
whether or not to participate,’ ” while a “contributory”
plan is “one in which employees make direct payments,
usually in the form of cash or payroll deductions, to the
plan.” [The 1980 Release, 1980 WL 29482 at *6 and nn.
19, 20]. In other words, a “noncontributory” plan would
be one where the employer makes all the contributions.
The interests of employees in an employee benefit plan
“are securities only when the employees voluntarily
participate in the plan and individually contribute
thereto.” Id. at *2, 7. On the other hand, “ . . . the Securities Acts do not apply to a noncontributory, compulsory plan.” Id. at *8, citing [International Brotherhood,
439 U.S. at 570]. The SEC has long taken the position
that interests in voluntary contribution pension and
profit-sharing plans are “securities” because “such interests constitute investment contracts. . . .” . . . .The
SEC’s Chairman stated before the Senate Committee
on Human Resources on the antifraud provisions of the
proposed ERISA Improvements Act of 1979 (S.209),
An employee who is given a choice whether
to participate in a voluntary pension plan
and decides to contribute a portion of his earnings or savings to such plan, has clearly made
an investment decision, particularly when his
contribution is invested in securities issued
80

App. 190
Insisting that the “no sale” doctrine is concerned
with whether or not a particular situation involves a
“security” under the 1933 Act, Plaintiffs claim that
UBS misuses the “no sale” doctrine to argue that there
is no “purchase” of a security by Plaintiffs in connection with their 1933 Act claims. Plaintiffs maintain
that it is undisputed that a stock option is a security.
15 U.S.C. § 77b(1). The SEC has also proclaimed that
“stock options are a separate equity security under the
Exchange Act” and that unless an exemption applies,
these securities must be registered. Therefore the entire offering and distribution process created by the
Enron Stock Plans is subject to these registration requirements, not merely the securities offered and distributed pursuant to them. Plaintiffs argue that the 1980
Release specifically address [sic] stock option plans:
The Commission’s belief that the registration
provisions of the 1933 Act should be applicable to voluntary contributory plans which involve the purchase by employees of employer
stock is supported by the legislative history of
by his employer. Id. (noting that the reasoning in Daniel supports the view that the employee’s interest in a voluntary, contributory
plan is an investment contract).
This Court observes that Enron’s stock option plans were involuntary and noncontributory. As noted earlier, after Daniel its
progeny expanded Daniel’s reasoning to all employee benefit
plans. Under that reasoning, Enron’s employees’ interests in the
Enron stock option plans were not interests in an investment contract and thus not securities. Moreover, as discussed previously,
the SEC’s 1980 Release changed its position to accord with the
holding in Daniel.

App. 191
the Act. In 1934 Congress considered and rejected a proposed amendment to the Act that
would have exempted employee stock investment and stock option plans from the Act’s
registration provision. That amendment, which
had been passed by the Senate but was eliminated in conference, was not adopted “on the
ground that the participants in employees’
stock investment plans may be in as great
need of the protection afforded by the availability of information concerning the issuer for
which they work as are most members of the
public.
Decl. of Augustus, Attachment 36 at p. 471. Thus the
1991, 1994, and 1999 Enron Stock Plans fall inside the
boundaries of stock option benefit plans that are subject to the registration requirements of the Securities
Act. The SEC’s interpretation of the securities laws is
entitled to deference. See generally Chevron U.S.A., Inc.
v. NRDC, Inc., 467 U.S. 837 (1984).
Plaintiffs note that UBS’ claims that the “SEC
noted that although ‘stock bonus plans,’ or ‘plans under
which and [sic] employer awards shares of its own
stock to covered employees at no direct cost to the employees,’ did provide employees with a security (corporate stock), #126 at p. 54, ‘there is no ‘sale’ in the 1933
Act sense to employees since such employees do not individually bargain to contribute cash or other tangible
or definable consideration to such plans.” Asserting
that UBS tries to obfuscate the issue by treating as
equals “stock option plans” where the interest received
by the employee is itself a “security,” and other types

App. 192
of employee benefit plans that involve securities but do
not involve an investment decision with regard to
them. Plaintiffs contend that stock option plans force
an employee to make an investment decision, i.e., to
exercise the option security and sell the underlying
stock, to exercise the option security and hold the
stock, or to do nothing and allow the option security to
expire unexercised. The SEC has asserted, “Employees
making such decisions should continue to be afforded
the protections of the anti-fraud provisions of the Federal Securities Law.” Decl. of Augustus, Attachment 36
at 475. Moreover, the employee has to pay Enron for
the stock when he exercises his stock option, thereby
contributing cash under the plan’s provisions.
Plaintiffs demonstrate that the Enron Stock Plan
includes provisions for when and how the exercise is to
be accomplished, the option agreement, and other issues regarding the grant and exercise of the Enron
stock option. #148 at p. 67. It alone governs the grant
of Enron stock options. UBS, on the other hand, fails to
point to a separate Enron employee benefit plan governing the grant of stock options to support its argument that options are an independent “species of
employee benefit plan.”
Plaintiffs cite Falkowski v. Imation Corp., 309 F.3d
1123, 1129-30 (2002), amended on other grounds, 320
F.3d 905 (9th Cir. 2003) (addressing the “in connection
with” element of preemption under the Securities Litigation Uniform Standards Act (“SLUSA”) and holding
that because the 1933 and 1934 Acts define the purchase or sale of a security to include any contract to

App. 193
buy or sell a security, and because it follows from Congress’ definition that if a person contracts to sell a security, that contract is a “sale” even if the sale is never
consummated, the grant of an employee stock option
on a covered security is a sale of that covered security
[known as the “aborted purchaser-seller doctrine]”),81
as rejecting the application of the “no sale” doctrine
to the distribution of employee stock options. Id. at
1129 (“Both the 1933 and 1934 Acts define the purchase or sale of a security to include any contract to
buy or sell a security.”82), citing 15 U.S.C. §§ 77b(a)(3),
78c(a)(13)-(14), and Blue Chip Stamps, 421 U.S. at
 In Proctor v. Vishay Intertechnology, 594 F.3d 1208, 121920 (9th Cir. 2009), the Ninth Circuit points out that the suggestion in Falkowski that SLUSA completely preempted state law
was abrogated by Kircher v. Putnam Funds Trust, 547 U.S. 633,
636 n.1 (2006):
SLUSA “does not itself displace state law with federal
law but makes some state-law claims nonactionable
through the class action device in federal as well as
state court.” In other words, SLUSA does not provide a
federal rule of decision in lieu of a state one, but instead
provides a federal defense precluding certain state law
actions from going forward. Thus, what we termed
complete preemption in pre-Kircher cases, by which we
are no longer bound on this issue . . . is actually a federal preclusion defense, and would not fall under the
complete preemption exception to § 1331’s well-pleaded
complaint rule.
82
 “The grant of an employee stock option on a covered security is therefor a ‘sale’ of that covered security. The option is a
contractual duty to sell a security at a later date for a sum of
money should the employee choose to buy it. Whether or not the
employee ever exercises the option, it is a ‘sale’ under Congress’s
definition.” Falkowski, 309 F.3d at 1130.
81

App. 194
751.83 Thus state law fraud claims relating to employee
stock options are preempted by the Securities Litigation Uniform Standards Act (“SLUSA”) because the alleged fraud took place “in connection with the purchase
or sale of a covered security.”84 Falkowski, 309 F.3d at
1126. Plaintiffs claim that since Falkowski no other
court has returned a contrary decision; in fact courts
reviewing the issue have agreed with Falkowski.85 See
 The Ninth Circuit in Falkowski, 309 F.3d at 1130, opined
regarding “the SEC’s no-sale doctrine, which provides in part that
a grant of stock under an Employee Stock Ownership Plan or similar stock bonus program is generally not a ‘sale’ under the 1933
Act,”
[I]t is inapplicable here. Unlike stock bonus plans,
stock option plans involve contracts to sell stock for
money at a later date (stock that is indisputably a “security”). Whether or not an option grant is a sale in the
lay sense, it is a sale under the securities laws because
it is a contract to sell a security when the option is exercised. We reject the contrary holding of In re Cendant
Corp. Sec. Litig., 76 F. Supp. 2d 539, 545 (D.N.J. 1999).
84
 Subsequently in Kircher v. Putnam Funds Trsut [sic], 547
U.S. 633, 636 n.1 (2006) clarified that SLUSA “does not itself displace state law with federal law, but makes some state-law claims
nonactionable through the class action device in federal as awell
[sic] as state court.” Proctor v. Vishay Intertechnology, Inc., 584
F.3d 1208, 1219 (9th Cir. 2009); in accord Romano v. Kazacos, 609
F.3d 512, 519 n.2 (2d Cir. 2010) (“SLUSA is a preclusion, not a
preemption statute” and citing Kircher).
85
 Defendants point out, #167 at p. 30 & n.18, that Falkowski
deals with a sale under the 1934 Act, which, unlike a 1933 Act
“sale,” does not have to be “for value,” the key phrase in the 1933
Act that does not appear in the 1934 Act. 15 U.S.C. §§ 77b(3),
78c(a)(14); 1980 Release, 45 F.R. 8960, 8969 (“The key elements
in the [1933 Act definition of sale] from the standpoint of employee
benefit plans are the words ‘value’ and ‘solicitation of an offer to
buy,’ for without one or both the 1933 Act is inapplicable.”); Blue
83

App. 195
also order in an enforcement action filed by the SEC,
In the Matter of Google, Inc. and David C. Drummond,
Admin. Proceeding file No. 3-11795, Release No. 8523
(Jan. 13, 2005), in which the SEC stated that it does
not apply the “no sale” doctrine to the mass distribution of stock options to employees.86 Moreover, absent
an exemption from registration, an offering of stock

Chip Stamps, 421 U.S. at 733 & n.5 (noting “Congress’ separate
definition and use of [the term ‘sale’] in the 1933 and 1934 Acts”).
Moreover, argue Defendants, Falkowski erroneously states that
the SEC’s “no sale” doctrine applies only to stock bonus plans, and
not to stock option plans, a contention which is contrary to the
SEC’s practice for more than twenty-five years. See further discussion infra. Defendants insist there is no support for Plaintiffs’
contention that a 1933 Act “sale” took place when Enron made
compulsory, noncontributory grants of options to its employees.
As Matthew Bodie points out in Aligning Incentives with Equity: Employee Stock Options and Rule 10b-5, 88 Iowa L. Rev. 539,
556-57 (March 2003), in three decisions in which the courts found
ESOPS to be voluntary and contributory and therefore represented securities, there were key distinctions made that distinguished them from Falkowski. In Uselton v. Commercial Lovelace
Motor Freight, Inc., 940 F.2d 564 (10th Cir. 1991), the Tenth Circuit found that the employees contributed to the plan by forfeiting
17% of their wages and they were given a choice of whether to
participate or to continue receiving their full wages. Id. at 575. In
Hood v. Smith’s Transfer Corp., 762 F. Supp. 1274, 1290-91 (W.D.
Ky. 1991), the employees were permitted to choose whether to
participate in the plan and if they did, a 15% wage reduction
would be required, which the court found constituted contribution
by the employee. In Harris v. Republic Airlines, Inc., Civ. A. No.
86-2147, 1988 WL 56256, *4 (D.D.C. May 19, 1988), the employees “agreed to participate” and to contribute a wage cut of 15%.
86
 Defendants note that Google relates to Google’s failure to
comply with SEC Rule 701 and does not mention the “no sale”
doctrine.

App. 196
options must be registered under the Securities Act of
1933.
In addition to Form S-8, which registers both offer
and the sale of all securities issued to an employee
benefit plan, its Notes to General Instruction F states,
“Where a registration statement on this form relates
to securities to be offered pursuant to an employee
stock purchase, savings, or similar plan, the registration statement is deemed to register an indeterminate
amount of interests in such plan that are separate securities and required to be registered under the securities Act.”87 Rules 416(c) and 405 of the Securities Act
 Defendants object that General Instruction F concerns
only those securities that “are required to be registered under the
Securities Act,” and they argue that the grant of stock options under the 1933 Act is not deemed a “sale” and does not have to
be registered. See discussion infra. Furthermore the instruction
defines the number or securities deemed registered, not what
securities must be registered on Form S-8. See also 17 C.F.R.
§ 230.416(c) (similar language in regulation). Only underlying
stock, not the options themselves, must be registered. See, e.g.,
following SEC no-action letters: Dayton Steel Foundry Co., 1971
WL 6518 at *1 (July 8, 1971) (“It is the opinion of this office, that
the company may issue the options without registration because
no sale of a security is involved in the mere option grant,” but “the
underlying common stock could not be issued unless a registration statement was in effect at the time of exercise.”); Formation,
Inc., 1977 WL 11544 at *2 (Dec. 5, 1977) (“[W]e are of the opinion
that Formation may grant options under the Plan without registration under the [1933] Act since the mere issuance of such options does not involve a sale within the meaning of Section 2(3) of
the Act. We are also of the opinion that Formation will be required
to register the underlying common shares under the Act before
issuing or selling any of the shares upon exercise of the options
unless at such time the issuance of such shares would be exempt
from registration.”).
87

App. 197
also require registration of stock option plans. Although UBS argues that the distribution of stock options is separate from the distribution of Enron common stock, both distributions are part of the same plan
of distribution--the Enron Stock Plans--and require investment decisions by participants. The Form S-8 registers the entire offering, both of the common stock and
the stock options issued under the plan, although there
is no filing fee associated with the stock options; therefore the employee stock options, although not considered for purposes of the registration fee, are still
securities registered by the S-8 registration statements.
To fully own Enron common stock, an employee
must initially decide whether to invest in it and if so,
must pay for it. Their stock option plans were voluntary and contributory. Nor did Enron hide the fact that
it sought to raise money through the sale of Enron
common stock to its employees through the plans.
Arguing that UBS’s contention that because Enron failed to register its stock options by S-8 Forms,
Plaintiffs lack standing to assert a 1933 Act is incorrect, Plaintiffs insist that they have standing to assert
their 1933 Act claims as a subclass of plaintiffs who
purchased or acquired options to purchase Enron equity securities, and/or purchased or acquired Enron equity securities through the exercise of an option to
purchase Enron equity securities, pursuant to the registration statements and/or prospectuses pursuant
to the subject Enron stock option plans identified in
the complaint at ¶¶ 16, 228, and 269. The complaint

App. 198
asserts that Lampkin, Ferrell, and Swiber received
registered securities pursuant to the plans during the
defined class periods. #122 ¶¶ 5,7,9.
Regarding the claims of “holders,” Plaintiffs urge
the Court to reconsider and reject the holding in Blue
Chips Stamps and progeny that those who neither purchased nor sold Enron securities during the class period, but merely held onto them, lack standing to sue
for securities fraud because there is no federal remedy
for holders who are the victims of a fraud by issuers,
their brokers, their analysts, their accountants and
their banks.
Defendants’ Reply (#167)
Defendants object to Plaintiffs’ current argument
that PW’s status as Plaintiffs’ stockbroker and as a corporate affiliate of Warburg somehow changes the allegations of PW’s aiding and abetting of Enron’s fraud
into a primary violation of the securities laws. Plaintiffs now claim that a “core group” of Warburg bankers
learned material nonpublic information about Enron’s
“true financial condition,” that this knowledge is imputable to UBS AG, Warburg and PW as “institutional
knowledge,” that the three UBS entities owed a duty
to disclose this information to PW customers or to bar
those customers from trading Enron securities, but
that to “optimize” their fees from Enron Warburg and
PW did not disclose the information or suspend the
trading in Enron securities even though to have done
so would have prevented Plaintiffs’ resulting losses.

App. 199
Defendants contend that Plaintiffs cannot cite a single
case upholding what they claim is a “unique” theory.
Defendants maintain that Plaintiffs fail to allege
scienter adequately under § 10(b), i.e., to “distinguish
among those they sue and enlighten each defendant as
to his or her particular role in the alleged fraud” without indulging in impermissible group pleading. Southland, 365 F.3d at 365. Plaintiffs assert that knowledge
purportedly held by a few officers at Warburg or UBS
AG is attributable to PW by characterizing these three
legally distinct corporations as a “single business enterprise” with “institutional knowledge.” Plaintiffs fail
to allege what information any Warburg banker knew
or identify even one occurrence in which any PW employee obtained Enron-related material nonpublic information from Warburg, Enron or anyone else. Thus
they fail to plead scienter against Warburg, PW and
UBS AG.
Nor do Plaintiffs plead loss causation. At most,
Warburg’s transactions with Enron constitute aiding
and abetting Enron’s financial-statement fraud. Plaintiffs fail to explain how any PW brokerage practices
directly affected Enron’s stock price or to plead that
Enron’s stock price declined because of any public disclosure of PW’s dealings with Enron.
Defendants further point out that Warburg and
PW had established duties not to share information
with each other because they were required by federal
law to maintain a Chinese Wall between them. Moreover insider trading laws prohibited Warburg and PW

App. 200
from sharing any material nonpublic information with
Plaintiffs. For both reasons Plaintiffs’ argument that
because Warburg had material, nonpublic information
about Enron, Warburg and PW had a duty to disclose
it to PW’s customers is meritless.
While Plaintiffs’ omission-based fraud claims require them to plead they were owed a fiduciary duty,
Warburg did not have a fiduciary relationship with
PW’s clients, and Plaintiffs have failed to allege facts
showing that PW had one with them.
In addition, Plaintiffs fail to cite even one case upholding a claim under §§ 11 and/or 12 of the 1933 Act
based on an employer’s award of stock options to its
employees, no less against a third-party administrator
like PW. Such claims are meritless and unprecedented
and should be dismissed, insist Defendants.
Plaintiffs’ allegations about the five transactions
involving Warburg are at most claims of aiding and
abetting under the holding of Central Bank because
Plaintiffs assert that these transactions were used by
Enron to falsify its financial statements. Thus they fail
to state a securities fraud claim against Warburg or
PW as primary violators. Now Plaintiffs appear to have
shifted to a claim that these five transactions demonstrate Warburg’s knowledge of Enron’s wrongdoing.88
 Plaintiffs object that they indicated in their response to requests for production on October 17, 2005 regarding the five transactions detailed in the Complaint that UBS gained its knowledge
of Enron’s manipulation of its public financial appearance, but
chose not to reveal it to the market and instead foster its relationship with Enron to achieve Tier 1 banking fees from Enron; in
88

App. 201
As this Court indicated in its Opinion and Order in
Newby, H-01-3624, #5242 at pp. 16-17,89
[C]onclusory allegations that a defendant designed and structured an SPE or a transaction that was inherently deceptive will not
satisfy the pleading standards under the PSLRA
and Rule 9(b). Simply calling something a
“sham” or a “pretense” or a “fiction” does not
make a transaction a primary violation. Lead
Plaintiff must allege specific details that show
that a structure of the entity or a transaction
that was created by [the bank] was inherently
deceptive and that the bank used and employed it to deceive investors, not that Enron,
its officers and accountants subsequently
used the entity improperly to cook its books,
or that [the bank] engaged in acts, practices,
or course of business that operated as a fraud
or deceit on any person in connection with the
purchase or sale of an Enron security.
None of the transactions identified in the complaint satisfies this standard. Plaintiffs do not plead
anything inherently deceptive about the equity forward contracts, net share settlement, or the early termination of a financial contract. Nor have Plaintiffs
explained how Warburg, rather than Enron or its accountants, “used and employed” the restructurings to
other words, Plaintiffs argue that every aspect of UBS’s relationship with Enron is part of UBS’ fraud on the market. Decl. of Augustus, Ex. 1 at pp. 5-7. See also Complaint (#122) at par/117.
89
 Also available as In re Enron Corp. Securities, Derivative
& “ERISA” Litig., No. MDL 1446, Civ. A. No. H-01-362 2006 WL
6892915, at *5 (S.D. Tex. Dec. 4, 2006).

App. 202
deceive investors. Nor did Plaintiffs allege that any
requisite “purchase or sale” of an Enron security involving them occurred regarding the equity forward
contracts or their restructuring.
Nor have Plaintiffs asserted that Warburg created
the Osprey structure. Warburg only participated in a
follow-on offering of Osprey debt securities. Nothing
about the Osprey notes was “inherently deceptive,”
and Warburg did not “use and employ” Osprey to deceive investors. Any deception came from Enron’s sales
of assets to Whitewing at allegedly noneconomic prices
or the accounting treatment of those sales. Nor was
there a purchase or sale of an Enron security involving
Plaintiffs with respect to the Osprey notes.
Similarly Warburg did not create the Yosemite
structure as a whole, nor the Yosemite IV structure
particularly, but merely participated in a follow-on offering of credit-linked notes issued by a trust. There
was nothing “inherently deceptive” about the creditlinked notes. Warburg was not involved in the prepay
part of the Yosemite IV transaction, nor did it use and
employ the prepay to deceive investors. Nor were
Plaintiffs involved in any purchase or sale of an Enron
security regarding this offering of credit-linked notes.
The same is true for the E-Next Generation Credit
Facility, the structure of which Warburg also did not
create, but along with several other banks simply extended to it a line of credit. There was nothing inherently deceptive about the line of credit to construct the
power plants, regardless of whether it was recorded on

App. 203
the balance sheet by Enron. Nor did Warburg use and
employ it to deceive investors. Any deception was in
Enron’s accounting for it. Similarly, nor did any purchase or sale of an Enron security occur when money
was lent to E-Next.
Furthermore Defendants maintain that Plaintiffs
fail to allege scienter. Plaintiffs’ claim that the Court is
required to accept as true their assertion that Warburg, PW, and UBS AG function as a single business
enterprise is a textbook example of impermissible
group pleading. Plaintiffs must identify, but have not,
a particular employee of each defendant and what he
knew about Enron, when, why that information was
material or nonpublic, and what fraudulent acts or
omissions each such individual allegedly made or
failed to make. Southland, 365 F.3d at 365-66. Specifically Plaintiffs fail to allege with any particularity
what Warburg knew about Enron’s fraud. They fail to
cite any objective support for their conclusion that the
equity forward restructurings should have been accounted for as loans or that anyone at Warburg knew
that the Yosemite prepay constituted a “$775 million
direct loan” to Enron, or that anyone thought that Enron’s accounting treatment for a potential exposure
relating to the E-Next facility was wrong or would
not be disclosed. Plaintiffs’ vague statements about the
Osprey Note Offering and Waimea/Kahuma do not
indicate Warburg bankers’ beliefs about the timing,
amount, nature, and accounting propriety of Plaintiffs’
allegations regarding Enron’s “ineffective accounting
hedges,” “non-arm’s-length transactions,” “accounting

App. 204
for certain transactions as true sales at written up values,” and improper disclosures of debt.
Nor do they adequately plead what PW knew
about Enron’s fraud. The emails they mention do not
show a sharing of any Enron-related nonpublic information between Warburg and PW and had nothing to
do with Enron’s financial conditions or the risks that
Enron would be unable to service its debt and therefore
suffer financial collapse. Because they have not alleged
that any identified PW employee obtained nonpublic
information about Enron’s financial condition or about
Warburg of [sic] UBS AG’s credit exposure to Enron,
they cannot argue that any PW employee failed to disclose information that Plaintiffs have not shown they
possessed.
While Plaintiffs appear to agree that Enron’s actions caused the price of Enron stock to drop, Plaintiffs
contend that Defendants caused their losses because
somehow Defendants were aware of some part of Enron’s wide-ranging fraud and that it was “foreseeable”
that Plaintiffs’ losses would occur if the market discovered Enron’s fraud. Defendants insist that because
Plaintiffs cannot show that Warburg committed a primary violation of the securities laws by participating
in a transaction that affected Enron’s financial statements, they cannot plead loss causation against it
simply by asserting that Enron’s financial statements
were misleading. Defendants have shown that Plaintiffs failed to allege that any of PW’s brokerage practices were disclosed before Enron’s bankruptcy, so they
could not have caused Plaintiffs’ losses. In the same

App. 205
way, Plaintiffs cannot show that the failure to reveal
information that PW and/or Warburg possessed about
Enron’s financial condition caused Plaintiffs’ losses
when that information was revealed to the marketplace.
While Plaintiffs charge that Defendants failed to
act according to their own guidelines and Sales Practices Compliance Manual to suspend coverage and restrict sales of Enron stock (“the restricted list policy),
Plaintiffs fail to allege that PW’s purported policy
violations were a violation of Rule 10b-5 or caused
Plaintiffs’ losses. Furthermore, even if Plaintiffs placed
Enron stock on a restricted list, such placement would
not have affected Plaintiffs’ trading decisions because
investors desiring to trade that stock had numerous
other sources for information about Enron.
Moreover, insist Defendants, Plaintiffs mischaracterize PW’s “restricted list” policy. The policy manual
did not require PW to “suspend analyst coverage and
restrict sales” whenever the global UBS AG organization obtained material nonpublic information about an
issuer. PW’s policy manual actually states that securities may be placed on the Legal Restricted List “for a
number of reasons,” none of which is articulated in the
part of the manual cited by Plaintiffs. In addition,
Plaintiffs fail to attach that part of the manual immediately following the pages on which Plaintiffs erroneously rely. These pages contain a section entitled
“The Information Barrier,” “better known as the ‘Chinese Wall’ or the ‘Information Wall,’ between the banking side of the Firm (Investment banking, merchant

App. 206
banking, capital markets banking, syndicate, public finance, asset-backed or mortgage-backed banking, and
structuring activities), including banking, administrative, and support employees, and the marketing side of
the Firm (research, sales, trading and Firm administration).” This section demonstrates that the company policy did not require automatic suspension of
brokerage activities every time an investment banker
obtains material nonpublic information. See #169 at
pp. 35-37, Supplemental Decl. of Lomuscio. Instead PW
marketing employees were barred from breaching
the wall or “mak[ing] any effort to obtain inside information from any banking employee.” Id. at 36.
Even if Plaintiffs had adequately pleaded that
Warburg employees or PW employees possessed material nonpublic information concerning Enron and that
the failure to disclose this information caused Plaintiffs’ losses, these claims would still fail because Warburger [sic] and PW not only had no obligation to share
that information with Plaintiffs, but had affirmative
duties not to share it. Multi-service financial institutions have a duty to prohibit bankers from giving nonpublic information to other bank employees; in fact
barring such allows brokerage and research operations
to continue unimpeded by bankers’ “institutional”
knowledge. See Koppers Co., Inc. v. Am. Express Co.,
Shearson Lehman Brothers Holdings, Inc., Shearson
Lehman Hutton, Inc., SL Merger, Inc., BNS Partners,
BNS Inc., Bright Aggregates, Inc., Beazer PLC, and
Nat’l Westminster Bank PLC, 689 F. Supp. 1413, 141516 (W.D. Pa. 1988) (“The Commission has rejected the

App. 207
view that the conflicts of interest . . . require the prohibition of multiple roles by securities firms. The Commission has stated that, if multiple roles were
prohibited, ‘the capital-raising capability of the industry and its ability to serve the public would be significantly weakened.’ As stated in the 1963 Report of the
Special Study of the Securities Markets, the total elimination of potential conflicts in the securities industry
‘is obviously quite out of the question.’ ”). If Warburg or
its employees gave PW, and through PW its client investors, material nonpublic information to allow the
clients to avoid investment losses, Warburg or its employees could themselves have violated Rule 10b-5. See
#126 at p. 32 and 47, citing United States v. O’Hagan,
521 U.S. 642, 652 (1997) (Rule 10b-5 bars certain “efforts to capitalize on public information through the
purchase or sale of securities.”). It is well established
law that stockbrokers who advise their clients to trade
on inside information violate Rule 10b-5.90 See, e.g.,
United States v. Chestman, 947 F.2d 551 (2d Cir. 1991)
 As opined by the court in SEC v. Alexander, 160 F. Supp. 2d
642, 650 (S.D.N.Y. 2001),
[A] person who is in possession of insider information
and discloses that information to others can be held liable
for violating section 10(b) and Rule 10b-5 as a “tipper”
even if he or she did not trade on the inside information. See Shapiro v. Merrill Lynch, Pierce, Fenner &
Smith, 495 F.2d 228, 237 (2d Cir. 1974). “Trades by tippees are attributed to the tipper.” Elkind v. Liggett &
Myers, Inc., 635 F.2d 156, 165 (2d Cir. 1980).
The plaintiff must also plead that the defendant tipper acted with
adequate scienter, i.e., facts giving rise to a strong inference of
fraudulent intent. Id.
90

App. 208
(en banc 5-4 decision), cert. denied, 503 U.S. 1004
(1992). To preclude insider trading, broker-dealers
must establish “Chinese Wall” policies “to prevent the
misuse . . . of material, non-public information.” 15
U.S.C. § 78o(f ). Chinese Walls are “designed to prevent
improper or unintended dissemination of market sensitive information from one division of a multi-service
firm to another . . . ,” in particular to “isolate a firm’s
investment banking department from other departments.” NASD Notice to Members 91-45, NASD/NYSE
Joint Memo on Chinese Walls and Procedures (June 21,
1991). Therefore it cannot be, as Plaintiffs assert, an
“extreme departure from the standards of ordinary
care” for Warburg employees to have “observed” Chinese Wall policies in failing to provide any nonpublic
material information to PW’s customers.
Defendants argue that the complaint fails to plead
with particularity the information possessed by Warburg employees, no less that it was material or nonpublic. “The price of impermissible generality is that
the averments will be disregarded.” Lone Star Ladies
Inv. Club, 238 F.3d at 368. Furthermore, many of the
allegedly nonpublic facts that Plaintiffs now assert
that Warburg failed to disclose were widely known and
previously characterized by Plaintiffs, themselves,
as “critical red flags that should have put Barone on
notice that Enron was in serious trouble” and which
provided “objective evidence that confirmed Enron’s
worsening financial condition.” Second Amended Class
Action Complaint, #20 at ¶¶ 135 and 166. The previous complaint highlighted Barone’s “ignor[ing] the

App. 209
worsening debt and credit conditions that Enron was
reporting in its public findings” (id. at ¶¶ 56, 167), “Enron’s practice of booking its income at present value”
(id. at ¶ 57), and the $20 billion in debt “associated
with [Enron’s unconsolidated partners,” disclosed in
Enron’s 2000 Form 10-K (id. at ¶ 57). Since the complaint does not plead facts suggesting that any Warburg employee knew nonpublic information about
Enron, Plaintiffs cannot plead where or how Warburg
or “UBS” traded on any nonpublic information.
Plaintiffs claim that Warburg “undertook [unspecified] trading activities to eliminate its credit exposure
to Enron for its own benefit, while in possession of . . .
[unspecified] material, non-public information [garnered from participating in various unsavory transactions with Enron].” #122 ¶¶ 52, 115-16, 174, 187, 208,
337. They allege that Warburg traded on material nonpublic information (i.e., the “number, amounts, and
trigger prices” of Enron’s equity forward contracts with
two other banks) by amending and settling its equity
forward contracts with Enron in late 2001, and by Warburg’s later “unwinding” of its hedge position in October 2001. #122 ¶¶ 176-88. Defendants argue that “full
disclosure forecloses liability under the misappropriation theory,” and because Enron voluntarily gave Warburg in September 2001 the same information on
which Plaintiffs claim Warburg traded to cause Warburg to extend the equity forwards, Warburg did not
violate Rule 10b-5 under either the misappropriation
theory (misappropriating confidential information for
securities trading in breach of a duty owed to the

App. 210
source of the information) or the classical theory
(breach of a duty of trust and confidence owed by corporate insiders to corporate shareholders) of insider
trading.91 O’Hagan, 521 U.S. at 650-54. Thus Warburg
did not unlawfully trade on inside information. At
most, to the extent that Plaintiffs allege anything with
particularity, Warburg merely aided and abetted Enron’s fraud and did not violate the 1934 Act.
Defendants also argue that PW’s alleged failure to
provide its customers with information about Enron’s
“true” financial condition is not a securities fraud
claim. Plaintiffs do not assert that the single transaction that PW participated in with Enron, i.e., an agreement to administer Enron’s stock option plan, aided
Enron in concealing anything or that the administration of that plan provided PW with any knowledge of
Enron’s true financial condition. Instead they rely on
the vaguely characterized “gentleman’s agreement” between PW and Enron that purportedly prohibited PW
 Although “outsiders” like Warburg may become temporary
fiduciaries to shareholders by “enter[ing] into a special confidential relationship in the conduct of the enterprise and [receiving]
access to information solely for corporate purposes,” “[f ]or such a
duty to be imposed . . . the corporation must expect the outsider
to keep the disclosed nonpublic information confidential, and the
relationship must imply such a duty.” Dirks v. SEC, 463 U.S. 646,
655 & n.14 (1983). Defendants assert that counterparties to a bilateral derivatives trade, where one party’s gain is the other’s loss
(#122 at ¶ 119), do not have a “special confidential relationship.
Even if Warburg did have a duty to assist Enron to conduct the
business of the enterprise by extending the equity forward contracts, there is no reason to conclude that such duty extended beyond the termination of the equity forward contracts--i.e., after
the time Warburg sold its hedge shares. #122 ¶ 186.
91

App. 211
from advising its clients to sell or from saying anything
negative about Enron. #122 at ¶ 74. Plaintiffs provide
no details about the secret agreement or how it operated to defraud clients who held Enron stock in their
PW accounts. Thus they fail to allege a securities fraud
claim against PW.
PW is not a primary violator of the securities laws
if it only engaged in routine business transactions or
failed to disclose another party’s fraud absent a duty
to do so. There are no allegations that PW engaged in
any banking or other transactions used by Enron to
conceal its actual financial state, or that Enron used
the employee stock option plan to defraud investors.
Even if there were, such allegations are not sufficient
to make PW a primary violator of the law. Since Plaintiffs fail to state a claim against PW as a primary
violator used by Enron to conceal its financial state,
PW had no duty to disclose its business relationship
with Enron or transactions in Enron securities, no less
against Warburg as the source of UBS’s alleged knowledge about Enron, to its retail clients and participants
in the Enron stock option plan because their accounts
were nondiscretionary. Martinez Tapia, 149 F.3d at 412
(“[W]here the investor controls a nondiscretionary account and retains the ability to make investment decisions, the scope of any duties owed by the broker will
generally be confined to executing the investor’s order.”).
The complaint conclusorily charges that UBS
failed to disclose (1) “conflicts of interests” regarding
PW’s brokerage business and its contract to administer

App. 212
Enron’s options plan and (2) nonpublic information
about Enron’s financial condition and “questionable
business practices” purportedly obtained by Warburg
bankers from transactions with Enron. #122 at ¶¶ 25,
51, 52. Defendants emphasize that Plaintiffs do not
plead that PW’s internal business practices caused
Enron to collapse and that they fail to allege scienter
regarding any omissions involving Enron’s financial
condition. There are no facts alleged that give rise to
a strong inference that any PW employee possessed
nonpublic information about Enron or its alleged
“questionable business practices” purportedly known
to Warburg bankers. Furthermore, PW was not severely reckless for failing to obtain nonpublic information about Enron because retail brokers are not
permitted to seek such in another division of a financial institution to advise their clients on investments,
and broker-dealers are required by law to establish
Chinese walls to preclude the flow of information
within a multi-service financial institution from improperly trading on material nonpublic information.
Defendants point out that the complaint’s allegations of loss causation fail to distinguish between PW
and Warburg despite the fact that loss causation must
be pleaded as to each act or omission in violation of
Rule 10b-5 as to each separate defendant. 15 U.S.C.
§ 78u-4(b)(4); Southland, 365 F.3d at 364-65. Moreover the complaint does not identify any public disclosure of purportedly questionable business practices
or conflicts of interest or PW’s brokerage practices affecting Enron’s stock price that proximately caused

App. 213
Plaintiffs’ economic losses at any time before its bankruptcy while Enron’s stock was still trading. Plaintiffs’
1934 Act claims accordingly must a [sic] fail for this
reason, too.
Defendants contend that Plaintiffs’ claims under
§§ 11 and 12 of the 1933 Act fail also because Enron
employees did not “purchase or sell” stock options received from Enron,92 because Enron’s Forms S-8 neither
 In #167 at p. 29, Defendants note that the 1933 Act defines
the term “sale” as encompassing “every contract of sale or disposition of a security or interest in a security for value.” 15 U.S.C.
§ 77b(3) (emphasis added). A grant of stock options to employees
under the 1933 Act is a “sale” only if the grant is “for value.”
Enron employees received their stock options “for no consideration,” so the grant of them was not “for value” and did not constitute a 1933 Act “sale.” In Bauman v. Bish, 571 F. Supp. 1054,
1064 (N.D.W. Va. 1983), the court opined,
Participation in the ESOP [employee stock ownership
plan] for employees of the proposed company is not voluntary, and is, in a sense, compulsory. Each participant who meets certain minimum hours of service
requirements will have stock allocated to his or her account. Thus, there is no affirmative investment decision. More importantly, there is no furnishing of “value”
by participating employees. See 15 U.S.C. § 77b[(a)](3).
Instead of giving up some tangible and definable consideration, participants earn stock through labor for
the employer. The notion that the exchange of labor
will suffice to constitute the type of investment which
the Securities Acts were intended to regulate was rejected in Daniel, [439 U.S. at 559-561 (“An employee
who participates in a noncontributory, compulsory pension plan by definition makes no payment into the pension fund. He only accepts employment, one of the
conditions of which is eligibility for a possible benefit
on retirement. . . . [T]he purported investment is a relatively insignificant part of an employee’s total and
92

App. 214
registered nor offered Enron stock options, and because no named Plaintiff has standing to assert the
1933 Act claims based on the acquisition of Enron
indivisible compensation package. No portion of an employee’s compensation other than the potential pension
benefits has any of the characteristics of a security, yet
these noninvestment interests cannot be segregated
from the possible pension benefits. Only in the most
abstract sense may it be said that an employee “exchanges” some portion of his labor in return for these
possible benefits. He surrenders his labor as a whole,
and in return receives a compensation package that is
substantially devoid of aspects resembling a security.
His decision to accept and retain covered employment
may have only an attenuate relationship, if any, to perceived investment possibilities of a future pension.
Looking at the economic realities, it seems clear that
an employee is selling his labor primarily to obtain
a livelihood, not making an investment.”]. . . . [T]he
Court finds that the proposed ESOP is a method of deferring income, not reducing wages or paying for stock.
See Am. Jur. 2d Pension Reform Act § 187 (1975).
In accord Register v. Cameron & Barkley Co., 467 F. Supp.
519, 533 (D.S. Ca. 2006); In re Cendant Corp. Sec. Litig., 81
F. Supp. 2d 550, 556-58 (D.N.J. 2000); Fraser v. Fiduciary Trust
Co., Intern., No. o4 [sic] CIV 6958(RMB)(GWG), 2005 WL
6328596, at *5 (S.D.N.Y. June 23, 2005)”; In re Enron Sec. Derivative & “ERISA” Litig., 284 F. Supp. 2d 511, 641-42 (S.D. Tex.
2003); Employee Benefits Plans, Securities Act Release No. 336188, 19 S.E.C. Docket 465, 1980 WL 29482, at *15 (SEC Feb. 1,
1980) (“SEC Release No. 6188”) (“there is no ‘sale’ in the 1933 Act
sense to employees, since such persons do not individually bargain to contribute cash or other tangible or definable consideration to such plans”). But see Foltz v. U.S. News & World Report,
Inc., 627 F. Supp. 1143, 1159-61 (D.D.C. Jan. 15, 1996) (ESOP at
issue was not designed as a method of deferring income and concluding “that a plaintiff who asserts that he would have deferred
retirement pending a hoped-for increase in the value of his stock
holding states a claim under Section 10(b)”).

App. 215
stock by exercising Enron options. See earlier discussion on pp. 130-33 of this Opinion and Order. Defendants assert that no third-party administrator has ever
been held strictly liable under §§ 11 and 12 for errors
in the issue’s financial statements because no 1933 Act
“sale” occurs when a corporation grants stock options
to its employees on a compulsory, noncontributory basis.
Furthermore Defendants present a list of six noaction letters from the SEC demonstrating that for
over thirty years the SEC has advised companies that
because no 1933 Act “sale” occurs in the grant of stock
options to employees of a corporation, the options do
not have to be registered under the 1933 Act. #167 at
pp. 31-32. Defendants assert that the no-action letters
cited by Plaintiffs, dated after the Class Period, do not
discuss the application of the “no sale” doctrine to
grants of employee stock options, but instead relate to
irrelevant questions of whether three classes of membership units “can be considered one class of securities”
for the purposes of Rule 701 or whether stock options
are exempt from the registration requirements of Section 12(g) of the 1934 Act.”
Defendants represent that to be characterized as
an “underwriter” of Enron employee options for purposes of Section 11 liability, PW must have “purchased”
options from Enron, or “offered” or “sold” options for Enron, in connection with the “distribution” of employee
options by Enron. 15 U.S.C. § 77b(a)(1). Defendants
maintain that a corporation’s grant to employees of an
interest in an involuntary, noncontributory employee

App. 216
benefit plan, for example an employee stock option
plan, does not constitute a “sale” under the 1933 Act.
Therefore PW cannot be liable for any losses stemming
from Enron’s grants of options to its employees. See 17
C.F.R. § 230.405 (“The term ‘employee benefit plan’
means any written purchase, savings, option, bonus,
appreciation, profit sharing, thrift, incentive, pension,
or other similar plan or written compensation contract
solely for employees. . . .”).
Sections 11 and 12 of the 1933 Act are restricted
by their express terms to “purchasers or sellers of
securities.” Blue Chip, 421 U.S. at 735-36; 17 U.S.C.
§ 77k(a) (any person “acquiring” a security may sue
under Section 11); 15 U.S.C. § 77l (any person “purchasing” a security may sue under Section 12). Thus
to be able to sue, PW must qualify as an “underwriter”
of Enron employee options for purposes of Section 11
liability, must have “purchased” options from Enron,
or “offered” or “sold” options for Enron, in connection
with the distribution of employee options by Enron. 15
U.S.C. § 77b(a)(11). Defendants claim that because a
corporation’s grant to its employees of an interest in
an involuntary, noncontributory employee benefit plan,
such as an employee stock option plan, does not constitute a “sale” under the 1933 Act, as a matter of law PW
cannot be liable for any losses stemming from Enron’s
grants of options to its employees. 17 C.F.R. § 230.405.

App. 217
Defendants sum up the law this Court discussed
under “Applicable law.” In Daniel, 439 U.S. 551,93 the
Supreme Court held that the 1933 and 1934 Acts do
not apply to a noncontributory pension plan because
such a plan is not an investment contract94 since the
purported investment by the employee is a relatively
 In Daniel, 439 U.S. at 558, the Court applied an “economic
realities” test (substance over form) from SEC v. W.J. Howey Co.,
328 U.S. 293, 301 (1946), to determine “whether the scheme involves an investment of money in a common enterprise with profits to come solely from the efforts of others.” The Daniel court
explained, 439 U.S. at 559-60, concluding that an employee’s participation in a noncontributory, compulsory pension plan does not
constitute a “security” or an “investment contract”:
An employee who participates in a noncontributory,
compulsory pension plan by definition makes no payment into the pension fund. He only accepts employment, one of the conditions of which is eligibility for a
possible benefit on retirement. . . . In every decision of
this Court recognizing the presence of a “security” under the Securities Acts, the person found to have been
an investor chose to give up a specific consideration in
return for a separate financial interest with the characteristics of a security. . . . Even in those cases where
the interest acquired had intermingled security and
nonsecurity aspects, the interest obtained had “to a
very substantial degree the element of investment contracts. . . .” In every case the purchaser gave up some
tangible and definable consideration in return for an
interest that had substantially the characteristics of a
security.
94
 The SEC defines an “investment contract” as “any contract, transaction or scheme whereby a person invests money in a
common enterprise and is led to expect profits solely from the efforts of the promoter or third party.” Denise L. Evans, J.D., and
O. William Evans, J.D., The Complete Real Estate Encyclopedia
(The McGraw Hill Companies, Inc. 2007).
93

App. 218
trivial part of the employee’s total and indivisible compensation package and because given the substantial
portion of the pension funds which come from contributions, the possibility of participating in asset earnings is too minimal to include the transaction within
the concept of “investment contract.”
Subsequently in SEC Release No. 33-6188, Employee Benefit Plans; Interpretations of Statute, 45 F.R.
8960 (Feb. 11, 1980), codified at 17 C.F.R. 21 (the “1980
Release”), the SEC explained that “for the registration
and antifraud provisions of the 1933 Act to be applicable, there must be an offer or sale of a security.”
1980 Release, 45 F.R. at 8962.95 Although “stock bonus
plans” or “plans under which an employer awards
shares of its own stock to covered employees at no direct cost to the employees” do provide employees with
a security, i.e., corporate stock, “there is no ‘sale’ in the
1933 Act sense to employees since such employees did
not individually bargain to contribute cash or other
tangible or definable consideration to such plans.” Id.
at 8968. The term “sale” has the same meaning for both
the antifraud and registration provisions of the 1933
Act. See 1980 Release, 45 F.R. at 8969. See also Compass Group PLC, SEC No-Action Letter, 1999 WL
311797 (May 13, 1999) (“[W]hen an employee does not
give anything of value for stock other than continuation of employment nor independently bargains for

 Under Chevron U.S.A., Inc. v. NRDC, Inc., 467 U.S. 837
(1984), the SEC’s interpretation of securities laws is entitled to
deference.
95

App. 219
such stock, registration is not required” under the “no
sale doctrine.”).
Defendants observe that the “no sale” doctrine
applies to grants of employee stock options which are
a type of employee benefit plan. SEC Release No. 336455, Interpretive Release on Regulation D, 48 F.R.
10045 (March 10, 1983), at Question 78 (“In a typical
plan, the grant of [employee stock] options will not be
deemed a sale of a security for purposes of the Securities Act.”); Sarnoff Corp., SEC No-Action Letter, 2001
SL [sic] 811033 (July 16, 2001) (no 1933 Act registration required for grant of interests or option to acquire
interests in limited-liability company); Millennium
Pharm., Inc., SEC No-Action Letter, 1998 WL 264102
(May 21, 1998) (No 1933 Act registration required for
grant of stock options by publicly traded company
based on opinion from counsel that “the grant of such
options does not constitute a ‘sale’ or ‘offer to sell’ a security”).
The terms of Enron’s Stock Option Plans evidence
that Enron’s grants of options to its employees were
noncontributory, stating that “any employee” was eligible to receive awards of Enron stock options, that
“awards shall be granted for no cash consideration or
for such minimal cash consideration as may be required under applicable law,” that no employee or other
person eligible to participate in the plan had any right
to be awarded stock options, and that grants of options
could be made to discharge Enron’s contractual obligations or “in payment of any benefit or remuneration
payable under any compensatory plan or program.”.

App. 220
These documents, referenced in #122 ¶ 233, are relied
on by Plaintiffs as “prospectuses” giving rise to 1933
liability; #130, Lomuscio Decl. Ex. 20 (Enron Corp.
1994 Stock Plan) at §§ 4.1, 5.3(I), 7.1, 5.3(vii), cited at
#122 ¶¶ 230 and 233. See also #130, Lomuscio Dec. Ex.
21 (Enron Corp. 1999 Stock Plan) at §§ 4.1, 5.3(I),
5.3(vii), 7.1, cited at #122 ¶¶ 230, 233; and Ex. 22 (Enron Corp. 1991 Stock Plan) at §§ 4.1, 5.4(I), 8.1, cited at
#122 ¶¶ 230, 233.
In sum, because no “purchase or sale” occurred
when Enron granted stock options to its employees, all
1933 Act claims of Plaintiffs Lampkin, Ferrell, Swiber,
and Nelson must be dismissed. #122 ¶¶ 5,7,9,10.
In addition, Defendants repeat that these claims
must be dismissed also because Enron’s Forms S-8 neither registered nor offered Enron Stock Options, so Enron’s grant of stock options to its employees was not a
registered offering. The Forms S-8 cited by the complaint state they registered only the Enron common
stock that could be acquired by optionees when they
exercised those options. #130, Lomuscio Decl. Exs. 23,
24, 23 at 1 (“This registration statement is being filed
. . . to register additional shares of Enron Common
stock for sale”) and #128 Ex. 5 (statement by Enron
General Counsel James Derrick regarding Forms S-8
“relating to a proposed offering and sale of up to an aggregate of 10,000,000 shares . . . of Common Stock . . .
of the Company which may be issued pursuant to the
Company’s [1991, 1994, or 1999] Stock Plan.”). Enron’s
Plan documents also state, “The Company intends to
register . . . the shares of Stock acquirable pursuant to

App. 221
the Awards under the Plan.” #130, Lomuscio Dec. Exs.
22, 20, 21 (Enron 1991, 1994, and 1999 Stock plans) at
§ 5.3(v). The instructions to Form S-8 indicate that the
form is available for registration of “securities of the
registrant to be offered under any employee benefit
plan,” such as “the exercise of employee benefit plan
options and the subsequent resale of the underlying
securities.” #130, Lomuscio Ex. 26 (SEC Form S-8,
General Instructions) at § 1(a).
Next Defendants emphasize that none of the
named Plaintiffs has standing to bring the 1933 Acts
based on the acquisition of Enron stock by exercising
their options. The complaint and Plaintiffs’ attached
affidavits do not allege that any named plaintiff ever
obtained Enron stock by exercising his or her stock options, not to mention that he or she lost money on such
shares or asserted facts sufficient to trace those shares
to any registration statement or prospectus identified
in the complaint. Therefore Plaintiffs lack standing. 15
U.S.C. § 77k(a) (“Section 11 suit may be brought by
“any person acquiring such security” to “recover . . .
damages”) and § 77l(a) (defendants are liable under
Section 12 to “the person purchasing such security . . .
to recover the consideration paid for such security . . .
or for damages”).
Last, Defendants charge that Plaintiffs have not
alleged 1933 Act damages, which under Sections 11
and 12 are calculated based on the “purchase price”
paid by each plaintiff for the security. Rosenzweig v.
Azurix Corp., 332 F.3d 854, 873 (5th Cir. 2003) (Section 11 damages are restricted to “the price at which
the security was offered to the public”); Randall v.

App. 222
Loftsgaarden, 478 U.S. 647, 655-56 (1986) (Section
12(2), 15 U.S.C. § 77l, “prescribes the remedy of rescission except where the plaintiff no longer owns the
security,” in which case “the plaintiff is entitled to a
return of the consideration paid, reduced by the
amount realized when he sold the security and by an
‘income received’ on the security,” and thus “the buyer
can ‘sue for recovery of his purchase price, or for damages not exceeding such price.’ ”). Because Enron stock
options were usually granted at no cost to ordinary Enron employees and because plaintiffs have not asserted
that they received options under an employment contract, there is no “purchase price” on which to base
damages. Lomuscio Decl. Exs. 20-22 (Enron Corp.
Stock Plans for 1991, 1994, and 1999) at § 4.1 (cited in
Complaint at ¶ 230 and 233) (option “awards shall be
made for no cash consideration or for such minimal
consideration as may be required under applicable
law”). Plaintiffs have not claimed that they individually bargained for their stock options. Since 1933 Act
damages cannot be calculated for the grants of options
to Plaintiffs, their Section 11 and 12 claims must be
dismissed for lack of legally cognizable damages. See.
e.g., Pierce v. Morris, Civ. A. Nos. 4:03-CV-026 et al.,
2006 WL 2370343, at *4 (N.D. Tex. Aug. 16, 2006).
Plaintiffs’ Response to Defendants’ Reply (#178)
Claiming that Defendants’ reply has raised two completely new arguments ((1) the grant of an option is
not a sale “for value” and (2) having a Chinese Wall policy on paper “forecloses” liability for fraud), Plaintiffs
argue that they should have an opportunity to respond

App. 223
and then do so in this document, although they failed
to move for leave of court to do so. In its discretion, the
Court will review the unauthorized document.
Plaintiffs assert that while their claims are unique
when compared with the Newby cases’ claims, and that
there are other security class actions based on various
wide-ranging schemes and material omissions with
similar facts (broker-dealer securities frauds involving
the inflation of stock price, creation of misleading, favorable research reports, company-wide policies to
cause brokers to increase or maintain demand for a
stock among its customers, and failures to disclose
known adverse information or risks inherent in a
speculative security) to the ones asserted here that
have not been dismissed. Ignoring the mandates of the
PSLRA and the fact that they have already had several
“bites at the apple,” Plaintiffs argue that at this point
the Court should be construing the Third Amended
Complaint’s allegations in a light most favorable to
them, and not focusing on the sufficiency of the elements of Plaintiffs’ § 10(b) fraud claims. See, e.g.,
Varljen v. H.J. Meyers, Inc., No. 97 Civ 6742, 1998 WL
395266, *2 (S.D.N.Y. July 14, 1998). The Court disagrees.
Plaintiffs point out that although UBS argued in
its motion to dismiss that the SEC staff ’s “no sale” doctrine applied to the grant of options under Enron’s
stock option plans, inconsistently in its Response
(pp. 61-79) UBS asserts that this earlier argument is
wrong. Now UBS abandons its “no sale doctrine” claim

App. 224
for a new claim that the grant of options to Enron employees was not a “sale for value.”
The Court finds this argument meritless. Defendants have not abandoned application of the “no sale”
doctrine, but rely on both points, both relevant under
the law, and neither of which cancels out the other.
Regarding UBS’s defense that it should be protected from liability because it has a Chinese Wall policy for preventing conflicts of interest, Plaintiffs respond
that Chinese Walls are only one of a number of required mechanisms to isolate the trading side of the
firm from the banking side in order to raise such a defense and that a firm must not only have such a policy,
but must implement it. Plaintiffs cites [sic] as a “glaring example” of UBS’s failure to observe its Chinese
Wall procedures the equity forward securities contracts. Because these paragraphs without explanation
vaguely refer to “UBS” without recognizing any distinction between the bank entity from broker PW, they
do not address the Chinese Wall. Thus Plaintiffs’ point
is overruled. Complaint, #122 at ¶¶ 163-65, 176-77.
Court’s Decision
This Court finds that Defendants correctly state
the law and apply it to the numerous and detailed allegations in the Third Amended Complaint and in response to Plaintiffs’ briefs. The Court discusses below
a few key reasons why Defendants’ motion to dismiss
should be granted in all respects, but refers the parties
to Defendants’ submissions for additional reasons why

App. 225
Plaintiffs fail to state a claim under the Securities statutes against PW and Warburg.
I. [sic] UBS As A Single Entity
“Delaware public policy does not lightly disregard
the separate legal existence of corporations.” BASF
Corp. v. POSM II Properties Partnership, L.P., C.S. No.
3608-VCS, 2009 WL 522721 *8 n.50 (Del. Ch. March 3,
2009). “A Delaware Court will not lightly disregard a
corporation’s jural identity. Absent sufficient cause the
separate legal existence of a corporation will not be disturbed.” Gadsden v. Home Pres. Co., No. Civ. A. 18888,
2004 WL 485468, at *4 (Del. Ch. Feb. 20, 2004), citing
Harco Nat. Ins. Co. v. Green Farms, Inc., 1989 WL
110537, *4 (Del. Ch. Sept. 1989) (“[P]ersuading a Delaware Court to disregard the corporate entity is a difficult task. The legal entity of a corporation will not be
disturbed until sufficient reason appears.”). To demonstrate “alter ego” or “instrumentality” liability in order
to attribute the actions of one corporation to another,
requires “a showing of total domination or control of a
showing that the corporations are so closely intertwined that they do not merit treatment as separate
entities.” See, e.g., Vichi v. Koninklijke Philips Electronics, N.V., 63 A.3d 26, 48-49 (Del. Ch. 2012) (rejecting
claim that corporate formalities attendant to the “farflung Philips family of companies” should be disregarded, not withstanding [sic] Vichi’s argument that
“Philips acted and operated through a network of subsidiaries and employed a corporate philosophy or slogan of ‘One Philips . . . with the aim of creating a

App. 226
‘company of acting parts acting as one.’ ”). Observing
that “ ‘Delaware courts take the corporate form and
corporate formalities very seriously . . . [and] will disregard the corporate form only in the ‘exceptional
case,’ ” the Vichi court found that “[w]hile the ‘One
Phillips’ concept may reflect a marketing program or
corporate philosophy that Philips touted at [sic] part of
an effort to create a unified company, Vichi has not presented evidence sufficient to support a reasonable inference that it was meant to eradicate the corporate
structure of Phillips N.V. and its subsidiaries.” 62 A.3d
at 49. In accord, eCommerce Industries, Inc. v. MWA Intelligence, Inc., 2013 WL 5621678, *27-28 (Del. Ch.
Sept. 30, 2013), order entered, 2013 WL 5785961 (Del.
Ch. Oct. 25, 2013).
Although the Delaware courts usually resolve
these issues of disregarding corporate structure in the
Court of Chancery based on facts presented, since this
case is for securities fraud under the 1933 and 1934
Acts and the PSLRA and Rule 9(b), this Court finds
that at least the pleading of some facts sufficient to
make a plausible claim that the UBS entities operated
as a single entity in defrauding them is necessary but
not satisfied here. It finds that Plaintiffs have failed to
plead facts sufficient to support their single, fully integrated entity theory of the three UBS entities or of just
the two named UBS Defendants to satisfy requirements under Delaware law demonstrating that the
UBS entities’ corporate structures should be disregarded. Plaintiffs “must essentially demonstrate that
in all aspects of the business, the two corporations actually functioned as a single entity and should be

App. 227
treated as such.” Pearson v. Component Technology
Corp., 247 F.3d 471 (3d Cir. 2001) (citing Akzona, Inc. v.
E.I. Du Pont De Nemours & Co., 607 F. Supp. 227, 237
(D. Del. 1984) (a subsidiary is an alter ego or instrumentality of the parent when “the separate corporate
identities . . . are a fiction and . . . the subsidiary is, in
fact, being operated as a department of the parent.”)),
cert. denied, 534 U.S. 950 (2001). See also Mobil Oil
Corp. v. Linear Films, Inc., 718 F. Supp. 260, 266 (D.
Del. 1989) (“A subsidiary corporation may be deemed
the alter ego of its corporate parent where there is a
lack of attention to corporate formalities, such as
where the assets of two entities are commingled, and
their operations intertwined” or “where a corporate
parent exercises complete domination and control over
its subsidiary.”).
Plaintiffs have not pleaded facts supporting any of
the seven factors in the “single entity test” of the Third
Circuit, which includes Delaware, to justify piercing
the corporate veil: (1) gross undercapitalization of a defendant corporation for the purposes of the corporate
undertaking; (2) a failure to observe corporate formalities; (3) the non-payment of dividends; (4) the insolvency of the debtor corporation at the time; (5) the
siphoning of the corporation’s funds by the dominant
stockholder; (6) the nonfunctioning of other officers
or directors; (7) the absence of corporate records; and
(8) the fact that the corporation is merely a facade for
the operations of the dominant stockholder(s). Blair,
720 F. Supp. 2d at 470-71, citing Pisani, 646 F.2d at 88.
“While no single factor justifies a decision to disregard

App. 228
the corporate entity,” some combination of these factors
is required and “an overall element of injustice or unfairness must always be present as well.” Delaware law
allows a court to “pierce the corporate veil” of a company where plaintiffs show “(1) that the parent and the
subsidiary operated as a single economic entity and
(2) that an overall element of injustice or unfairness is
present.” Fletcher v. Atex, Inc., 68 F.3d 1451, 1457 (2d
Cir. 1995) (applying Delaware law). Plaintiffs have
failed to plead facts to support the first element of “exclusive domination and control . . . to the point that
[the subsidiary] no longer has legal or independent significance of its own,” such as that the corporation was
not adequately capitalized, that corporation was insolvent, that dividends were not paid nor corporate records kept, that officers and directors did not function
properly, and the absence of other corporate formalities, that the dominant shareholder siphoned corporate funds, and generally that the corporation simply
functioned as a facade for the dominant shareholder.
Id.; Foxmeyer Corp., 290 B.R. at 235-36. Nor have they
pleaded facts that would demonstrate the second element, fraud or injustice in the Defendants’ use of the
corporate form, outside of the underlying cause of action. Id., citing In re Foxmeyer Corp., 290 B.R. 229, 236
(Bankr. D. Del. 2003); Sears, Roebuck & Co. v. Sears plc,
744 F. Supp. 1297, 1305 (D. Del. 1990). “ ‘To hold otherwise would render the fraud or injustice element
meaningless, and would sanction bootstrapping.’ ” Foxmeyer Corp., 290 B.R. at 235. To pierce the corporate
veil, the corporate structure must cause the fraud, the
fraud or injustice must be found in the defendants’ use

App. 229
of the corporate form; the corporation must be a fraud
or a sham existing only for the purpose of serving as a
vehicle for fraud. Foxmeyer, 290 B.R. at 236 (cases not
cited).
Furthermore it appears that the purpose behind
Plaintiffs’ single-entity theory is to evade a federal policy and expand liability under the 1934 Act from just
Warburg to PW even though the alleged activities of
the two entities are not overlapping or redundant (one
an investment bank providing credit or loans to Enron,
the other a broker for participants in Enron’s stock option plans).
In sum, Plaintiffs have failed to plead sufficient
facts to plead a plausible claim that Warburg and PW
functioned as a single entity to allow the Court to
pierce their corporate veils. Moreover, they have failed
to plead facts distinguishing the actions of the two corporations, as required under Southland to state claims
of securities fraud, a failure which infects a substantial
portion of the Third Amended Complaint. Southland,
365 F.3d at 366 (Where the defendant is a corporation,
the plaintiff must plead specific facts giving rise to
a strong inference that a particular defendant’s employee acted with scienter as to each alleged omission;
“[a] defendant corporation is deemed to have the requisite scienter for fraud only if the individual corporate
officer making the statement has the requisite level of
scienter, i.e., knows the statement is false, or at least
deliberately reckless as to its falsity, at the time he or
she makes the statement.”). “ ‘The knowledge necessary to form the requisite fraudulent intent must be

App. 230
possessed by at least one agent [of the corporation] and
cannot be inferred and imputed to a corporation based
on disconnected facts known by different agents.’ ” Id.
at 367, quoting Gutter, 124 F. Supp. 2d at 1311. Plaintiffs fail to allege facts showing that any employee at
Warburger [sic] disclosed any information about Enron
that it gained from working on the five financial transactions at issue to any employee of PW. Nor do Plaintiffs allege facts demonstrating that the Chinese Wall
between the Warburger [sic] the banker and PW the
broker was breached.
II. [sic] Both The 1933 and 1934 Acts
A.

Purchasers or Sellers, But Not Holders

Plaintiffs sue both Defendants under Section 10b
and Rule 10b-5, which require that an impermissible
misstatement or omission of material fact be made
with scienter, on which Plaintiffs relied, and which
proximately caused them injury “in connection with
the purchase or sale of securities.” They sue PW under
section 11, 15 U.S.C. § 77k(a), as purchasers of securities whose registrations contain false or misleading
statements of material fact and under section 12(2), 15
U.S.C. 77l(a)(2), of the 1933 Act for offering and selling
securities on the basis of misleading information in
part in order to serve its own financial interests or
those of Enron. By their terms, both statutes are restricted to “purchasers” or “sellers” of securities. Blue
Chip Stamps, 421 U.S. at 735-36.

App. 231
“In a ‘holder’ claim, the plaintiff alleges not that
the defendant wrongfully induced the plaintiff to purchase or sell stock, but that the defendant wrongfully
induced the plaintiff to continue holding his stock. As
a result, the plaintiff seeks damages for the diminished
value of the stock, or the value of a forfeited opportunity, allegedly caused by the defendants misrepresentations [or omissions].” Grant Thornton, LLP v.
Prospect High Income Fund, ML CBO IV (Cayman),
Ltd., 314 S.W. 3d 913, 926 (Tex. 2010), citing Newby v.
Enron Corp., 490 F. Supp. 2d 784, 787 n.4 (S.D. Tex.
2007). In Blue Chip Stamps v. Manor Drug Stores, 421
U.S. 723, 734-35 (1975), the Supreme Court rejected
recognition of holder claims under the federal securities laws because they are speculative and difficult to
prove. Id. citing Blue Chip, 421 U.S. at 73 [sic]-35 (Unlike “purchasers or sellers pursuing a § 10(b) cause of
action,” who “at least seek recovery on a demonstrable
number of shares traded[,] [i]n contrast, a putative
plaintiff, who neither purchases nor sells securities but
sues instead for intangible economic injury such as loss
of a noncontractual opportunity to buy or sell, is more
likely to be seeking a largely conjectural and speculative recovery in which the number of shares involved
will depend on the plaintiff ’s subjective hypothesis.”).
The high court further opined on the dangers of conjecture and speculation in such a claim:
“The manner in which the defendant’s violation caused the plaintiff to fail to act could be
a result of the reading of a prospectus, . . . but
it could just as easily come as a result of a
claimed reading of information contained in

App. 232
the financial page of a local newspaper. Plaintiff ’s proof would not be that he purchased or
sold stock, a fact which would be capable of
documentary verification in most situations,
but instead that he decided not to purchase or
sell stock. Plaintiff ’s entire testimony could
be dependent upon uncorroborated oral evidence of many of the crucial elements of his
claim, and still be sufficient to go to the jury.
The jury would not even have the benefit of
weighing the plaintiff ’s version against the
defendant’s version, since the elements to
which the plaintiff would testify would be in
many cases totally unknown and unknowable
to the defendant. The very real risk in permitting those in respondent’s position to sue under Rule 10b-5 is that the door will be open to
recovery of substantial damages on the part of
one who offers only his own testimony to
prove that he ever consulted a prospectus of
the issuer, that he paid any attention to it, or
that the representations contained in it damaged him.
Grant Thornton, 314 S.W. 3d at 926-27, quoting Blue
Chip, 421 U.S. at 746. See also Krim, 989 F.2d at 1443
& n.7 (“It is well established that mere retention of securities . . . does not form the basis for a § 10(b) or Rule
10b-5 claim.”). In holding that holder claims were not
cognizable in federal Rule 10b-5 actions, the Supreme
Court stated that while its decision might be seen as
“ ‘an arbitrary restriction which unreasonably prevents some deserving plaintiffs from recovering damages which have in fact been caused by violations of

App. 233
Rule 10b-5,” that drawback “was ‘attenuated to the extent that remedies are available to nonpurchasers and
nonsellers under state law.’ ” Grant Thornton, at 927,
quoting Blue Chip, at 738, 739 n.9. Here, however,
Plaintiffs have not pleaded their holder claims under
state law, but only under federal statutes. Furthermore
the Court is completely unpersuaded by Plaintiffs’ argument that it should overrule the Supreme Court’s
ruling in Blue Chip for public policy reasons. Accordingly the Court dismisses the federal holder claims under Rule 12(b)(6).
B.

“Purchase or Sale” Requirement

For the 1933 and 1934 Acts to apply to the Enron
stock option plans there must be a sale. As has been
discussed, under Howey, 328 U.S. at 558, because there
is no investment of money in a common enterprise with
profits to come solely from the efforts of others, for
which the plan participants expect a profit, and under
Daniel, 439 U.S. at 559-60, and its progeny and SEC
Releases Nos. 33-6188, No. 33-6455, and 33-6281, because Enron’s stock option plans are noncontributory
and compulsory for its employees, as a matter of law
there is no sale.
Moreover PW does not qualify as a statutory “underwriter” under § 12 because PW did not “purchase”
the Enron stock from Enron that its investor clients
received upon exercising their stock options, nor did
those clients “purchase” the stock from PW, Plaintiffs
have no claim under § 12(a)(2) of the 1933 Act. As

App. 234
noted by Defendants, none of the Plaintiffs in the Third
Amended Complaint alleges that he or she exercised
stock options to obtain Enron stock.
For purposes of section 11(a) of the Securities Act
of 1933, because neither PW nor its clients “purchased”
the Enron stock obtained by the investor clients, Plaintiffs have no claim under 15 U.S.C. § 77k(a)(5) (Any
person who purchases a security, which was subject to
a registration statement containing a false statement,
may sue “every under writer with respect to such security.”).
Therefore neither § 11 or 12 of the 1933 Act applies, and Plaintiffs fail to state a claim under them.
C.

Controlling Person Liability

Because Plaintiffs have failed to state a claim of
a primary violation of either the 1933 or 1934 Act,
any derivative claims they have asserted for controlling person liability also fail. In re BP p.l.c. Litig., 843
F. Supp. 2d at 750, citing ABC Arbitrage Plaintiffs
Group v. Tchuruk, 291 F.3d 336, 348 n.57 (5th Cir.
2002),
III. [sic] Securities Exchange Act of 1934
A.

Scheme Liability: Primary Violations vs.
Aiding and Abetting

Even if there had been a sale, as noted, the United
States Supreme Court has rejected the scheme liability theory under § 10(b). There is no private right of

App. 235
action under § 10(b) of the Exchange Act for aiding and
abetting. Stoneridge, 552 U.S. at 155, citing Central
Bank of Denver, 511 U.S. at 191 (§ 10(b) does not extend to aider and abettors). A defendant must satisfy
the requirements for a primary violation to be liable
under § 10(b), i.e., must engage in deceptive conduct
involving either a misstatement or a failure to disclose
by one with a duty to disclose. Regents of University
of California v. Credit Suisse First Boston (USA), Inc.,
482 F.3d 372, 388 (5th Cir. 2007), cert. denied sub nom.
Regents of University of California v. Merrill Lynch,
Pierce, Fenner & Smith, 552 U.S. 1170 (2008). A device,
such as a scheme, is not deceptive within the statute’s
meaning “unless it involves breach of some duty of candid disclosure owed to investors; otherwise the defendant merely aided and abetted the fraud by Enron. Id.
at 383. As discussed, neither Warburg nor PW made a
public statement, nor did either have a duty to disclose
material information to Plaintiffs. Thus their various
acts and transactions with Enron constituted mere
aiding and abetting of fraud by Enron, which used the
transactions to misrepresent its financial condition by
fraudulent or off-balance sheet accounting in a primary violation of the 1934 Act. Although conduct can
be deceptive and give rise [sic] liability when it has
“the requisite relation to the investors’ harm,” because
reliance by a plaintiff on a defendant’s deceptive acts
is a central element of a § 10(b) private cause of action,
Warburg and PW’s actions with Enron were not disclosed to the investing public and were too remote to
satisfy the element of reliance. Stoneridge, 552 U.S. at
159.

App. 236
While the Third Amended Complaint alleges that
UBS participated with scienter in five transactions
with Enron, it was Enron (and its accountants and lawyers), not Warburg or PW, as the only primary violator,
that was responsible for using these transactions to
“cook its books,” creating its allegedly fraudulent financial statements, stock registrations and other documents
filed with the SEC, i.e., making misrepresentations of
material fact, and thereby manipulating its public financial image to defraud the investing public.
B.

PW’s Broker Dealer Relationship to Plaintiffs and A Duty to Disclose Under the 1934
Act

Even if Plaintiffs had established a sale, no named
Plaintiff alleges that he had a discretionary account
with PW and therefore PW’s duty [sic] its client investors was restricted to executing the investor’s order.
Romano, 834 F.2d at 530; Martinez Tapia, 149 F.3d at
412. Plaintiffs have not alleged that PW failed to execute their orders as directed. Thus there is no basis for
their § 10(b) and Rule 10b-5 claims against PW.
Moreover, as pointed out by Defendants, there are
no factual allegations showing a direct relationship of
Plaintiffs to Warburg or UBS AG, which were not parties to the contract between Enron and PW to administer Enron’s stock option plans and which did not
serve as brokers for PW’s retail investor clients, nor in
any fiduciary capacity of trust and confidence which
would require Warburg and/or UBS AG to disclose any

App. 237
nonpublic information it may have discovered regarding any fraud by Enron.
Furthermore, as delineated in great detail by Defendants, PW and Warburg were barred by federally
required Chinese Walls from sharing any information
acquired by Warburg in its capacity as an investment
bank from its dealings with Enron on the five fraudulent transactions at issue. Plaintiffs have failed to allege with the required specificity any exchange of
material information between the entities in violation
of the Chinese Wall policy.
C.

Heightened Pleading Standards

Plaintiffs fail to satisfy the PSLRA’s heightened
pleading standards by specifying exactly what nonpublic, material information the UBS entities knew about
Enron, who discovered it, when, how, and under what
circumstances and why it was fraudulent.
D.

Scienter

Even if there had been a “sale,” Plaintiffs fail to
allege facts establishing that Defendant corporations
had acted with scienter. As discussed previously, the
PSLRA mandates that “untrue statements or omissions be set forth with particularity as to ‘the defendant’ and that scienter be pleaded with regard to ‘each
act or omission’ sufficient to give ‘rise to a strong inference that the defendant acted with the required state
of mind.’ ” Southland, 365 F.3d at 364. The PSLRA’s use

App. 238
of “the defendant” is reasonably construed to mean
“ ‘each defendant’ in multiple defendant cases.’ ” Id. at
365. Where the defendant is a corporation (as Warburg
and PW are), the plaintiff must plead specific facts
giving rise to a strong inference that a particular defendant’s employee acted with scienter as to each alleged omission; “[a] defendant corporation is deemed to
have the requisite scienter for fraud only if the individual corporate officer making the statement has the
requisite level of scienter, i.e., knows the statement
is false, or at least deliberately reckless as to its falsity, at the time he or she makes the statement.”
Southland, 365 F.3d at 366. “ ‘The knowledge necessary to form the requisite fraudulent intent must be
possessed by at least one agent [of the corporation] and
cannot be inferred and imputed to a corporation based
on disconnected facts known by different agents.’ ” Id.
at 367, quoting Gutter v. E.I. Dupont De Nemours, 124
F. Supp. 2d 1291, 1311 (S.D. Fla. 2000); also citing First
Equity Corp. v. Standard & Poor’s Corp., 690 F. Supp.
256, 260 (S.D.N.Y. 1988) (“A corporation can be held to
have a particular state of mind only when that state of
mind is possessed by a single individual.”), aff ’d, 869
F.2d 175 (2d Cir. 1989). Plaintiffs have failed to plead
scienter adequately for each Defendant.
E.

Loss Causation

As stated by Defendants, Plaintiffs fail to allege
loss causation against either Defendant. Dura Pharmaceuticals, 544 U.S. at 342. Their allegations of fraudulent brokerage practices at PW are not related to

App. 239
Enron’s fraudulent financial statements and accounting. Furthermore, those brokerage practices were not
disclosed until after Enron’s stock became worthless.
Nor do Plaintiffs allege that there was a public disclosure of the conflicts of interest between PW’s role as
administrator of Enron’s stock option program and its
own brokerage business before Enron filed for bankruptcy.
Leaving aside Plaintiffs’ failure to specify the material, nonpublic information that any particular Warburg employee gleaned from Enron during the various
transactions, Plaintiffs have not alleged any specific
material misrepresentation or omission by Warburg
that caused Enron’s stock to plummet. Nor have Plaintiffs alleged facts plausibly showing that Warburg’s
five transactions and allegedly disguised loans were
inherently fraudulent and caused Enron to file for
bankruptcy. As noted, these transactions were merely
acts adding and abetting Enron in its subsequent
fraudulent accounting of its finances.
Court’s Order
For the reasons stated above, the Court
ORDERS that
(1) Plaintiffs’ opposed motion for amended scheduling order and for additional briefing is DENIED, and
its motion for a ruling is MOOT (#223);

App. 240
(2) Plaintiffs’ “holder” claims under federal law are
DISMISSED under Rule 12(b)(6) for failure to state a
claim for which relief may be granted;
(3) Defendants’ motion to dismiss (#125) is GRANTED;
(4) Since Plaintiffs have already submitted three
amended complaints and thus had multiple “bites of
the apple,” and given the age of this litigation, Plaintiffs’ motion for leave to amend (#165) is DENIED; and
(5) Plaintiffs’ motion to certify class (#166) is DENIED as MOOT.
A final judgment shall issue by separate instrument.
SIGNED at Houston, Texas, this 28th day of February, 2017.
/s/

Melinda Harmon
MELINDA HARMON
UNITED STATES
DISTRICT JUDGE

App. 241
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
In Re ENRON CORPORATION §
§ MDL 1446
SECURITIES, DERIVATIVE
§
& “ERISA” LITIGATION,
§
§
KEVIN LAMPKIN, JANICE
§
SCHUETTE, ROBERT
§
FERRELL, AND STEPHEN
MILLER, Individually and on §
Behalf of All Others Similarly §
§
Situated,
§ CIVIL ACTION
       Plaintiffs,
§ NO. H-02-0851
§
VS.
§
UBS PAINEWEBBER, INC.
§
AND UBS WARBURG, LLC,
§
§
       Defendants.
FINAL JUDGMENT OF DISMISSAL
(Filed Feb. 28, 2017)
Pursuant to the Opinion and Order of this date,
the Court ORDERS that the above reference cause is
DISMISSED WITH PREJUDICE.
THIS IS A FINAL JUDGMENT.


App. 242
SIGNED at Houston, Texas, this 28th day of February, 2017.
/s/



Melinda Harmon
MELINDA HARMON
UNITED STATES
DISTRICT JUDGE

App. 243
Relevant Statutes
15 USCS § 77b
Definitions promotion of efficiency,
competition, and capital formation
(a) Definitions. When used in this title [15 USCS
§§ 77a et seq.] unless the context otherwise requires –
(1) The term “security” means any note, stock,
treasury stock, security future, security-based
swap, bond, debenture, evidence of indebtedness,
certificate of interest or participation in any profitsharing agreement, collateral-trust certificate,
preorganization certificate or subscription, transferable share, investment contract, voting-trust
certificate, certificate of deposit for a security, fractional undivided interest in oil, gas, or other mineral rights, any put, call, straddle, option, or
privilege on any security, certificate of deposit, or
group or index of securities (including any interest
therein or based on the value thereof ), or any put,
call, straddle, option, or privilege entered into on a
national securities exchange relating to foreign
currency, or, in general, any interest or instrument
commonly known as a “security,” or any certificate
of interest or participation in, temporary or interim certificate for, receipt for, guarantee of, or
warrant or right to subscribe to or purchase, any
of the foregoing.
(2) The term “person” means an individual, a
corporation, a partnership, an association, a jointstock company, a trust, any unincorporated organization, or a government or political subdivision
thereof. As used in this paragraph the term “trust”

App. 244
shall include only a trust where the interest or interests of the beneficiary or beneficiaries are evidenced by a security.
(3) The term “sale” or “sell” shall include every
contract of sale or disposition of a security or interest in a security, for value. The term “offer to
sell,” “offer for sale,” or “offer” shall include every
attempt or offer to dispose of, or solicitation of an
offer to buy, a security or interest in a security, for
value. The terms defined in this paragraph and
the term “offer to buy” as used in subsection (c) of
section 5 [15 USCS § 77e(c)] shall not include preliminary negotiations or agreements between an
issuer (or any person directly or indirectly controlling or controlled by an issuer, or under direct or
indirect common control with an issuer) and any
underwriter or among underwriters who are or
are to be in privity of contract with an issuer (or
any person directly or indirectly controlling or controlled by an issuer, or under direct or indirect
common control with an issuer). Any security
given or delivered with, or as a bonus on account
of, any purchase of securities or any other thing,
shall be conclusively presumed to constitute a part
of the subject of such purchase and to have been
offered and sold for value. The issue or transfer of
a right or privilege, when originally issued or
transferred with a security, giving the holder of
such security the right to convert such security
into another security of the same issuer or of another person, or giving a right to subscribe to another security of the same issuer or of another
person, which right cannot be exercised until some
future date, shall not be deemed to be an offer or
sale of such other security; but the issue or

App. 245
transfer of such other security upon the exercise of
such right of conversion or subscription shall be
deemed a sale of such other security. Any offer or
sale of a security futures product by or on behalf
of the issuer of the securities underlying the security futures product, an affiliate of the issuer, or an
underwriter, shall constitute a contract for sale of,
sale of, offer for sale, or offer to sell the underlying
securities. Any offer or sale of a security-based
swap by or on behalf of the issuer of the securities
upon which such security-based swap is based or
is referenced, an affiliate of the issuer, or an underwriter, shall constitute a contract for sale of,
sale of, offer for sale, or offer to sell such securities.
The publication or distribution by a broker or
dealer of a research report about an emerging
growth company that is the subject of a proposed
public offering of the common equity securities of
such emerging growth company pursuant to a registration statement that the issuer proposes to file,
or has filed, or that is effective shall be deemed for
purposes of paragraph (10) of this subsection and
section 5(c) [15 USCS § 77e(c)] not to constitute an
offer for sale or offer to sell a security, even if the
broker or dealer is participating or will participate
in the registered offering of the securities of the
issuer. As used in this paragraph, the term “research report” means a written, electronic, or oral
communication that includes information, opinions, or recommendations with respect to securities of an issuer or an analysis of a security or an
issuer, whether or not it provides information reasonably sufficient upon which to base an investment decision.

App. 246
(4) The term “issuer” means every person who issues or proposes to issue any security; except that
with respect to certificates of deposit, voting-trust
certificates, or collateral-trust certificates, or with
respect to certificates of interest or shares in an
unincorporated investment trust not having a
board of directors (or persons performing similar
functions) or of the fixed, restricted management,
or unit type, the term “issuer” means the person or
persons performing the acts and assuming the
duties of depositor or manager pursuant to the
provisions of the trust or other agreement or instrument under which such securities are issued;
except that in the case of an unincorporated association which provides by its articles for limited liability of any or all of its members, or in the case
of a trust, committee, or other legal entity, the
trustees or members thereof shall not be individually liable as issuers of any security issued by the
association, trust, committee, or other legal entity;
except that with respect to equipment-trust certificates or like securities, the term “issuer” means
the person by whom the equipment or property is
or is to be used; and except that with respect to
fractional undivided interests in oil, gas, or other
mineral rights, the term “issuer” means the owner
of any such right or of any interest in such right
(whether whole or fractional) who creates fractional interests therein for the purpose of public
offerings.
(5) The term “Commission” means the Securities
and Exchange Commission.

App. 247
(6) The term “Territory” means Puerto Rico, [the
Philippine Islands,] the Virgin Islands, and the insular possessions of the United States.
(7) The term “interstate commerce” means trade
or commerce in securities or any transportation or
communication relating thereto among the several States or between the District of Columbia or
any Territory of the United States and any State
or other Territory, or between any foreign country
and any State, Territory, or the District of Columbia, or within the District of Columbia.
(8) The term “registration statement” means the
statement provided for in section 6 [15 USCS
§ 77f ], and includes any amendment thereto and
any report, document, or memorandum filed as
part of such statement or incorporated therein by
reference.
(9) The term “write” or “written” shall include
printed, lithographed, or any means of graphic
communication.
(10) The term “prospectus” means any prospectus, notice, circular, advertisement, letter, or communication, written or by radio or television,
which offers any security for sale or confirms the
sale of any security; except that (a) a communication sent or given after the effective date of the
registration statement (other than a prospectus
permitted under subsection (b) of section 10 [15
USCS § 77j(b)]) shall not be deemed a prospectus
if it is proved that prior to or at the same time
with such communication a written prospectus
meeting the requirements of subsection (a) of section 10 [15 USCS § 77j(a)] at the time [of ] such

App. 248
communication was sent or given to the person to
whom the communication was made, and (b) a notice, circular, advertisement, letter, or communication in respect of a security shall not be deemed to
be a prospectus if it states from whom a written
prospectus meeting the requirements of section 10
[15 USCS § 77j] may be obtained and, in addition,
does no more than identify the security, state the
price thereof, state by whom orders will be executed, and contain such other information as the
Commission, by rules or regulations deem necessary or appropriate in the public interest and for
the protection of investors, and subject to such
terms and conditions as may be prescribed
therein, may permit.
(11) The term “underwriter” means any person
who has purchased from an issuer with a view to,
or offers or sells for an issuer in connection with,
the distribution of any security, or participates or
has a direct or indirect participation in any such
undertaking, or participates or has a participation
in the direct or indirect underwriting of any such
undertaking; but such term shall not include a
person whose interest is limited to a commission
from an underwriter or dealer not in excess of the
usual and customary distributors’ or sellers’ commission. As used in this paragraph the term “issuer” shall include, in addition to an issuer, any
person directly or indirectly controlling or controlled by the issuer, or any person under direct or
indirect common control with the issuer.
(12) The term “dealer” means any person who
engages either for all or part of his time, directly
or indirectly, as agent, broker, or principal, in the

App. 249
business of offering, buying, selling, or otherwise
dealing or trading in securities issued by another
person.
(13) The term “insurance company” means a
company which is organized as an insurance company, whose primary and predominant business
activity is the writing of insurance or the reinsuring of risks underwritten by insurance companies,
and which is subject to supervision by the insurance commissioner, or a similar official or agency,
of a State or territory or the District of Columbia;
or any receiver or similar official or any liquidating agent for such company, in his capacity as
such.
(14) The term “separate account” means an account established and maintained by an insurance
company pursuant to the laws of any State or territory of the United States, the District of Columbia, or of Canada or any province thereof, under
which income, gains and losses, whether or not realized, from assets allocated to such account, are,
in accordance with the applicable contract, credited to or charged against such account without regard to other income, gains, or losses of the
insurance company.
(15) The term “accredited investor” shall mean –
(i) a bank as defined in section 3(a)(2) [15
USCS § 77c(a)(2)] whether acting in its individual or fiduciary capacity; an insurance
company as defined in paragraph (13) of this
subsection an investment company registered
under the Investment Company Act of 1940 or
a business development company as defined

App. 250
in section 2(a)(48) of that Act [15 USCS § 80a2(a)(48)]; a Small Business Investment
Company licensed by the Small Business Administration; or an employee benefit plan, including an individual retirement account,
which is subject to the provisions of the Employee Retirement Income Security Act of
1974, if the investment decision is made by a
plan fiduciary, as defined in section 3(21) of
such Act [29 USCS § 1002(21)], which is either
a bank, insurance company, or registered investment adviser; or
(ii) any person who, on the basis of such factors as financial sophistication, net worth,
knowledge, and experience in financial matters, or amount of assets under management
qualifies as an accredited investor under rules
and regulations which the Commission shall
prescribe.
(16) The terms “security future”, “narrow-based
security index”, and “security futures product”
have the same meanings as provided in section
3(a)(55) of the Securities Exchange Act of 1934 [15
USCS § 78c(a)(55)].
(17) The terms “swap” and “security-based
swap” have the same meanings as in section 1a of
the Commodity Exchange Act (7 U.S.C. 1a).
(18) The terms “purchase” or “sale” of a securitybased swap shall be deemed to mean the execution, termination (prior to its scheduled maturity
date), assignment, exchange, or similar transfer
or conveyance of, or extinguishing of rights or

App. 251
obligations under, a security-based swap, as the
context may require.
(19) The term “emerging growth company”
means an issuer that had total annual gross revenues of less than $ 1,000,000,000 (as such amount
is indexed for inflation every 5 years by the Commission to reflect the change in the Consumer
Price Index for All Urban Consumers published by
the Bureau of Labor Statistics, setting the threshold to the nearest 1,000,000) during its most recently completed fiscal year. An issuer that is an
emerging growth company as of the first day of
that fiscal year shall continue to be deemed an
emerging growth company until the earliest of –
(A) the last day of the fiscal year of the issuer during which it had total annual gross
revenues of $ 1,000,000,000 (as such amount
is indexed for inflation every 5 years by the
Commission to reflect the change in the Consumer Price Index for All Urban Consumers
published by the Bureau of Labor Statistics,
setting the threshold to the nearest 1,000,000)
or more;
(B) the last day of the fiscal year of the issuer following the fifth anniversary of the
date of the first sale of common equity securities of the issuer pursuant to an effective registration statement under this title [15 USCS
§§ 77a et seq.];
(C) the date on which such issuer has, during the previous 3-year period, issued more
than $ 1,000,000,000 in non-convertible debt;
or

App. 252
(D) the date on which such issuer is deemed
to be a “large accelerated filer”, as defined in
section 240.12b-2 of title 17, Code of Federal
Regulations, or any successor thereto.
(b) Consideration of promotion of efficiency, competition, and capital formation. Whenever pursuant to this
title [15 USCS §§ 77a et seq.] the Commission is engaged in rulemaking and is required to consider or determine whether an action is necessary or appropriate
in the public interest, the Commission shall also consider, in addition to the protection of investors,
whether the action will promote efficiency, competition,
and capital formation.

15 USCS § 77k
Civil liabilities on account of false
registration statement
(a) Persons possessing cause of action; persons liable.
In case any part of the registration statement, when
such part became effective, contained an untrue statement of a material fact or omitted to state a material
fact required to be stated therein or necessary to make
the statements therein not misleading, any person acquiring such security (unless it is proved that at the
time of such acquisition he knew of such untruth or
omission) may, either at law or in equity, in any court
of competent jurisdiction, sue –
(1) every person who signed the registration
statement;

App. 253
(2) every person who was a director of (or person
performing similar functions) or partner in, the issuer at the time of the filing of the part of the registration statement with respect to which his
liability is asserted;
(3) every person who, with his consent, is named
in the registration statement as being or about to
become a director, person performing similar functions, or partner;
(4) every accountant, engineer, or appraiser, or
any person whose profession gives authority to a
statement made by him, who has with his consent
been named as having prepared or certified any
part of the registration statement, or as having
prepared or certified any report or valuation which
is used in connection with the registration statement, with respect to the statement, in such registration statement, report, or valuation, which
purports to have been prepared or certified by him;
(5) every underwriter with respect to such security.
If such person acquired the security after the issuer has made generally available to its security
holders an earning statement covering a period of
at least twelve months beginning after the effective date of the registration statement, then the
right of recovery under this subsection shall be
conditioned on proof that such person acquired the
security relying upon such untrue statement in
the registration statement or relying upon the registration statement and not knowing of such omission, but such reliance may be established without

App. 254
proof of the reading of the registration statement
by such person.
(b) Persons exempt from liability upon proof of issues. Notwithstanding the provisions of subsection (a)
no person, other than the issuer, shall be liable as provided therein who shall sustain the burden of proof –
(1) that before the effective date of the part of
the registration statement with respect to which
his liability is asserted (A) he had resigned from
or had taken steps as are permitted by law to resign from, or ceased or refused to act in, every office, capacity, or relationship in which he was
described in the registration statement as acting
or agreeing to act, and (B) he had advised the Commission and the issuer in writing that he had
taken such action and that he would not be responsible for such part of the registration statement; or
(2) that if such part of the registration statement
became effective without his knowledge, upon becoming aware of such fact he forthwith acted and
advised the Commission, in accordance with paragraph (1), and, in addition, gave reasonable public
notice that such part of the registration statement
had become effective without his knowledge; or
(3) that (A) as regards any part of the registration statement not purporting to be made on the
authority of an expert, and not purporting to be a
copy of or extract from a report or valuation of an
expert, and not purporting to be made on the authority of a public official document or statement,
he had, after reasonable investigation, reasonable

App. 255
ground to believe and did believe, at the time such
part of the registration statement became effective, that the statements therein were true and
that there was no omission to state a material fact
required to be stated therein or necessary to make
the statements therein not misleading; and (B) as
regards any part of the registration statement
purporting to be made upon his authority as an
expert or purporting to be a copy of or extract from
a report or valuation of himself as an expert, (i) he
had, after reasonable investigation, reasonable
ground to believe and did believe, at the time such
part of the registration statement became effective, that the statements therein were true and
that there was no omission to state a material fact
required to be stated therein or necessary to make
the statements therein not misleading, or (ii) such
part of the registration statement did not fairly
represent his statement as an expert or was not a
fair copy of or extract from his report or valuation
as an expert; and (C) as regards any part of the
registration statement purporting to be made on
the authority of an expert (other than himself ) or
purporting to be a copy of or extract from a report
or valuation of an expert (other than himself ), he
had no reasonable ground to believe and did not
believe, at the time such part of the registration
statement became effective, that the statements
therein were untrue or that there was an omission
to state a material fact required to be stated
therein or necessary to make the statements
therein not misleading, or that such part of the
registration statement did not fairly represent the
statement of the expert or was not a fair copy of or
extract from the report or valuation of the expert;

App. 256
and (D) as regards any part of the registration
statement purporting to be a statement made by
an official person or purporting to be a copy of or
extract from a public official document, he had no
reasonable ground to believe and did not believe,
at the time such part of the registration statement
became effective, that the statements therein were
untrue, or that there was an omission to state a
material fact required to be stated therein or necessary to make the statements therein not misleading, or that such part of the registration
statement did not fairly represent the statement
made by the official person or was not a fair copy
of or extract from the public official document.
(c) Standard of reasonableness. In determining, for
the purpose of paragraph (3) of subsection (b) of this
section, what constitutes reasonable investigation and
reasonable ground for belief, the standard of reasonableness shall be that required of a prudent man in the
management of his own property.
(d) Effective date of registration statement with regard to underwriters. If any person becomes an underwriter with respect to the security after the part of the
registration statement with respect to which his liability is asserted has become effective, then for the purposes of paragraph (3) of subsection (b) of this section
such part of the registration statement shall be considered as having become effective with respect to such
person as of the time when he became an underwriter.
(e) Measure of damages; undertaking for payment of
costs. The suit authorized under subsection (a) may be

App. 257
to recover such damages as shall represent the difference between the amount paid for the security (not exceeding the price at which the security was offered to
the public) and (1) the value thereof as of the time such
suit was brought, or (2) the price at which such security shall have been disposed of in the market before
suit, or (3) the price at which such security shall have
been disposed of after suit but before judgment if such
damages shall be less than the damages representing
the difference between the amount paid for the security (not exceeding the price at which the security was
offered to the public) and the value thereof as of the
time such suit was brought: Provided, That if the defendant proves that any portion or all of such damages
represents other than the depreciation in value of such
security resulting from such part of the registration
statement, with respect to which his liability is asserted, not being true or omitting to state a material
fact required to be stated therein or necessary to make
the statements therein not misleading, such portion of
or all such damages shall not be recoverable. In no
event shall any underwriter (unless such underwriter
shall have knowingly received from the issuer for acting as an underwriter some benefit, directly or indirectly, in which all other underwriters similarly
situated did not share in proportion to their respective
interests in the underwriting) be liable in any suit or
as a consequence of suits authorized under subsection
(a) for damages in excess of the total price at which the
securities underwritten by him and distributed to the
public were offered to the public. In any suit under this
or any other section of this title [15 USCS §§ 77a et

App. 258
seq.] the court may, in its discretion, require an undertaking for the payment of the costs of such suit, including reasonable attorney’s fees, and if judgment shall be
rendered against a party litigant, upon the motion of
the other party litigant, such costs may be assessed in
favor of such party litigant (whether or not such undertaking has been required) if the court believes the
suit or the defense to have been without merit, in an
amount sufficient to reimburse him for the reasonable
expenses incurred by him, in connection with such suit,
such costs to be taxed in the manner usually provided
for taxing of costs in the court in which the suit was
heard.
(f ) Joint and several liability; liability of outside director.
(1) Except as provided in paragraph (2), all or
any one or more of the persons specified in subsection (a) shall be jointly and severally liable, and
every person who becomes liable to make any payment under this section may recover contribution
as in cases of contract from any person who, if sued
separately, would have been liable to make the
same payment, unless the person who has become
liable was, and the other was not, guilty of fraudulent misrepresentation.
(2) (A) The liability of an outside director under
subsection (e) shall be determined in accordance
with section 21D(f ) of the Securities Exchange Act
of 1934 [15 USCS § 78u-4(f )].
(B) For purposes of this paragraph, the term
“outside director” shall have the meaning

App. 259
given such term by rule or regulation of the
Commission .
(g) Offering price to public as maximum amount recoverable. In no case shall the amount recoverable under this section exceed the price at which the security
was offered to the public.

15 USCS § 77l
Civil liabilities arising in connection
with prospectuses and communications
(a) In general. Any person who –
(1) offers or sells a security in violation of section
5 [15 USCS § 77e], or
(2) offers or sells a security (whether or not exempted by the provisions of section 3 [15 USCS
§ 77c], other than paragraphs (2) and (14) of subsection (a) thereof ), by the use of any means or instruments of transportation or communication in
interstate commerce or of the mails, by means of a
prospectus or oral communication, which includes
an untrue statement of a material fact or omits to
state a material fact necessary in order to make
the statements, in the light of the circumstances
under which they were made, not misleading (the
purchaser not knowing of such untruth or omission), and who shall not sustain the burden of
proof that he did not know, and in the exercise of
reasonable care could not have known, of such untruth or omission,

App. 260
shall be liable, subject to subsection (b), to the person purchasing such security from him, who may
sue either at law or in equity in any court of competent jurisdiction, to recover the consideration
paid for such security with interest thereon, less
the amount of any income received thereon, upon
the tender of such security, or for damages if he no
longer owns the security.
(b) Loss causation. In an action described in subsection (a)(2), if the person who offered or sold such security proves that any portion or all of the amount
recoverable under subsection (a)(2) represents other
than the depreciation in value of the subject security
resulting from such part of the prospectus or oral communication, with respect to which the liability of that
person is asserted, not being true or omitting to state
a material fact required to be stated therein or necessary to make the statement not misleading, then such
portion or amount, as the case may be, shall not be recoverable.

